Audit Report




OIG-12-034
Audit of the Alcohol and Tobacco Tax & Trade Bureau’s
Fiscal Years 2011 and 2010 Financial Statements


December 21, 2011




Office of
Inspector General
Department of the Treasury
The Alcohol and Tobacco Tax and Trade Bureau (TTB) is committed to making its Web
     Site accessible to all TTB customers and staff and creates its Web pages in
       accordance with the provisions of Section 508 of the Rehabilitation Act.

  However, the attachment to our report, TTB's Annual Report FY 2011, does not
       conform to the Standards of Section 508 of the Rehabilitation Act.

For a copy of TTB's Annual Report FY 2011, see TTB's Annual Reports Web page and
    for problems with accessibility, please contact TTB at TTBWebmaster@ttb.gov. 

                                    Also see:

                       About TTB -Accessibility Policy Page
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 21, 2011


            MEMORANDUM FOR JOHN J. MANFREDA, ADMINISTRATOR
                           ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Alcohol and Tobacco Tax and Trade Bureau’s
                                    Fiscal Years 2011 and 2010 Financial Statements


            I am pleased to transmit the attached audited Alcohol and Tobacco Tax and Trade
            Bureau (TTB) financial statements for fiscal years 2011 and 2010. Under a
            contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of TTB’s financial statements
            as of September 30, 2011 and 2010 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the financial statements were fairly presented, in
            all material respects, in conformity with U.S. generally accepted accounting
            principles. However, KPMG LLP identified a material weakness related to internal
            control over the review of the allowance for doubtful accounts on tax and trade
            receivables. Further, KPMG LLP found no instances of reportable noncompliance
            with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit performed in accordance with generally accepted government
            auditing standards, was not intended to enable us to express, and we do not
            express, an opinion on TTB’s financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated December 20, 2011 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
Alcohol and Tobacco Tax and Trade Bureau



Annual Report
FY 2011




                          a
Table of Contents
Introduction ............................................................................................................................................. i

Message from the Administrator ............................................................................................... ii

Vision, Mission, and Values......................................................................................................... v

TTB Strategic Goals and Objectives ...................................................................................... vi

TTB Office Locations ....................................................................................................................vii

Part I: Management’s Discussion and Analysis

Profile of a Bureau .................................................................................................................................. 1

Performance Summary ...................................................................................................................... 28

Financial Summary.............................................................................................................................. 36

FY 2011 Bureau Budget..................................................................................................................... 38

Bureau Challenges ............................................................................................................................... 39

Part II: Program Performance Results

Performance Overview ...................................................................................................................... 40

Summary of Collect the Revenue Performance ........................................................................ 41

Summary of Protect the Public Performance............................................................................ 45

Summary of Management and Organizational Excellence Performance ....................... 48


                                                                             a
                                                        TTB 2011 Annual Report




Message from the Chief Financial Officer ........................................................................ 57

Part III: Financial Results, Position, Condition and Auditors’ Reports

Budget Highlights by Fund Account ............................................................................................. 59

Linking Budget to Program Spending .......................................................................................... 60

Systems and Controls ......................................................................................................................... 64

Financial Statements, Accompanying Notes and Supplemental Information .............. 68

       Independent Auditors’ Reports ............................................................................................. 69

       Financial Statements .................................................................................................................................. 77

       Notes to the Financial Statements ........................................................................................................ 82

       Required Supplementary Information (Unaudited) .................................................................. 102

       Other Accompanying Information (Unaudited) ........................................................................... 104


Part IV: Appendices

Principal Officers of TTB ................................................................................................................. 108

TTB Organization Chart................................................................................................................... 109

Connecting the Treasury and TTB Strategic Plans ............................................................... 110




                                                                              b
                                           TTB 2011 Annual Report


Introduction
Supporting the Nation’s economic prosperity is at the core of the work performed by the Alcohol and Tobacco
Tax and Trade Bureau (TTB). The Bureau’s role in permitting and regulating the alcohol and tobacco industries
ensures a fair marketplace, enhanced trade opportunities, and a level playing field in the industries we
regulate.
Even in these tough economic times, the market sectors TTB regulates have continued to expand, specifically
evidenced by growth in the beverage alcohol producer and wholesaler permit applications received by TTB.
Annual tax revenue from the alcohol, tobacco, firearms, and ammunition industries is approaching $24 billion,
making TTB the third largest tax collection agency in the Federal government. The revenue that TTB collects
on these products goes toward funding national priorities.
Across government, as the resources available to agencies to effect their mandates are contracting, it is
imperative that every dollar invested in government services produce a return or demonstrate a value.
Responsible government means holding one’s self accountable to the citizens of this country, which is why TTB
combines program performance and financial data within its FY 2011 Annual Report to demonstrate how
effectively the Bureau translates its program dollars into quality service, responsible management practices,
consumer protection, and increased tax revenue.
As part of the performance and budget cycle, this report grants the Bureau an opportunity to inform
stakeholders of its successes and explain any shortfalls. The report defines the Bureau’s mission, strategic
goals, and major programs, and summarizes its progress in meeting its objectives, as stated in the TTB strategic
plan. TTB also presents financial information that depicts how TTB expended its budget on its major programs,
and accounted for tax collections from the alcohol, tobacco, firearms, and ammunition industries.
This report presents this information in four parts:
Part I – Management’s Discussion and Analysis. This section provides an overview of the Bureau including its
mission and programs, highlights of program and financial operations, and a summary of TTB’s program
performance.
Part II – Program Performance Results. This section provides a summary of results achieved for each
performance measure related to the Collect the Revenue and Protect the Public strategic goals and an
overview of the Bureau’s accomplishments under its Management and Organizational Excellence goal.
Part III – Financial Results, Position, Condition and Auditors’ Reports. In this section, TTB presents audited
balance sheets, statements of net cost, changes in net position, budgetary resources, and custodial activity as
of and for the years ending September 30, 2011, and September 30, 2010. Also included is a report on the
Bureau’s internal control over financial reporting and a report on TTB’s compliance with laws and regulations.
This report section also includes a discussion of budget activities for each of the Bureau’s seven major
programs, and supplemental information, such as a history of Federal excise tax collections for the past
decade.
Part IV – Appendices. This section includes a listing of TTB principal officers, an organization chart, and
strategic plan information that demonstrates the relationship between TTB’s plan and the overall Department
of the Treasury’s mission and goals.

                                                        i
                                           TTB 2011 Annual Report


Message from the Administrator
                                  Finding new and innovative ways to accomplish our respective missions is a
                                  shared challenge across the Federal government. The fiscal challenges the
                                  Nation faces just add a finer point to a responsibility incumbent upon all
                                  public servants to effectively and efficiently administer their jurisdiction.
                                  Building a business model that is lean and sustainable, and structured to
                                  produce maximum results for the dollars invested, has been a primary focus
                                  for TTB in the past fiscal year. The results of our efforts, outlined in part in
                                  this annual report, should provide greater assurances that TTB is successful in
                                  both its revenue and trade roles.

                                  Already, the TTB business model produces one of the best returns of any tax
                                  collection agency, with the Bureau bringing in $468 for every $1 spent on tax
                                  collection. In FY 2011, TTB collections on alcohol, tobacco, and firearms
products totaled $23.5 billion.

Protecting this important Federal revenue stream requires a vigorous tax enforcement program that, until this
year, was handicapped by the lack of law enforcement support to address fraud and other criminal activity in
the trade of alcohol and tobacco products. With billions of dollars of tax revenue at stake, TTB pursued an
innovative method of using a $3 million earmark from Congress to procure special agent services from the
Internal Revenue Service to enforce TTB’s criminal jurisdiction. A novelty in government, the agreement
between TTB and the IRS embodies this Bureau’s longstanding business approach of leveraging available
resources before taking on costly and duplicative infrastructure. Contracting for agent services also ensured
that the investment made by Congress in this criminal enforcement initiative was used to maximum effect.

The results from this arrangement have exceeded all expectations. In just eight months of active
investigations, TTB opened 21 criminal cases that identified more than $20 million in tax liabilities. By
outsourcing agent services, TTB expended minimal funding in conducting these cases, and estimates the
potential return on investment for this initiative at 10:1. We believe this figure is stunted, both because of the
limitations placed on our investigations by the two-year spending authority, and because it does not account
for the deterrent impact of our law enforcement presence. Though difficult to quantify, the value of an
enforcement presence unquestionably goes beyond any direct collections that may occur to fostering overall
tax compliance. The expiration of the two-year earmark ended the reimbursable agreement with the IRS;
however, TTB will continue to rely on the partnerships forged in FY 2011 to enforce its criminal jurisdiction in
the coming year.

The past year also involved significant progress in the realization of our long-term business vision to move our
core services into the online environment. Under tight budget constraints, two e-Gov systems—Permits
Online and Formulas Online—were launched in FY 2011. Keeping development costs low by investing in a
commercial, Web-based product, TTB released the Permits Online electronic filing solution for permit
applications in February 2011. Prior to the system’s release, staffing losses and the rising volume of
applications had reached a critical point, with the average processing time for original permit applications
projected to reach 90 days by the close of FY 2011, an erosion in service of 40 percent compared to just two
                                                        ii
                                           TTB 2011 Annual Report
years ago. Delays in permit processing would have placed TTB in an anti-business posture at a time when small
business growth is needed to fuel the economy. Since its release, TTB has achieved a 15 percent reduction in
processing times for the eligible application types, issuing original permits to businesses in 48 days compared
to 57 days for the same application types submitted on paper. The customer response to Permits Online has
been extremely positive, with nearly 60 percent of permit applicants electing to file electronically.

Further, TTB released Formulas Online in January 2011, a Web-based system that members of the alcohol
industry can use to draft and submit alcohol product formulas for TTB approval. The review of formulations is
both critical in terms of applying the appropriate tax rate and in terms of properly labeling an alcohol beverage
product. This e-Gov system also met with customer approval, with more than 500 industry members
registering to use Formulas Online within the first weeks of operation. Registrations continue to rise and, to
date, more than 30 percent of formulas are received electronically, saving both the industry and TTB time and
resources in fulfilling this regulatory requirement.

In addition to its tax and regulatory functions, TTB also plays an important role in the facilitation of the global
alcohol trade. The trade in alcohol beverages has never been more robust, with the export value of wine and
spirits totaling $2.15 billion in FY 2010, a 16 percent increase from 2007. In order to catalyze the vast
opportunity for domestic businesses in overseas markets, in FY 2011, TTB advanced our network of regulators
through international agreements with Italy, France, and Canada, among others. Targeting the top U.S. trading
partners for alcohol beverages supports the Administration’s trade policy goal of doubling U.S. exports by the
end of 2014.

Ensuring that the commercial trade of alcohol beverages is fair and open to all players is also essential in this
economy, and the responsibility for overseeing the integrity of the domestic marketplace falls to TTB. In FY
2011, with a small cadre of investigators, TTB settled a landmark series of cases in which TTB alleged that six
major alcohol beverage suppliers were furnishing illegal inducements to a retail casino chain in return for
preferential shelf space for their products. Such acts threaten fair competition in the alcohol beverage trade,
especially for small companies that cannot afford to pay fees to retailers to do business. TTB negotiated a $1.9
million settlement for these cases, the largest set of offers in compromise ever accepted by TTB for trade
practice violations. Looking ahead, vigorous enforcement of these provisions of the Federal Alcohol
Administration Act will continue so that all who operate in the alcohol beverage trade have equal opportunity.

In meeting our mandates, we rely on the ingenuity and expertise of a workforce of just 500 employees. In
recent years, we have had to make difficult choices in our cost-cutting efforts, the effects of which are felt
most acutely by front line staff. The ramifications of reductions in staffing levels manifested in a drastic
decline in employee satisfaction in FY 2010, as measured by the Federal human capital survey. As human
capital is the backbone of every organization, the TTB leadership team committed extensive resources and
time in the last fiscal year to soliciting input from employees on ways to improve the workplace and putting
those suggestions into effect. Validation of these efforts came in the shift in TTB’s ranking among the Federal
government’s Best Places to Work, as issued annually by the Partnership for Public Service, from 83rd in FY
2010 to 34th in FY 2011.

Though external pressures are driving change across Federal agencies, TTB has always maintained a focus on
keeping a lean and efficient business model. In keeping with our adaptive and flexible work culture, we intend
to meet the challenges of the future with continued automation of business processes, increasingly
                                                        iii
                                         TTB 2011 Annual Report
sophisticated risk modeling to target limited enforcement resources, and the expanded application of
statistical sampling to extend our enforcement coverage and effectively manage workloads. These strategies
will assure that we make the best use of the taxpayer dollars entrusted to us.

The Bureau has validated the accuracy, completeness, and reliability of the performance data contained in this
report.

                                                   [Signed]
                                              John J. Manfreda
                                                Administrator




                                                      iv
                                         TTB 2011 Annual Report


Vision, Mission, and Values
Vision
Our vision is to maintain an organization of people who value each other and who treat each other and their
customers with the respect that they deserve. We intend to uphold the laws, for which we are responsible, in
a fair, equitable, and appropriate manner, affording all an opportunity to have their opinions heard without
prejudice. We intend to carry out our mission without imposing inappropriate or undue burden on those from
which TTB collects taxes and those TTB regulates.

Mission
Collect the Federal excise taxes on alcohol, tobacco, firearms, and ammunition, and assure compliance with
Federal tobacco permitting and alcohol permitting, labeling, and marketing requirements to protect
consumers.

Values
We value each other and those we serve. This Bureau:

 • Upholds the highest standards of excellence and integrity;

 • Provides quality service and promotes strong external partnerships;

 • Develops a diverse, innovative, and well-trained workforce in order to achieve our goals; and

 • Embraces learning and change in order to meet the challenges of the future.




                                                       v
                                          TTB 2011 Annual Report


TTB Strategic Goals and Objectives
Strategic Goal: Collect the Revenue
Industry remits the proper federal tax on alcohol, tobacco, firearms, and ammunition products

Tax Verification and Validation. Assure voluntary compliance in the timely and accurate remittance of tax
payments

Civil and Criminal Enforcement. Detect and address excise tax evasion and other criminal violations of the
Internal Revenue Code in the industries TTB regulates

Strategic Goal: Protect the Public
Alcohol and tobacco industry operators meet permit qualifications, and alcohol beverage products
comply with federal production, labeling, and marketing requirements

Business Integrity. Assure that only qualified persons and business entities operate within the industries TTB
regulates

Product Integrity. Assure that alcohol beverage products comply with Federal production, labeling, and
advertising requirements

Market Integrity. Assure fair trade practices throughout the alcohol beverage marketplace

Strategic Goal: Management and Organizational Excellence
Effectively managed resources and human capital for maximum performance, efficiency, and
program results

Human Capital Management. Maintain a qualified, engaged, and satisfied workforce

Technology Solutions. Deliver effective, streamlined, and flexible IT solutions that add value and support
program performance

Finance and Performance Results. Facilitate strategic management and financial accountability through the
delivery of timely and reliable financial and performance information




                                                       vi
                                         TTB 2011 Annual Report


 TTB Office Locations




                  Industry at a Glance                                         TTB at a Glance
Total Industry Members                   56,217          Employees                                    502
Industry Members by Permit Type                          Office Locations *                           20
  Alcohol                                96.6%           Budget Authority                             $100.8 Million
  Tobacco                                1.5%            Revenue Collected                            $23.5 Billion
  Firearms                               1.9%            Original and Amended Permits Processed       25,679
Industry Members Not Subject to Tax      44,024          Certificate of Label Applications Received 145,305
Industry Members Subject to Tax          12,193          *TTB has some offices co-located in larger cities.

  Those Who Filed and Paid Taxes         7,750




                                                   vii
                                                     TTB 2011 Annual Report


PART I
Management’s Discussion and Analysis
Profile of a Bureau
The mission of the Alcohol and Tobacco Tax and Trade Bureau (TTB) is to collect the Federal taxes on alcohol,
tobacco, firearms, and ammunition products and to protect the consumer of alcohol beverages from unsafe or
improperly labeled products and from unfair competitive practices in the trade of alcohol. The Bureau’s
diverse mission, and its position as a bureau of the Department of the Treasury, means that TTB must strike a
balance between its tax and regulatory functions and its role in facilitating fair and robust economic activity in
the alcohol and tobacco trades.

TTB is staffed with approximately 500 employees, most of who report to either the headquarters office in
Washington, D.C., or the National Revenue Center in Cincinnati, Ohio. For its auditors and investigators to
most effectively operate in the field, TTB also has 11 offices in cities across the U.S., as well as Puerto Rico.
Additionally, the Bureau has two laboratory facilities in Walnut Creek, California and Beltsville, Maryland. See
Part IV of this report for a chart outlining the TTB organization structure.

The Bureau was formed in January 2003, under the Homeland Security Act of 2002, but its history began more
than 200 years ago as one of the earliest Federal tax collection agencies. Today, TTB operates under the
authorities of the Internal Revenue Code of 1986 (IRC) 1 and the Federal Alcohol Administration Act (FAA Act), 2
including the Alcoholic Beverage Labeling Act of 1988 (ABLA) 3 and the Webb-Kenyon Act. 4 These laws put in
place strict requirements and controls related to alcohol and tobacco products and place restrictions on who
can make, sell, and distribute these commodities.

In general terms, TTB administers its jurisdiction according to two core mission areas—“Collect the Revenue”
and “Protect the Public”—to produce identifiable outcomes in support of the Nation’s financial and economic
interests.




a122
1
  Chapters 51 and 52 of the IRC provide for excise taxation and authorize operations of alcohol and tobacco producers and related
industries, and IRC sections 4181 and 4182 provide for excise taxes for firearms and ammunition.
2
 The FAA Act provides for regulation of those engaged in the alcohol beverage industry and for protection of consumers through
certain requirements regarding the labeling and advertising of alcohol beverages. The FAA Act also includes provisions to preclude
unfair trade practices that serve as barriers to competition and trade in the U.S. marketplace.
3
 The ABLA mandates that a Government warning statement appear on all alcohol beverages offered for sale or distribution in the
United States.
4
    The Webb-Kenyon Act prohibits the shipment of alcohol beverages into a State in violation of the receiving State’s laws.


                                                                     1
                               TTB 2011 Annual Report



Alcohol Industry Snapshot




Tobacco Industry Snapshot




Firearms & Ammunitions Industry Snapshot




                                           2
                                           TTB 2011 Annual Report

Collect the Revenue
TTB is the third largest tax collection agency in the U.S. Government, behind the Internal Revenue Service (IRS)
and U.S. Customs and Border Protection (CBP). TTB’s effective administration of its collections duties ensures
that the Federal government has the cash resources needed to fund the Nation’s priorities.

TTB collected $23.5 billion in taxes in FY 2011—a
decrease of 1 percent compared to FY 2010 when                FY 2011 Tax Collections by Commodity
excise tax collections on these trade goods
reached an historic high. Prior to 2008, TTB and
its predecessor—the Bureau of Alcohol, Tobacco                                         Tobacco
                                                                  Alcohol
and Firearms (ATF)—collected between $14 - $15                                           67%
                                                                   31%
billion in excise taxes annually. Now, for the third
consecutive year, TTB tax collections have
exceeded $23 billion.

The increase in tax revenue is mostly attributable                Firearms
                                                                     2%
to increased receipts from the tobacco industry.
With the passage of the Children’s Health
Insurance Program Reauthorization Act (CHIPRA) in February 2009, Congress imposed significantly increased
tax rates on cigarettes and other tobacco products. This legislation provided for a tax increase on all tobacco
products (except large cigars), and cigarette papers and cigarette tubes, effective April 1, 2009. In FY 2011,
TTB tobacco excise tax collections reached $15.5 billion. In forecasting tobacco revenues, Federal collections
are expected to decline after peaking in FY 2010. Higher prices on tobacco products have historically resulted
in decreased consumption and increased illicit trade, which combined would indicate declining tax revenues in
the out years.

The alcohol beverage industry in the United States pays $7.6 billion in Federal excise taxes each year and also
provides a source of tax revenue for state and local governments. Economic forecasts predict continued
modest growth in the alcohol industry, and taxes collected on alcohol beverages are expected to continue to
rise throughout the period of FY 2011 – FY 2013. TTB expects that the increase in new alcohol businesses will
be most prominent in the number of wineries, craft breweries, and craft distilleries.

Firearms and ammunition excise taxes are remitted to the Fish and Wildlife Restoration Fund under provisions
of the Pittman-Robertson Act of 1937. The U.S. Fish and Wildlife Service, which oversees the fund, apportions
the money to state governments for wildlife restoration and research, and hunter education programs. Federal
excise tax collections on firearms and ammunition have increased from $193 million in FY 2003 to $344 million
in FY 2011, an increase of $151 million over the past seven years, or a 78 percent growth in Federal FAET
revenues. The increase in reported tax revenue can be attributed to industry growth, effective outreach and
collection initiatives at the Bureau, and the field presence of TTB’s auditors, which continues to promote
voluntary taxpayer compliance.




                                                       3
                                           TTB 2011 Annual Report

Civil Tax Enforcement

Tax Classification
The tax rate on alcohol and tobacco products varies according to various characteristics of the products
themselves and of the production volume of the producers. Therefore, a critical first step in tax enforcement is
the assignment of a tax class to alcohol and tobacco products based on Federal regulatory standards.

For alcohol beverages, classification requires that the Bureau review the formula of certain products before
they enter the market. For example, if an examination of the formula were to disclose that an imported sake,
which is made from fermented rice and is classified and taxed as wine, contains added spirits, then the product
is then classified and taxed as a distilled spirit. This type of formula review, known as a pre-import approval,
can have significant tax implications, as wine is subject to a lower tax rate than spirits products.

TTB also conducts post-market product evaluations to check for proper tax classification. As an example, TTB
evaluates samples of products marketed as large cigars to verify that the products are large cigars rather than
cigarettes or small cigars, as the tax rates differ markedly between these products. In classifying such a
product under the IRC, TTB evaluates the product’s wrapper, the type of tobacco used in the filler the
product’s packaging and labeling and its weight to verify that the product meets the statutory criteria for a
large cigar.

Non-Traditional Tobacco Products

TTB also must determine the tax classification of new forms of tobacco products. Some of these new products
are a result of market innovation while others are actually products common in other countries. In FY 2011,
TTB evaluated a range of non-traditional products, such as products marketed as “electronic” cigars,
cigarettes, or pipes, and products marketed as “tobacco free” tobacco product alternatives. One important
initial factor for evaluating these products is determining whether the products contain tobacco. If the
products do not contain tobacco, the tax would not apply. To do so, the TTB Tobacco Laboratory developed a
method to confirm the presence of tobacco in these unconventional products. The tobacco verification
determinations are also relevant to states, which defer to TTB for such determinations, and other Federal
agencies, such as the Food and Drug Administration (FDA).

Regulatory Standards for Tobacco Products

As a result of CHIPRA, the tax on small cigars and small cigarettes was made equivalent, at $50.33 per 1,000
sticks. While the tax issue was resolved by this parity, the need for appropriate classification of these products
remains, since other laws make a distinction between cigars and cigarettes, and impose more stringent
regulatory restrictions over cigarettes but not cigars. For example, the Jenkins Act, recently amended by the
Prevent All Cigarette Trafficking (PACT) Act, applies restrictions on delivery and Internet sales of cigarettes and
smokeless tobacco products and on mailing such products through the U.S. Postal Service (USPS), but these
restrictions do not apply to cigars. In this case, and in all instances where cigarettes are more restrictively
regulated than cigars, the incentive for industry to misclassify these products remains.




                                                         4
                                           TTB 2011 Annual Report
From an excise tax perspective, since the enactment of CHIPRA issues
relating to distinguishing between cigars and cigarettes are less
                                                                              Effec t of CHIPRA on Taxable
prominent because the tax on cigarettes and small cigars is now the
                                                                              Removals of Tobacco Products
same, while issues relating to verifying that a product is a large rather
than a small cigar have become more prominent.                                Payment of excise tax is due from tobacco
                                                                              manufacturers at the time the product is
The distinction between small cigars and large cigars is a straightforward    removed for sale from the manufacturing
                                                                              premises. Since the enactment of CHIPRA,
one based solely on weight, that is, large cigars weigh over 3 pounds per     significant shifts in the tobacco products
1,000 while small cigars weigh 3 pounds per 1,000 sticks or less.             industry have surfaced, particularly in the
However, the tax on large cigars is based on the sale price (the price sold   markets for small and large cigars and RYO
by the manufacturer or importer) while the tax on small cigars is a fixed     and pipe tobacco. The revenue losses just
                                                                              from the shift in RYO and pipe tobacco
per-unit tax ($50.33 per 1,000). As a result, the tax on inexpensive large
                                                                              removals, assuming the market shift is
cigars may be quite a bit less than that on small cigars. For                 attributable to the tax rate increase, exceed
manufacturers and importers of inexpensive cigars that are relatively         $1 billion since January 2010, the first full
close to the 3-pound per 1,000 dividing line, the incentive is to ensure      calendar year of collections following the
that these products weigh just enough to meet the weight criteria of          enactment of CHIPRA.

large cigars. Hence, after the enactment of CHIPRA, TTB saw that a                      Pre-CHIPRA Reported Removals of
number of the products that it had evaluated and determined to be small                      Small and Large Cigars

cigars prior to CHIPRA were now just over 3 pounds per 1,000.
                                                                                                Large         Small
                                                                                                Cigars        Cigars
An even more significant issue since the enactment of CHIPRA, and one                            48%           52%
of ongoing concern, is the shift in the pipe tobacco and roll-your-own
(RYO) tobacco products. Prior to CHIPRA, the tax rates on pipe tobacco
and RYO tobacco were the same at just under $1.10 per pound. As a                       Post-CHIPRA Reported Removals of
result of CHIPRA, the tax on pipe tobacco was increased to just over                          Small and Large Cigars
                                                                                                                              Small Cigars
$2.83 per pound, while the tax on RYO tobacco was increased to $24.78                                                            11%

per pound. This significant tax difference resulted in a dramatic shift in                       Large
                                                                                                 Cigars
the volume of pipe tobacco and RYO tobacco reported as removed by                                 89%

domestic manufacturers from their manufacturing premises for sale in
the United States. In short, the amount of pipe tobacco removed greatly
increased while the amount of RYO tobacco removed declined.                             Pre-CHIPRA Reported Removals of
                                                                                         Pipe and Roll-Your-Own Tobacco

Under the IRC, pipe tobacco is any tobacco which, because of its                                             Pipe
                                                                                                             14%
appearance, type, packaging, or labeling, is suitable for use and likely to
                                                                                                 RYO
be offered to, or purchased by, consumers as tobacco to be smoked in a                           86%

pipe. RYO tobacco is defined as any tobacco which, because of its
appearance, type, packaging, or labeling, is suitable for use and likely to
                                                                                          Total Removals of 23.5 Million Pounds
be offered to, or purchased by, consumers as tobacco for making                         Post-CHIPRA Reported Removals of
cigarettes or cigars, or for use as wrappers of cigars or cigarettes.                    Pipe and Roll-Your-Own Tobacco



Because of the lack of clear standards in the tax code to differentiate
pipe tobacco from RYO tobacco, and the consequent potential for                                                Pipe
                                                                                                               79%
misclassification and erroneous tax payment on these products, TTB
published a notice in the Federal Register (75 FR 42659) seeking
                                                                                           Total Removals of 28.2 Million Pounds


                                                         5
                                           TTB 2011 Annual Report
comment on the types of objective standards that would provide a basis for differentiating between these two
products for tax purposes. The comment period was reopened to address comments received after the public
comment period ended and the extended period closed on October 24, 2011. At the same time, the TTB
Tobacco Laboratory has been evaluating proposed methods and standards, and undertaking research to
develop methods and standards, in support of this rulemaking. The goal is to set forth a set of objective
criteria, based on physical characteristics of the products, that distinguish between pipe tobacco and RYO for
tax purposes. TTB intends to publish subsequent rulemaking in this area.

Tax Verification
In effecting its revenue mission, TTB uses a coordinated enforcement approach to verify that industry
members remit the excise taxes due on the alcohol, tobacco, firearms, and ammunition products sold to U.S.
consumers. The Bureau’s auditors, investigators, chemists, and tax and regulatory specialists work in concert
to verify and validate that industry members pay the proper amount of tax on these strictly regulated
commodities.

The strategic risk-based approach used to deploy limited staff resources enables TTB to leverage its field
presence to cover a wide universe taxpayers. TTB field personnel conduct targeted compliance audits and
investigations based on risk and random factors. Working on taxpayer premises, TTB auditors and
investigators review the production records and returns of industry members to ensure compliance with
Federal tax and regulatory requirements. In FY 2011, these combined efforts resulted in the identification of
$35 million in additional tax, penalties, and interest, and the collection of more than $15 million in additional
tax revenue.

Floor Stocks Tax Enforcement

In FY 2011, TTB continued to address the significant revenue exposure that remains from the floor stocks tax
(FST) levied on tobacco products under the CHIPRA legislation. An FST is a one-time excise tax placed on a
commodity undergoing a tax increase, and was imposed on all tobacco products held for sale as of April 1,
2009. The FST is equal to the difference between the new tax rate and the previous rate. As TTB has no
regulatory authority over tobacco wholesalers and retailers, the FST represented an enforcement challenge by
adding approximately 400,000 new taxpayers to TTB’s enforcement responsibility. In two years, TTB has
identified $16.3 million in underpaid FST, and collected $8.5 million in additional FST collections.

Since its enactment, TTB has continued its FST enforcement efforts based, in part, on findings that many
wholesalers and retailers failed to report or underreported their tobacco inventory and associated tax
payments. Field examinations of the largest FST taxpayers have been initiated, and on-site examinations will
continue into FY 2012; however, the number of FST non-filers is so great that existing enforcement resources
cannot conduct on-site examinations of the entire population of high-risk taxpayers. In FY 2011, TTB developed
a procedure to pursue tax liabilities at companies where targeting analysis indicates FST liabilities exist, but
where it is not cost effective or otherwise practical to conduct an on-site examination.

The procedure combines field analytics with a risk-based assessment approach to identify tobacco wholesalers
and retailers that sourced tobacco product during the month of March 2009, but either did not file an FST
return or filed an FST return declaring zero FST liability. TTB auditors use Federal and state databases, as well
as third-party commercial data, to target non-filers, and the National Revenue Center uses a “substitute-for-
                                                           6
                                            TTB 2011 Annual Report
return” process to issue assessments on the estimated tax liabilities en masse. The IRC permits TTB to create a
tax return for a taxpayer where no return has been filed, or the return that was filed is considered false. TTB
may use the information collected in the course of FST enforcement, if sufficiently detailed, to create a tax
return, in what is commonly called a "substitute-for-return" process. Initial estimates based on this procedure
indicate that the FST revenue risk is more than $25 million.

Targeted Tax Enforcement
In FY 2011, TTB used current intelligence on potential vulnerabilities in the distribution chains for tobacco to
enhance its risk models and better target its enforcement efforts to protect Federal revenues.

Due to the known revenue risk in the import and export trade in tobacco products, and as the Federal
permitting authority for tobacco importers, TTB developed a tobacco importer risk model to identify the
highest risk tobacco importers in TTB’s portfolio. In FY 2011, the Bureau’s audits of these businesses resulted
in the identification of more than $10 million in additional excise tax liability. TTB referred these cases to CBP,
the authority for collecting the Federal excise tax on imported products.

Additionally, as required by the CHIPRA legislation, tobacco processors now report to TTB on the removal,
transfer, or sale of processed tobacco. As processed tobacco is untaxed, there is significant revenue risk if this
product is diverted outside the lawful distribution chain for use in the illegal manufacture of tobacco products.
In FY 2011, TTB initiated a pilot project, driven by a newly developed risk model, which indicated that
processed tobacco was being distributed to non-permitted manufacturers who did not report or file Federal
excise taxes. There are 30 domestic tobacco processors and 179 importers of processed tobacco who
distribute approximately 1.1 billion pounds of processed tobacco to a myriad of brokers, manufacturers, and
other tobacco processors. The TTB risk model developed for the pilot project indicated that many of these
businesses warranted a joint investigation/audit to determine compliance with TTB laws and regulations and
to validate the amounts of processed tobacco reported in their filings.

TTB conducted field examinations of these manufacturers and importers of processed tobacco, and conducted
subsequent audits and forward traces of processed tobacco removals outside of the permitted system. As of
the close of FY 2011, this work had identified the potential for approximately $9 million in additional Federal
excise tax due on illegally manufactured tobacco products. To date, through its efforts to trace processed
tobacco from manufacturers and importers to various points in the distribution system, TTB has collected $1
million from a tobacco importer. Additionally, these efforts found that large quantities of processed tobacco
were being reported as shipped to two warehouses that either didn’t exist or never received the product. The
potential tax liability for these processed tobacco shipments (if made into cigarettes) exceeds $5 million. In
terms of criminal activity, this initiative identified several illegal manufacturers, to date, and one criminal case
referral to a United States Attorney’s office; that office is currently investigating the case for potential
prosecution. This pilot project will be rolled out nationwide in FY 2012.

Criminal Enforcement
TTB is the sole agency with jurisdiction over Federal excise tax evasion in relation to alcohol and tobacco
products. Under its criminal authority, TTB is charged with identifying any gaps in tax payment from entities
and individuals operating outside of the lawful distribution system for alcohol and tobacco products. Using

                                                         7
                                                    TTB 2011 Annual Report
leads from referrals, government databases, and other external sources, as well as internal data, TTB is able to
identify trends and schemes used to facilitate tax fraud and diversion.

Tax fraud in the alcohol and tobacco industries, whether through unlawful product diversion or other means,
poses a high risk to Federal revenue collection as well as a lucrative funding source for criminal or terrorist
organizations. 5 Diversion activity also undermines Federal and state tax interests in promoting fair
competition within interstate commerce. Further, the illicit trade of alcohol and tobacco products also
undermines public health policy by allowing the introduction of illegally manufactured or distributed products
into the marketplace at reduced prices, thereby making them more accessible or affordable, thus directly
contravening tax policies aimed at reducing consumption. Consequently, non-taxpaid alcohol and tobacco
products offer a cheap alternative to price-sensitive consumers who might otherwise abstain from use.

The recent increases in the Federal and state taxes 6 on tobacco products establish a compelling motivation for
unlawful operators to use diversion as a means to achieve enormous profits with relative ease. 7 In addition to
Treasury Department estimates regarding the range of potential revenue loss from Federal excise tax on
tobacco, the Department of Justice Inspector General estimates that the diversion of tobacco products costs
Federal and state governments over $5 billion in lost tax revenues annually. 8 Diversion of tax is not limited to
the tobacco trade. Though TTB has no similar estimates of revenue losses from the diversion of alcohol,
criminal case work in FY 2011 indicates that fraud in the alcohol beverage trade poses a serious revenue
threat.

Establishment of a TTB Criminal Enforcement Program

Until FY 2011, addressing criminal activity in the alcohol and tobacco industries required that TTB coordinate
with other law enforcement agencies to effect the Bureau’s criminal jurisdiction. Recognizing the Bureau’s lack
of resources to hire special agents and its inability to enforce its criminal jurisdiction without its own agents,
Congress granted TTB special funding under the Consolidated Appropriations Act of 2010 “for the hiring,
training, and equipping of special agents.” With this funding, TTB negotiated an agreement with IRS Criminal
Investigation (IRS CI) to provide criminal investigative services, effectively allowing TTB to contract out agents
to enforce its laws under TTB’s own authority. This arrangement allowed TTB to engage in operations quickly

h122
5
 Department of Justice, Office of the Inspector General Report Number I-2009-005, “The Bureau of Alcohol, Tobacco, Firearms and
Explosives’ Efforts to Prevent the Diversion of Tobacco,” September 2009.

6
 Since Congress enacted the Federal tax increase on tobacco products in 2009, 19 states plus the District of Columbia have also raised
taxes on cigarettes, providing a greatly increased profit incentive for diversion. These increases, coupled with Master Settlement
Agreement fees and local fees imposed in the course of lawful cigarette distribution,

7
 To illustrate the potential profit margin for those engaged in the illicit tobacco trade, a product that is introduced into New York City
without payment of any federal or state taxes or applicable fees presents an illegal profit of $58.60 per carton, based upon the evasion
of taxes and fees. This translates into $3,516 per case, or approximately $3.2 million per truckload.

8
 A 2010 U.S. Treasury Department report (based on tax rates in effect prior to the enactment of CHIPRA) estimated that for the years
2002-2007, the diversion of tobacco products may have cost the Federal government in the range of $67 million to $1.5 billion,
depending on a correction factor applied. Applying the new tax rate, Federal losses could range between $1.5 billion and $4.5 billion.



                                                                    8
                                          TTB 2011 Annual Report
and to bypass operational costs associated with standing up a law enforcement arm, both of which were
critical considerations given the expiration of the two-year funding at the close of FY 2011. The agreement,
which took effect October 1, 2010, provided for both infrastructural support, such as training, vehicles,
weapons, and medical testing, and for the provision of special agents themselves.

Pursuant to this agreement, a Special Agent in Charge (SAC) and five special agents were assigned full-time to
TTB. The SAC and the special agents were chosen based on their experience with conducting criminal tax fraud
investigations and were assigned to geographic areas that had known alcohol and tobacco criminal and
diversion related activity. Further, recognizing the expertise required to work these cases effectively, TTB
established permanent fraud teams within its audit and investigator workforce; these fraud teams coordinate
with TTB’s tobacco laboratory, to successfully support special agents in making criminal diversion cases. The
complexity of diversion cases requires leveraging all of TTB’s enforcement resources to identify, develop, and
successfully prosecute offenders.

Criminal Enforcement Program Results

In its one year of operations, the criminal enforcement program at TTB produced significant results. With only
six TTB special agents, a total of 21 cases were opened within just eight months, with a total estimated tax
liability of over $20 million. These cases were selected, in part, based upon likelihood of completion within the
period of the contract authorized under TTB’s appropriations. TTB referred 19 of these cases to an Assistant
United States Attorney (AUSA), each of which were accepted and are currently under investigation. This
unprecedented acceptance rate on criminal referrals demonstrates not only the magnitude of the cases but
also the strength of the case on the merits. This success rate reflects the synergy that results from
experienced civil fraud auditors and investigators who know the industry and its trade channels working with
skilled agents to develop the criminal case.

The types of investigations developed during the short amount of time that the criminal enforcement program
was underway were wide ranging and are representative of the extensive type of tax fraud and criminal
activity surrounding illegal alcohol and tobacco activities. The schemes employed to evade excise tax payment
include:
        • Manufacturing of tobacco products without payment of Federal excise tax
        • Cigarette distributors evading tobacco FST
        • Cigarette distributors selling "exported" cigarettes in the U.S. without
          payment of Federal excise tax
        • Cigarettes smuggled into the U.S. without payment of Federal excise tax
        • Failure to pay Federal excise tax on distilled spirits produced
        • Importation of misclassified distilled spirits to evade Federal excise tax
        • Operating without a permit/wholesaling violations
        • Importing alcohol without a permit
        • False wine labeling and sales of counterfeit wine

Significantly, though criminal cases often are multi-year endeavors, TTB forwarded for prosecution two
criminal investigations in FY 2011 that resulted in guilty pleas by the respective defendants. The first
investigation forwarded for prosecution involved an imported distilled spirits product, known as Soju, which

                                                        9
                                              TTB 2011 Annual Report
was intentionally misclassified as wine upon importation. By falsifying import documentation, the defendant
avoided paying the Federal excise tax due on these shipments. The case resulted in a plea agreement of nearly
$102,000. The second case referred for prosecution involved a criminal case related to the evasion of FST on
cigarettes. TTB special agents and other field staff conducted mass interviews of persons who were falsely
reported to be customers of the subject tobacco distributor. This coordinated effort lead to the verification
that the subject was evading approximately $92,000 in FST. The subject recently signed a guilty plea.

TTB also continued joint investigations with its partner law enforcement agencies in FY 2011, and reached an
historic settlement with a Native American tribe involved in the manufacturing of cigarettes without a Federal
permit or payment of excise taxes. Enforcement of Federal excise tax laws on Native American reservations
involves the application of Federal revenue laws to activities that occur on tribal lands, and associated issues
involving claims of tribal sovereignty in some instances, particularly on the St. Regis Mohawk Indian
Reservation in New York. These matters are extremely sensitive and have presented difficult enforcement
issues based upon existing law establishing that Federal excise tax laws apply on Native American lands. Over
the last several years, TTB has made substantial progress in resolving these cases by working with the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) to achieve settlement agreements with the four largest
manufacturers on the St. Regis Mohawk reservation. Under these agreements, the parties have resolved past
non-compliance issues and agreed to comply with Federal tobacco tax laws in the future. During 2011, TTB,
working with ATF, resolved the last of the four largest illegal manufacturing cases there. In this last case, TTB
and ATF accepted a $1.25 million forfeiture, paid to ATF, from the unlicensed cigarette manufacturer for prior
violations of the IRC, as well as the Contraband Cigarette Trafficking Act (CCTA). 9 The illicit manufacturer
agreed to come into compliance with all applicable Federal statutes and regulations, pay all Federal taxes due
under the IRC, and cease its operation of a cigarette sales Internet site, which violates the Prevent All Cigarette
Trafficking Act. As part of the settlement, TTB agreed to issue a permit to this company to manufacture
tobacco products.

Several unlicensed cigarette manufacturers continue to operate on the St. Regis Mohawk reservation, which
straddles the border between the United States and Canada. In FY 2012, TTB will continue to work with the
various businesses on the reservation, ATF, and the U.S. Attorney’s Office, to either bring all of the illegal
operations into compliance or cease their operations.


Protect the Public
The TTB Protect the Public strategic goal has broad meaning and is inclusive of activities that directly impact
American consumers, such as product safety testing and the verification of labeling claims so that products are
safe and are what their labels and advertisements claim them to be, as well as work that directly impacts the
U.S. economy by facilitating vigorous trade and fair competition within the alcohol beverage trade. Consumer


j122
9
 The CCTA, 18 U.S.C. chapter 114, prohibits the introduction of cigarettes into a state without the required reporting and
payment of that state’s taxes. The CCTA makes it a Federal felony for certain persons to traffic in contraband tobacco
products or make false representations in records required by the Act.


                                                            10
                                                                                 TTB 2011 Annual Report
                                                                            confidence, both domestically and broad, in the alcohol beverage
                                                                            products manufactured in the U.S and a fair playing field within the
ALCOHOL INDUSTRY PERMIT
                                                                            marketplace, are critical to fueling the economy and promoting job
ACTIVITY                                                                    growth.
              Number of Wineries
                                                                8,486
                                                                            TTB’s work in this mission area aligns under four programs: 1) Permits
                                               7,849
     5,834
                    6,429
                                   7,110                                    and Business Assurance; 2) Trade Facilitation; 3) Advertising, Labeling,
                                                                            and Product Safety; and 4) Outreach and Voluntary Compliance. Taken
                                                                            together, these programs ensure the integrity of the businesses that
                                                                            produce and distribute alcohol and tobacco products, the integrity of the
   FY 2007         FY 2008       FY 2009     FY 2010           FY 2011
                                                                            products themselves, and the integrity of the market in which these
                                                                            businesses operate.
             Number of Breweries
                                                                2,694
    1,932           2,062          2,152
                                               2,375                        Business Integrity
                                                                            The FAA Act includes provisions to require a permit for those who engage
                                                                            in the business as a producer, importer, or wholesaler of alcohol
                                                                            beverages. The IRC includes similar permitting requirements for tobacco
   FY 2007         FY 2008       FY 2009     FY 2010           FY 2011
                                                                            manufacturers, importers, and export warehouses, as well as some
 The number of wineries and breweries                                       alcohol industry members.
 in the U.S. continues to trend up even
 during a period of recession in the                                        Under its FAA Act authority, TTB conducts a multi-tiered background
 global economy. Both the number of                                         evaluation prior to issuing a permit to ensure that only qualified persons
 wineries and breweries has grown                                           obtain a permit to operate within the regulated industries. Through this
 approximately 40 percent since FY 2007.
                                                                            process, and other activities under its Permits and Business Assurance
 Market data indicates that growth is
 strong in the craft brewer segment,
                                                                            Program, TTB prevents prohibited persons from commencing operations
 which includes microbreweries and                                          and potentially diverting products from legitimate commercial channels in
 brewpubs.                                                                  order to fund illicit activity. Given the substantial tax revenue associated
                                                                            with the commodities TTB regulates, and the distribution controls
                      U.S. Distilleries
                                                                            associated with them, the incentive to operate under color of law for
50,000                                                   41,382     1,000   illegal purpose and illegal profit is substantial and, therefore, an
                                   36,858   38,895
40,000   33,184       34,893                                        800
                                                                            important area of the Bureau’s focus.
30,000                                                              600
                                                          390
                                             338
20,000                                                              400

10,000
             167        210          249
                                                                    200
                                                                            Given shrinking resources, TTB has to effectively target its regulatory
    0                                                               0       enforcement efforts to ensure results. In reviewing permit applications,
            2007       2008         2009     2010         2011

                    Total Distilleries      Craft Distillers
                                                                            certain applications are referred to TTB investigators for a field
                                                                            inspection, based upon various risk factors. TTB investigators also
The number of U.S. distilleries has increased                               perform field investigations on a statistically random sample of applicants
by 25 percent since 2007. Over the last five                                who received a permit to ensure that the proprietor is eligible to operate
years, there has been explosive growth in
                                                                            within the TTB regulated industries and to verify that the business’
the number of craft distillers, defined as
beverage distilled spirits plants that taxpaid
                                                                            operations comply with Federal law. If TTB determines that a business is
less than 100,000 proof gallons annually.                                   violating the conditions of its Federal permit, TTB may suspend or revoke
This segment has increased by more than                                     its permit to operate.
130 percent since FY 2007.



                                                                                             11
                                          TTB 2011 Annual Report
Efficiency in permit processing is equally critical to the Department of the Treasury’s goal of improved
economic opportunity. In addition to ensuring a lawful marketplace by preventing diversion, improving
turnaround time for permit application processing enables those who are qualified to hold a permit in the
alcohol and tobacco industries to begin operating businesses sooner, facilitating U.S. economic growth in a fair
marketplace.

TTB facilitates growth in the U.S. economy by enabling qualified applicants to enter business as an alcohol
producer, wholesaler or importer, or as a tobacco products manufacturer, importer or exporter. The number
of applicants filing for an original permit or registration with TTB has grown 11 percent between FY 2007 and
FY 2011. Today, the Bureau regulates 56,217 industry members, an increase of 27 percent over the 44,138
permit holders in FY 2007.

Importing Tobacco Products without a Permit

In support of the Bureau’s business integrity objectives, TTB monitors compliance with Federal permit
requirements among tobacco product importers by comparing the import records in U.S. Customs and Border
Protection’s International Trade Data System to the permit records on file in the TTB Integrated Revenue
Information System (IRIS)—the Bureau’s integrated tax and permit database. In FY 2011, TTB intelligence
analysts were able to identify 47 entities (14 percent of active tobacco importers in FY 2011) importing product
illegally through this comparison, and responded by issuing cease and desist letters to the culpable individuals.
These efforts to address compliance violations have proven effective, as all of the importer entities notified by
TTB have come into compliance or ceased operations, and the overall rate of non-compliance has declined
since FY 2008, based upon this comparison activity. CBP is the Federal agency responsible for collecting taxes
and duties due on these imported products. The tax value of these imports as declared to CBP is $375,000. It
is important to point out that, while this activity is vital to detect declared importations of tobacco, the
fundamental nature of illicit activity is to evade detection. Therefore, while this program addresses non-
compliance by known entities, TTB relies upon and is developing other methods to detect undeclared
importations and the substantial potential tax value that they entail.

Since the Bureau began this enforcement strategy, the rate of non-permitted tobacco importers that have
declared entries of tobacco products to U.S. Customs has declined. Since FY 2008, the level of illegal importers
fell from 22 percent to 14 percent in FY 2011. However, as tobacco products are often smuggled into the U.S.
through undeclared importations, TTB must continue to supplement these data mining efforts and to monitor
importer activity through audits, investigations, and other intelligence efforts in order to truly address the
issue of illegal importations and the persons who trade in the illicit market.

Improvements to Permit Application Processing

TTB currently processes application packets for more than 20 types of permits or registrations for the alcohol,
tobacco, firearms, and ammunition industries. New or existing alcohol and tobacco industry members file
these packets to request permission to commence a new regulated industry operation, or to update critical
permit information such as a change in location or partnership changes for an existing business.

Over the past several years, the number of permit applications that TTB receives has increased drastically. The
increase in workload volume combined with stagnant resources has made it difficult for the Bureau to

                                                       12
                                           TTB 2011 Annual Report
maintain service levels. Since 2003, TTB’s permit processing workload has increased 56 percent. Between FY
2010 and FY 2011, TTB’s permit processing activity has increased 7 percent. Without intervening action, TTB
projections estimated reaching 90-day turnaround times for original permit applications at the close of FY
2011, compared to 65 days in FY 2010.

In FY 2011, TTB acted to address these service delivery issues through its successful release of a new electronic
permit application processing system, Permits Online. With the first two releases, in February and April 2011,
Permits Online currently allows certain industry members—alcohol wholesalers, alcohol importers, wineries,
specially denatured alcohol users or dealers, and tax-free alcohol users—to complete and submit permit
applications online. These application types account for more than 70 percent of the total number of original
permit applications TTB receives. Future phases will allow all types of industry members to submit
applications electronically through Permits Online.

Significant system features include online self-registration, self-monitoring of an application’s status, and
electronically guided assistance through the application process. The built-in prompts and self-help
instructions at each step of the application process also assure that the applications that reach TTB specialists
are completed correctly and contain all the required documentation.

Permits Online also has created workflow efficiencies that allow TTB to process electronic applications nine
days faster than paper applications that the Bureau receives at the same time. Industry members who use
Permits Online also save approximately six days on mailing delays from the time they submit their applications
to the time they receive their approval documents.

The impact of Permits Online has been substantial. Prior to the system release, projections for average annual
processing times for FY 2011 were 90 days, an increase of nearly 40 percent compared to the prior year, given
the increase in applications received and the staffing reductions as part of government-wide efficiency efforts.
TTB expects the Permits Online system to enable TTB to exceed this projected processing time, and target an
average of 75 days to process an original permit application.

The strategic investment that TTB made in the Permits Online system was critical to improving business results
for this TTB program, which has real value in terms of supporting the Nation’s economic recovery. Not acting
on delays in permit issuance would have placed TTB in an anti-business posture at a time when job creation
and United States competitiveness abroad are national priorities. The new businesses permitted by TTB are
predominantly small businesses, and contribute to job opportunities locally and to America’s competitiveness
in the global market.

Market Integrity
TTB is charged with assuring that the alcohol marketplace is free from practices that would stifle competition
and act as a barrier to trade. TTB, under its Trade Facilitation program, meets this mandate through a variety
of activities, ranging from investigations of the commercial trade of alcohol beverages to leasing with foreign
counterpart agencies to keep the channels of commerce open and operating in compliance with U.S. and
international laws.

TTB works with industry, foreign and state governments, and other interested parties to maintain the
appropriate level of industry and market oversight to ensure compliance with Federal product and trade
                                                        13
                                           TTB 2011 Annual Report
requirements. An effective Trade Facilitation program keeps the domestic market operating on a level playing
field, opens new markets to domestic alcohol producers, and positively influences the balance of trade with
respect to alcohol beverages.

TTB’s work in this area has direct influence on the Nation’s economic recovery. A 2007 industry trade
association report shows that the alcohol beverage industry contributes directly or indirectly to the U.S.
economy by providing nearly 4 million jobs and roughly $400 billion in economic activity. Overseas demand
for the products TTB regulates continues to grow, with U.S. exports of all alcohol beverages totaling $2.3
billion in 2010. The majority of these exports are spirits and wine products. In just examining the wine sector,
81 percent of world wine consumption is outside of the U.S., indicating that these industries may contribute
significantly to the U.S. trade policy goal to double all exports in 5 years, as stated in the President’s National
Export Initiative.

Promoting Fair Competition in the U.S. Marketplace
As part of its Trade Facilitation Program, TTB has reinvigorated FAA Act trade practices activities to investigate
acts that violate Federal law relating to alcohol beverage marketing practices. The FAA Act provisions that TTB
enforces require TTB to ensure fair competition in the alcohol beverage trade by ensuring that persons who
engage in the trade are qualified to do so within the meaning of the statute and by regulating the trade
practices, labeling, and advertising concerning the sale of alcohol beverages. Regulated trade practices entail
restrictions involving exclusive outlets, tied house arrangements, commercial bribery, and consignment sales.
Unlawful trade practices threaten fair competition because such practices undermine equal access to the
marketplace, precluding healthy small business activity, and limit consumer choices by allowing influential
producers to unlawfully interfere with the supply chain.

In FY 2011, TTB concluded a nationwide trade practice investigation of some of the largest alcohol beverage
suppliers in the United States. The suppliers were alleged to have violated the tied house “slotting fee”
provisions of the FAA Act by offering inducements to a large casino chain in order to receive preferred shelf
and warehouse space. TTB accepted offers in compromise totaling approximately $1.9 million from six
companies—Diageo North America, Inc.; Period Ricardo USA, LLC; Moet Hennessey USA, Inc.; Bacardi USA;
Future Brands; and E. & J. Gallo Winery. This case marked the largest set of offers in compromise ever
accepted by TTB for trade practice violations.

The allegations of tied house violations stem from the companies’ participation in the 2008-2009 Harrah’s
Nationwide Beverage Program. The TTB investigation, which focused on activities in the Las Vegas area,
alleges that the companies collectively furnished nearly $2 million in inducements through a third party to
Harrah’s Entertainment’s hotel and casino subsidiary corporations during the two year period of the program.
TTB alleges that the purpose of these inducements was to obtain preferential product display and shelf space
(also known as slotting fees) at Harrah’s Hotels and Casinos

Payment of slotting fees by an alcohol beverage supplier to an alcohol beverage retailer is an unlawful
marketing inducement which creates an artificial barrier to open and fair competition especially for small to
medium-sized companies that cannot afford to pay such fees, and to other companies that refuse to pay them.




                                                        14
                                          TTB 2011 Annual Report
Facilitating U.S. Penetration into Foreign Markets
TTB has been actively engaged in program activity to promote fair and open trade supports the nation’s
economic recovery. U.S. exports of alcohol beverages totaled $2.3 billion in 2010. As the technical expert in
these commodities, TTB seeks to promote U.S. exports by facilitating industry compliance with foreign
requirements and by working with foreign regulators to address barriers that block market access for U.S.
products. Through its international outreach, TTB has arranged for the elimination or reduction of certification
requirements for wine exported to the European Union, Argentina, Australia, Canada, Chile, Georgia, New
Zealand, and South Africa.



  TRENDS IN THE IMPORT and EXPORT OF ALCOHOL BEVERAGES
                                                  The value of the commodities that TTB regulates has increased,
                                                  particularly in regard to wine products. In 2010, for example,
                                                  global exports of U.S. wine totaled more than $1 billion, which
                                                  represents a 23 percent increase from 2009. With the
                                                  exception of the 2009 calendar year, exports of wine (by value)
                                                  have increased each year since 2006. Distilled spirits exports
                                                  reflect a similar trend, though at a more moderate
                                                  level. Global exports of U.S. spirits totaled more than $1.15
                                                  billion, representing a 12 percent increase over the same
                                                  period in 2010. Malt beverage exports also indicate a positive
                                                  trend, with a consistent increase in exports since 2006.

                                                  Imports of beverage alcohol products (by value) in 2010
                                                  increased from previous years. From 2009 to 2010, there was a
                                                  9 percent increase in wine, a 13 percent increase in distilled
                                                  spirits, and a 2 percent increase in malt beverages. Statistics
                                                  indicate a slight decrease in imports from 2008 to 2009, which
                                                  was also a trend with exports. Aside from distilled spirits
                                                  imports, which totaled more than $5.18 billion in 2010, no
                                                  other commodities have reached their 2008 peaks.




                                                      15
                                                   TTB 2011 Annual Report
                                               For those countries that maintain a certification requirement, in FY 2011,
TRADE CERTIFICATE PROCESSING                   TTB issued nearly 9,000 export certificates for beer, wine, and distilled
                                               spirits. Without these certificates, which are only issued by TTB, U.S.
                                               producers of alcohol beverages cannot sell their products in major
                                               markets abroad. TTB must process certificates for U.S. producers in order
                                               for the producers to be able to make export sales, because many foreign
                                               countries require that an appropriate authority from the exporting
                                               government certify exports of alcohol beverages to that country. This
                                               activity furthers TTB’s goal of ensuring product integrity of domestically
                                               produced alcohol beverages, but more importantly facilitates the export
                                               trade in alcohol beverages, which in turn creates jobs and helps economic
                                               growth.

                                               In calendar year 2010, TTB’s certification of export documents allowed
                                               almost $275,000,000 worth of domestic alcohol beverages to be sold to
                                               foreign customers. TTB expects FY 2011 figures, once available, to be
                                               similar. In FY 2012, TTB will continue certifying documents required for
In FY2011, TTB issued almost 9,000 export      U.S. exports, and will track the dollar value of the program in terms of
certificates for wine and distilled spirits
                                               U.S. exports.
products. Without these certificates, U.S.
alcohol beverage producers and exporters
                                               Preventing and Addressing Barriers to Trade
cannot register or sell their products in
many key markets abroad, such as China,
                                               The TTB Trade Facilitation Program also involves identifying and
the European Union (EU), and Japan. TTB’s
workload in processing export certificates     addressing barriers to trade in the international marketplace. TTB is the
increased by 45 percent between FY 2007        principal advisor and technical expert for the Office of the United States
and FY 2010, reflecting both an increase in    Trade Representative (USTR) and other Federal agencies in the
exports – wine and spirits exports in 2010
                                               administration of U.S. alcohol laws, regulations, and policies, and
totaled $2.15 billion, a 16 percent increase
from 2007 – as well as the establishment of    coordinates with these agencies as appropriate in responding to alcohol
new certification requirements in emerging     beverage and tobacco trade issues. TTB provides expert reviews of
markets such as Brazil.                        foreign regulatory proposals impacting the alcohol and tobacco trade to
                                               identify and assess the impact of potential trade barriers for U.S. alcohol
These developments have emphasized the
importance of working with trading             and tobacco exporters. The USTR estimates that between 10 percent and
partners to eliminate unnecessary or           20 percent of new barriers to trade relate to alcohol beverages, and TTB
burdensome certification requirements. In      plays a crucial role in the early identification and resolution of these
recent years, through its international
                                               issues.
efforts, TTB has arranged for the
elimination or reduction of certification
                                               TTB also works to address barriers in the international marketplace by
requirements for wine exported to the 27
countries of the EU, as well as to members     participating with other Federal agencies in the negotiation of
of the World Wine Trade Group (Argentina,      international trade agreements related to alcohol and tobacco products
Australia, Canada, Chile, Georgia, New         on behalf of the U.S. Government. In FY 2011, TTB took an active role in
Zealand, and South Africa). Export             an interagency project with the USTR, the USDA-Foreign Agricultural
certifications as a whole declined 8 percent
                                               Service, the U.S. Department of Commerce, and the U.S. Department of
between FY 2010 and FY 2011, principally in
the VI1 forms required for wine exported to    State to establish an Asia-Pacific Economic Cooperation (APEC) Wine
the EU.                                        Regulatory Forum (WRF) in support of expanding markets for U.S.

                                                                16
                                          TTB 2011 Annual Report
exports. Co-sponsored by Australia, New Zealand, and the United States, the WRF provides a forum to support
open and free trade and eliminate technical barriers to trade issues.

APEC is the premier forum for facilitating economic growth, cooperation, trade, and investment in the Asia-
Pacific region. It is the only inter-governmental grouping in the world operating on the basis of non-binding
commitments and open dialogue. Unlike the World Trade Organization (WTO) or other multilateral trade
bodies, APEC has no treaty obligations required of its participants. Decisions are reached by consensus and
commitments are undertaken on a voluntary basis. The 21 APEC members include: Australia, Brunei
Darussalam, Canada, Chile, the People’s Republic of China, Hong Kong, Indonesia, Japan, the Republic of Korea,
Malaysia, Mexico, New Zealand, Papua New Guinea, Peru, the Republic of the Philippines, Russia, Singapore,
Chinese Taipei, the United States, Thailand, and Vietnam. Many of the APEC member economies are emerging
export markets for the U.S. wine industry.

The WRF, which took place in September 2011, focused on differences and similarities in the countries various
wine regulatory structures and examined options to simplify, harmonize, or institute mutual acceptance of
wine regulations across the APEC region. Eighteen of the 21 APEC member economies sent representatives to
this inaugural session. Moving forward, TTB will continue to work with APEC members to help those
economies develop reasonable and responsible regulatory activity that does not impede trade in alcohol
beverages because, currently, emerging markets are creating increasing numbers of technical barriers to trade
in alcohol beverages.

Coordinating with Foreign Counterparts to Extend Regulatory Controls

The global trade in alcohol beverages is active and increasing and, to be an effective regulator, TTB must seek
innovative and efficient ways to achieve its consumer protection and revenue collection mission. One
principle strategy to assure that U.S. businesses remain competitive on a global scale is through improved
communication with our trading partners. TTB’s expansion of international agreements has fostered a global
network of regulators in the alcohol and tobacco industries that ensure markets remain open and that illegal
activity in the global trade is addressed promptly.

In FY 2011, TTB made significant progress on international agreements with multiple counterpart agencies in
Canada, Italy, France, the People’s Republic of China, Australia, and the Republic of Georgia. Each of these
agreements facilitate trade by increasing mutual understanding of each country's alcohol and tobacco
production, labeling, and licensing requirements, and by providing a process for the exchange of regulatory
information that has the potential to impact trade, compliance, and product safety. TTB, working with its
trade partners in the World Wine Trade Group (WWTG), also established an agreement regarding certification
requirements on wine products to assure the WWTG parties do not encounter compositional certification
requirements from other member countries in the export trade of their products that would obstruct free
flowing trade.

Canada
Canada is among the top five exporters of malt beverages, wine, or distilled spirits to the United States.
Canada also shares a long border with the United States across which alcohol and tobacco products and
counterfeit products might be smuggled or otherwise diverted, resulting in a loss of Federal excise tax


                                                       17
                                           TTB 2011 Annual Report
revenue. Accordingly, a cooperative relationship with the appropriate Canadian authorities is necessary to
reduce the impact of diversion activities on the Federal revenue.

In FY 2011, TTB met with officials from the Canadian Border Services Agency (CBSA) to discuss several issues of
mutual interest, including ongoing collaboration on the analysis of tobacco products. On March 23, 2011,
TTB’s Scientific Services Division and CBSA’s Laboratory and Scientific Services Directorate signed a
memorandum of understanding (MOU) that lays the groundwork for technical collaboration and partnership
on methodology, such as a DNA technique for tobacco analysis necessary to appropriately classify tobacco
products for tax purposes. As part of the MOU, CBSA scientists will visit TTB to give a seminar on their
applications of the DNA technique for tobacco analysis and receive training on nonbeverage product
evaluation.


                                                                                     On March 23, 2011, TTB
                                                                                     Assistant Administrator for
                                                                                     Headquarters Operations,
                                                                                     Bill Foster, signed an MOU
                                                                                     between the TTB Scientific
                                                                                     Services Division and the
                                                                                     Laboratory and Scientific
                                                                                     Services Directorate of the
                                                                                     CBSA in Ottawa, Canada.




France
France, along with Italy, is typically the largest or second-largest source of imported wine in the United States,
and in 2010, large quantities of French wine was sold to U.S. importers by French merchants as pinot noir
while the wine was not entitled to that varietal designation. As a result, it is important that TTB develop
effective partnerships with the French authorities that have jurisdiction over the production, sale, and labeling
of wine so that U.S. businesses and consumers are not affected by cases of fraud that originate in France. In FY
2011, TTB negotiated the text of an MOU with France’s General Directorate for Competition Policy, Consumer
Affairs, and Fraud Control (DGCCRF), which TTB signed on September 1, 2011.

China
The People’s Republic of China is an important emerging market for U.S. alcohol beverage exporters and
represents the single largest destination country for export certifications that TTB processes. China is also a
potential source of counterfeit goods in the global marketplace. Thus, the MOU that TTB established with
                                                       18
                                           TTB 2011 Annual Report
China’s General Administration of Quality Supervision, Inspection and Quarantine (AQSIQ) in 2007 is an
important tool by which TTB can help ensure a stable export market for U.S. alcohol beverages and a U.S.
market that is free of counterfeit goods. In FY 2011, TTB continued its cooperation with its Chinese
counterpart and, in January 2011, TTB met with Minister Baoquing Zhao, of the Embassy of the People’s
Republic of China, to discuss several issues, including counterfeit wine in China and potential partnering
between TTB and Chinese laboratories. TTB invited AQSIQ laboratories to participate as partners in
collaborative projects, initiated by TTB, for the multi-laboratory validation of a number of analytical methods
that TTB uses for regulatory compliance of beverage alcohol products. TTB also began a coordinated effort
with the AQSIQ regarding proposed changes to China’s Ministry of Health’s regulations related to approved
additives for alcohol beverage products.

Russia
Russia is an important emerging market for U.S. exporters, but is not a member of the WTO and, therefore, is
not subject to WTO rules, which means that U.S. exports may experience exceptional difficulties in exporting
to Russia. A functional relationship between TTB and Russia’s regulatory authorities on alcohol can prevent or
mitigate a number of potential trade problems.

In August 2011, TTB joined the United States Department of Agriculture’s Foreign Agriculture Service (FAS) in
Moscow to meet with representatives of Russia’s Federal Service for Alcohol Market Regulation (FSR) to
discuss the FSR’s draft technical regulation on alcohol product safety. If finalized, the FSR regulations would
create significant barriers to trade for U.S. alcohol beverage exports entering the Russian market. TTB alerted
the FSR to several issues in the draft technical regulation pertaining to labeling, certification, standards of
identity, wine additives and processing aids, geographic indicators, and traceability. FSR informed TTB that it
would consider the United States’ concerns and publish a new draft of the technical regulations for comment
in September 2011. In addition, FSR expressed interest in developing a close, regulator-to-regulator
relationship with TTB within the framework of an MOU. TTB plans to pursue an MOU in FY 2012 in order to
promote effective regulation of the alcohol market and facilitate
compliant trade in alcohol between the United States and Russia.

Italy
Italy is currently the largest source of imported wine in the United States.
Consequently, effective relationships with Italian government authorities
with jurisdiction over the production and labeling of wine are important
to ensuring that all imported alcohol beverages are properly labeled and
classified. In furtherance of this objective, in April 2011, TTB signed an
MOU with the Central Inspectorate for Food Quality and Fraud Repression
(ICQRF) of the Italian Ministry of Agriculture and Forestry. The ICQRF
regulates the production of wine and malt beverages and has authority to
conduct investigations into improper production.

The ICQRF played a significant role in a recent investigation of Brunello di
Montalcino producers who illegally blended grapes other than Sangiovese
into the wine. TTB met with a Guardia di Finanza official from the Embassy
of Italy in October 2010, to discuss the resolution of the Italian court cases
                                                                                 TTB Deputy Administrator Mary
                                                                                 Ryan signs MOU with ICQRF.
                                                        19
                                            TTB 2011 Annual Report
against individuals involved in the mislabeling of Brunello di Montalcino wine. TTB received confirmation that
the court cases have concluded and that the culpable individuals, including officials of the Brunello di
Montalcino producers’ consortium, have paid the imposed fines.

To ensure that mislabeled product is not exported to the United States, TTB has asked the ICQRF to continue
to certify each vintage of Brunello di Montalcino, which is aged for 5 years before being bottled, annually
through the release of the 2008 vintage.

The MOU between TTB and the ICQRF establishes a consistent channel for cooperation and exchange of
information for the purpose of combating fraud in the production of and trade in alcohol beverages;
establishes a consistent point of contact on issues of mutual interest in the regulation of wine, distilled spirits,
and malt beverages issues; and provides a cooperative framework for working together to resolve future
issues before they negatively impact either party’s market.


                                                                                 In FY 2011, TTB solidified its
                                                                                 cooperation with its Italian
                                                                                 counterparts by signing an MOU
                                                                                 on April 12, 2011, with the
                                                                                 ICQRF of the Italian Ministry of
                                                                                 Agriculture and Forestry.
                                                                                 Pictured at left is the TTB and
                                                                                 ICQRF team responsible for
                                                                                 negotiating the MOU.




The Republic of Georgia
TTB established an MOU with the Ministry of Agriculture’s Department of Vine and Wine (SAMTREST) of
Georgia in June 2009. Georgia has a long history of wine production, but has only been expanding its export
market in recent years. TTB’s cooperation with Georgia helps ensure that Georgian wine imported into the
United States complies with U.S. laws and regulations.

This cooperative relationship has helped assure the integrity of products offered to consumers, with TTB
investigating products sold in the U.S. that SAMTREST had identified to TTB as falsely labeled as Georgian.

In addition, in November 2010, TTB met with the Georgian Minister of Agriculture to discuss wine issues within
the framework of TTB’s MOU with SAMTREST. In particular, TTB welcomed Georgia’s becoming a full
participant of the WWTG in October 2010. TTB is also working with SAMTREST on the recognition of Georgia’s
18 viticultural appellations of origin.




                                                         20
                                         TTB 2011 Annual Report

World Wine Trade Group
The United States is a participant in the WWTG, an informal grouping of government and industry
representatives from the wine-producing countries of Argentina, Australia, Canada, Chile, Georgia, New
Zealand, the United States, and South Africa.

The WWTG, founded in 1998, aims to share information and collaborate on a variety of international issues
and endeavors to create new opportunities for wine trade. Since its inception, the WWTG has completed a
mutual acceptance agreement on oenological practices and an agreement on labeling practices for wine, both
of which seek to minimize trade barriers, and thereby facilitate international trade.

In calendar year 2010, trade in wine and wine products between the United States and other WWTG countries
totaled $1.7 billion, including $300 million in U.S. exports and $1.4 billion in U.S. imports. That same year,
wine produced by WWTG countries increased its share of the global wine export market from 15 percent in
2000 to 30 percent in 2010. On average, each year, the wine industry contributes $121.8 billion in U.S.
economic impact and supports 820,000 American jobs.

Early in FY 2011, TTB participated in the WWTG Annual Meeting in Mendoza, Argentina. The meeting included
discussion of ways forward in concluding a second stage labeling agreement, including the possibility of
pursuing mutual acceptance of countries’ requirements for vintage date, variety, and appellation of origin
labeling; sustainability and carbon footprint labeling; regulatory developments of non-members like the
European Union and Brazil that create significant trade barriers for countries exporting wine to those non-
member countries; efforts to establish a seminar on key issues relating to wine, which would target
representatives from countries that are members of the Asia-Pacific Economic Cooperation forum; and an
MOU on Certification Requirements, which facilitate trade in wine by eliminating the requirement for routine
certification of wine composition, certificates of free sale, or analytical reports on wine constituents for
imported wine.

In October 2011, the United States, along with representatives from Argentina, Australia, Chile, Georgia, and
New Zealand, signed an MOU on Certification Requirements, which aims to reduce barriers to international
wine trade and support exporters of wine in each participating country by encouraging the elimination of
burdensome requirements and routine certifications of wine products and ingredients. A key goal of the
WWTG is to gain the participation of Asian economies in this MOU in order to reduce the burden of exporting
wine to those countries.

In FY 2012, TTB and its WWTG trade partners will continue its outreach to other wine producing countries,
such as Brazil, Uruguay, and China, to facilitate import and export markets for the wine trade.

Product Integrity
Consumer confidence is essential to ensuring that U.S. and world economies perform at their full economic
potential. TTB is the Federal agency responsible for carrying out provisions of the FAA Act that ensure that
labeling and advertising of alcohol beverages provide adequate information to the consumer concerning the
identity and quality of the product and to prevent misleading labeling or advertising that may result in
consumer deception regarding the product.


                                                      21
                                           TTB 2011 Annual Report
This consumer protection function falls under TTB’s Advertising, Labeling, and Product Safety Program. Before
an alcohol beverage product can be sold in the United States, TTB completes a review of the product label to
ensure the label contains all mandatory information and does not mislead the consumer. In addition, labels
are reviewed for compliance with the Alcohol Beverage Labeling Act, the Federal law which mandates that a
Government health warning statement appear on all alcohol beverages offered for sale and distribution in the
United States. The approved label application is called a Certificate of Label Approval (COLA).

TTB also conducts post-market sampling of alcohol beverages after they enter the marketplace for container
content and label compliance through its Alcohol Beverage Sampling Program (ABSP). This involves
examining a statistical sample of domestic and imported wine, spirits, and malt beverage products to
determine if the labels meet Federal requirements, and the contents of the bottle match the label
description. This process also includes a chemical analysis of selected products by the TTB Laboratory for
identification and product safety purposes. TTB also reviews advertisements for alcohol beverage products
from television, radio, the Internet, and other ad sources for compliance with Federal regulations.

As part of the Bureau’s Advertising, Labeling, and Product Safety Program, TTB also works to ensure that
alcohol beverages meet the standards of identity that their labels reflect and that all ingredients and treating
materials are authorized and within the limits set forth under applicable law and regulations. In the event that
a food safety or other product integrity issue occurs, the Bureau shares its findings with other regulatory and
enforcement agencies, as appropriate, and works in partnership to timely resolve the issue.

Streamlining the Alcohol Beverage Label Approval Process

TTB reviews alcohol beverage label applications to fulfill the statutory requirement that bottlers and importers
of alcohol beverages have an approved COLA or an exemption certificate before the product enters domestic
commerce. The number of applications for label approval that TTB received between fiscal years 2007 and
2011 increased 16 percent. After a drop off in FY 2009, which may be attributable to the economic downturn,
the number of label filings trended up again in fiscal years 2010 and 2011, with a year-to-year increase in
applications of 10 percent. Again in FY 2011, the significant majority of label applications received were for
wine products. The wine industry submitted 82 percent of the label applications processed by TTB in FY 2011.

Due to resource and workload challenges, the Bureau began evaluating its COLA pre-approval process and
regulations related to alcohol beverage product labeling to focus on ways to streamline operations. These
changes will reduce costs to the Bureau and industry, encourage the use of automated processes, help
industry to get products to the marketplace faster, and improve service.

TTB began the process of modernizing its alcohol beverage labeling program in FY 2011. At the beginning of FY
2011, a TTB working group identified three initiatives for this effort: 1) provide clear guidance to industry, 2)
provide industry with an automated database which meets TTB’s statutory requirements and decreases
industry burden, and 3) use a stratified random sampling which will enhance enforcement efforts and put into
place a tool for tracking compliance. The goal of this initiative is to shift TTB’s focus in the labeling area from
pre-market approvals to a marketplace review.

Under this three-pronged approach, TTB dedicated resources in FY 2011 to reviewing the labeling regulations
(27 CFR parts 4, 5, 7, 13, and 16) issued under the FAA Act. This process included identifying regulations that

                                                        22
                                           TTB 2011 Annual Report
are obsolete, need expansion, or otherwise need updates or revisions to keep up with industry trends. By
modernizing the regulations to remove ambiguity and to remain current with market conditions, TTB
anticipates that industry will gain greater understanding of Federal requirements and be more compliant.

TTB also evaluated its current published labeling policies and internal processes to determine if the Bureau can
improve and streamline the process and reduce workload. To date, TTB has streamlined qualification
guidelines and modernized the list of rejection reasons for COLAs. The Bureau also is looking at increasing the
list of allowable changes that industry members may make to labels without resubmitting a COLA application.
TTB anticipates that, over time, these changes will reduce the number of resubmitted and new label
applications.

Further, TTB made changes to its process and reduced burden on industry through issuing TTB Industry
Circular 2011–4, Streamlining the Certificate of Label Approval Review Process. Recognizing that TTB returned
many electronically-submitted label applications to industry members multiple times for corrections due to
image-related problems that occurred during the upload of the label image, the Bureau relaxed these
requirements to reduce industry burden and to help industry get their products to the marketplace faster.

TTB is continuing to review each practice associated with the label approval process to identify areas that the
Bureau may streamline, cease or enhance.

Expansion of the Alcohol Beverage Sampling Program

Once alcohol beverages enter the marketplace, TTB monitors labeling compliance through the Alcohol
Beverage Sampling Program (ABSP). In FY 2011, TTB expanded the ABSP to include all three alcohol beverage
commodities (wine, distilled spirits, and malt beverages) and added investigative support from TTB
investigators. In the past TTB has monitored only one commodity per year.

The purpose of the ABSP is to determine the compliance rate of alcohol beverage labels for all products found
in the marketplace in a determined period of time. Specifically, TTB seeks to determine the percentage of
products that are fully labeled, i.e., the label accurately reflects the contents of the bottle. The Bureau
accomplishes this by examining a statistically valid sample of alcohol beverages in the marketplace and
reviewing the labels and contents. TTB reviews the label of each product purchased for the ABSP to ensure
that it contains all legally required information and matches it to a COLA. Additionally, TTB determines if there
is a valid COLA for the product. TTB also chemically tests each product to ensure that label information is
accurate and ensures that what is described on the label is what is actually inside the container. Then TTB
projects the results across all products available in the marketplace during the specific time selected.

In FY 2011, the expansion of the ABSP included an investigative component. For the first time, TID provided
“content” compliance information for domestic wine. TID performed limited Product Integrity (PI)
investigations on all domestic wines that were selected for the ABSP. The PI investigations include reviews of
proprietors’ records to verify label claims that cannot be assessed through laboratory analysis, such as vintage
and varietal statements. When TTB combines the results from ABSP testing and the PI investigations, the
Bureau gets a more comprehensive picture of domestic wine label compliance. The Bureau’s monitoring of
product and label compliance through the ABSP forms the basis to ensure the integrity of U.S. alcohol
beverage products, both in the view of U.S. consumers and TTB’s international counterparts, which is critical to
gaining foreign market access for U.S. exporters. The results of the ABSP for FY 2011 can be found on TTB.gov.
                                                        23
                                          TTB 2011 Annual Report
TTB Launches Online Filing Solution for Formulas

TTB reviews domestic and imported alcohol beverage formulations and
issues formulas, statements of process, laboratory analyses and pre-
import letters. In the last 5 years, the number of formula applications
that TTB has received has grown by about 880 applications per year, an
increase of 118 percent over the five years. Similarly, the number of
pre-import requests has increased by about 141 percent since FY 2007.

As part of TTB’s strategy to move the services it provides to businesses
into the online environment, TTB developed an electronic filing solution
for industry to submit their formulas to TTB for review for regulatory
and tax compliance. TTB deployed Formulas Online on January 10,
2011. Formulas Online is a Web-based system that allows external users to draft, submit, and track formula
applications for domestic and imported alcohol beverages. Whether TTB receives paper or electronic formula
applications, all submissions are captured in Formulas Online, providing a streamlined process for TTB
specialists to view, evaluate, request additional information or corrections, and approve or reject applications.

With the initial release, this new e-Gov filing system also streamlines the formula approval process for the
alcohol beverage producers and importers. The system has built-in validations of the data entered to assist
industry in complying with Federal regulations. In efforts to reduce the regulatory compliance burden, TTB
integrated the Formulas Online system with its electronic filing system for label applications, COLAs Online,
offering users a single logon ID and password for both custom applications. At year-end, TTB received 32
percent of alcohol beverage formula submissions electronically through Formulas Online.

Monitoring Fraudulent Activity

The improper labeling of alcohol beverages has economic consequences. Domestic alcohol label fraud
represents a serious threat to the Bureau’s public protection mission, as it degrades the economic stability of
the legitimate alcohol beverage trade. Counterfeit alcohol beverages bearing legitimate domestic brand or
trade names jeopardize domestic alcohol beverage commerce by trading on the brand reputation of authentic
domestic producers. Likewise, label fraud deceives consumers as to the true identity of products being sold.

TTB monitors fraudulent activity by tracking product integrity issues and tasking policy and enforcement staff,
as appropriate, to address issues. TTB coordinated response to each incident includes liasing with the foreign
government to ensure that no counterfeit or fake product was exported to the United States. Examples of
fraudulent activity that TTB discovered in FY 2011 include:

    •   Wine Fraud Investigation in Czech Republic. TTB received a report of large quantities of improperly
        labeled wine from the Czech Republic. Police in that country are investigating a major winery for
        selling over a million liters of wine as 2009 Chardonnay, Sauvignon Blanc, and Riesling, when the
        grapes were of unknown origin. TTB reached out to the U.S. Department of Agriculture’s Foreign
        Agricultural Service (FAS) posts in Brussels and Prague for more information. TTB verified that the
        winery in question is not currently exporting wine to the United States, and has not done so in recent
        years.

                                                       24
                                          TTB 2011 Annual Report
    •   Counterfeit Vodka Produced in the United Kingdom. TTB received a news report of the discovery of a
        large illicit vodka production scheme near Manchester, United Kingdom (UK). Her Majesty’s (HM)
        Revenue and Customs seized over 25,000 liters of counterfeit “Smirnoff” vodka. Tests showed that the
        vodka was not toxic, but illicit alcohol products always carry health risks and frequently contain lethal
        levels of methanol. TTB immediately contacted the FAS post in London. HM Revenue and Customs
        verified that the counterfeit vodka was sold only in the Manchester, UK area and was not exported to
        the United States.

Addressing Alcohol Beverages Containing Added Caffeine

In November 2010, following coordination with the FDA, TTB issued industry guidance on alcohol beverages
containing added caffeine. This action followed a year-long investigation by the FDA into the safety and
legality of alcohol beverages containing added caffeine, and their subsequent warning to four companies that
the caffeine added to their alcohol malt beverages is an "unsafe food additive."

The guidance issued by TTB in FY 2011 advised alcohol beverage industry members that the FDA’s
determination that a product is adulterated under the Federal Food, Drug, and Cosmetic Act (FFDCA) could not
be marketed under the FAA Act, since adulterated products may not be labeled as alcohol beverages or
introduced or received in interstate or foreign commerce, under the FAA Act.

In response to the specific products determined to be adulterated, the FDA provided 15 days for the four
companies to develop specific actions to address the violation, and if these actions were not to be completed
within the 15-day timeframe, to advise of the date of completion. TTB also notified the companies that, due to
the FDA’s determination, their products were considered mislabeled under the FAA Act, and provided the
companies with a 15-day window to address the violations before taking any enforcement action. The
coordinated enforcement action resulted in the adulterated products removal from the market.

Participating in Pesticides, Adulterants, and Contaminants Taskforce

In administering the Advertising, Labeling, and Product Safety Program, TTB also conducts routine analysis of
sampled alcohol beverages for ingredients or materials whose presence is prohibited or limited. Examples
include thujone, methanol, and toxic heavy metals. In addition, wines are analyzed to ensure safe levels of
pesticides and ochratoxin-A, and malt beverages are tested for mycotoxins.

TTB has established an intra-agency Pesticides, Adulterants, and Contaminants (PAC) Task Force to clearly
define the steps and procedures TTB will take in response to unsafe ingredients, pesticides, or hazards in any
beverage product that TTB regulates. As marketplace findings dictate, TTB coordinates with CBP, foreign
governments, and foreign alcohol beverage producers to address the consumer health hazard. In FY 2011, TTB
and task force agencies worked on two cases identified by the Alcohol Beverage Sampling Program.

In one case, TTB identified 11 imported Italian wines that were being sold on the U.S. marketplace that
contained the unauthorized pesticide oxadixyl. Oxadixyl functions as a fungicide; however it is not, and never
has been, approved for use on grapes in the United States, and there is no prescribed tolerance for oxadixyl on
grapes. Wines that contain oxadixyl are adulterated within the meaning of the FFDCA. TTB communicated the
issue to the Italian Ministry of Agriculture and Italian embassy, and worked with CBP to initiate a customs hold
on attempted imports of the adulterated wine. CBP has removed the hold on five of the products following
                                                          25
                                           TTB 2011 Annual Report
TTB’s confirmation that the adulterated vintage is not being shipped to the United States and that subsequent
vintages are not adulterated. CBP holds remain in place for six products. TTB has also notified the U.S.
importer that the wine is mislabeled and should not be introduced into the marketplace. TTB continues to
work with CBP regarding adulterated alcohol beverages and customs holds on imports.

In a second case, the ABSP found that a rum product imported in bulk from the U.S. Virgin Islands and bottled
in the U.S. was adulterated with lead, a poisonous or deleterious substance, as ruled by the FDA. In its analysis
of the sample product, the TTB Laboratory found the rum contained lead at a level determined by the FDA to
be unsafe for consumption. TTB compliance specialists and investigators coordinated with the U.S. Virigin
Island authorities to determine the source of the lead. The source of the lead was traced to storage tanks at
the facility of the U.S. bottler, and these tanks are no longer in use for processing. TTB is coordinating with the
FDA to address the issue and assure that U.S. consumers are not at risk of exposure to a health hazard.

Voluntary Compliance

In all of the Collect the Revenue and Protect the Public program areas, TTB emphasizes voluntary compliance
from the industry through its outreach efforts. TTB employs a dedicated staff of industry analysts and liaisons
to provide industry members and the States with direct assistance on specific needs or guidance on broader
issues affecting the regulated commodities.

The Bureau also sponsors seminars and
workshops to educate the industry on
Federal requirements in the areas of
manufacturing, marketing, importing and
exporting, and paying tax on alcohol and
tobacco products, and firearms and
ammunition. In FY 2011, TTB held three
Formulas Online Webinars for industry.
The training covered topics such as
system registration; the basics of drafting,
submitting, and tracking formula
applications for domestic and imported
                                             The Advertising, Labeling and Formulation Division coordinated with the
alcohol beverages; and common pitfalls
                                             Knowledge Management Staff to host a series of complimentary Webinars
to avoid when submitting electronic
                                             for those who are interested in discovering new ways to work smarter and
formula applications. In FY 2012, TTB
                                             more effectively with Formulas Online.
plans to hold additional Webinars
focusing on formula submissions by
commodity. In the years ahead, TTB intends to continue to leverage the TTB.gov site and other Web-based
capabilities to provide online seminars and tutorials so that industry members will have additional on-demand
resources and options to answer questions related to tax and regulatory compliance.

Further, to support transparency in government and customer access to information, TTB implemented several
initiatives that should facilitate industry compliance. TTB created a portal on its Web site to its existing online
tools for filing applications with TTB. In FY 2011, as part of the TTB Open Government plan, TTB also published

                                                        26
                                           TTB 2011 Annual Report
on its Web site guidance expressed in private letter rulings, petitions for rulemaking, and other high-value
information so that it is readily available to industry and members of the public. Additionally, TTB provided to
Treasury data sets relating to wine treating materials, alcohol fuel plants, and wine grape varieties, for
inclusion on the Government-wide Data.gov site.

TTB also strives to reduce the burden of compliance on industry by providing clear regulatory guidance. The
statutes and regulations that the Bureau administers have not kept up with the changes in the industries that
TTB regulates, and in FY 2011 TTB made significant progress on modernizing its regulations to reflect current
practices and conditions.

In February 2011, TTB published a final rule that completely revised and reorganized the distilled spirits plant
regulations to improve the clarity and ease compliance. Many previous alternate methods or procedures that
were applicable industry-wide were incorporated into the regulations. The new regulations also provide for
the use of modern technology such as mass flow meters. Additionally, the revision will reduce the regulatory
burden by increasing the use of letterhead notices and log books in lieu of certain reporting forms. The revised
regulations should improve efficiency of plant operations.

TTB also published a final rule in January 2011 revising its American Viticultural Area (AVA) regulations to
provide clearer regulatory standards for the establishment of AVAs and clarifying the rules for preparing,
submitting, and processing AVA petitions. TTB regulations define a viticultural area for American wine as “a
delimited grape-growing region distinguishable by geographic features, the boundaries of which have been
recognized and defined in part 9 of the TTB regulations.” These AVA designations allow vintners and
consumers to attribute a given quality, reputation, or other characteristic of a wine made from grapes grown
in an area to its geographic origin. This final rule addresses the effect that the approval of an AVA may have on
established brand names; provides clearer regulatory standards for the establishment of AVAs within AVAs;
and clarifies the rules for preparing, submitting, and processing viticultural area petitions. The revised
regulations should lead industry members to submit better-evidenced petitions and allow TTB to more quickly
process perfected petitions or deny poorly-evidenced petitions.

In FY 2011, TTB also undertook a rulemaking project to revise the specially denatured alcohol (SDA) and
completely denatured alcohol (CDA) formulas regulations. TTB is acting to update its regulations because SDA
and CDA are very widely used in the American fuel, medical, and manufacturing sectors. The industrial alcohol
industry is far larger than the beverage alcohol industry in both size and scope, and it continues to grow rapidly
in the United States. The current regulations may cause significant roadblocks for industry members in getting
their products to the marketplace quickly and efficiently. TTB is proposing to reclassify some SDA formulas as
CDA and to issue new general use formulas for articles made with SDA so industry members would not need to
seek formula approval from TTB as frequently. TTB estimates that this effort will decrease the number of
formula submissions required from industry by an estimated 80 percent. Changes would also remove
unnecessary regulatory burdens and update the regulations to align them with current industry practice.

Moving forward, TTB will continue to work to modernize its regulations to make positive changes to the
regulatory framework and significantly influence how well TTB accomplishes its “collect the revenue” and
“protect the public” mission.



                                                       27
                                                                                             TTB 2011 Annual Report


 Performance Summary
 Collect the Revenue
 TTB met all of its performance measures under the Collect the Revenue activity. A detailed summary of TTB
 performance is discussed in Part II of this report, Program Performance Results.
 Investments in the Collect the Revenue mission resulted in the following accomplishments in FY 2011:

 •   TTB collected $23.5 billion in excise taxes and other revenues from 7,750 10 taxpayers in the alcohol,
     tobacco, firearms, and ammunition industries. In all, TTB returned $468 for every $1 expended on tax
     collection activities. Since the tax rate increase on tobacco products took effect, the return on TTB tax
     collection activities has increased by approximately 50 percent.
 •   TTB expanded its e-filing capability to allow all excise taxpayers to file and pay taxes, and file monthly
     operational reports, electronically through the Pay.gov system. The total number of Pay.gov registrants
     increased by 12 percent in FY 2011, bringing the total to nearly 7,200.


                                                           Tax Collections by Commodity                             TTB collected $23.5 billion in tax revenue in FY
                                         16,000                                                                     2011, a year-to-year decrease of 1 percent.
                                         14,000
                                                                                                                    Declines to tobacco revenues offset increased
       Collections ($ in Millions)




                                         12,000
                                         10,000                                                                     alcohol tax collections. TTB tobacco revenue
                                          8,000                                                                     collections reached an historic high in FY 2010, and
                                          6,000
                                                                                                                    this downward trend was predicted, as price
                                          4,000
                                          2,000
                                                                                                                    increases on tobacco products are closely
                                             0                                                                      correlated to consumption patterns. Even with this
                                                     FY 2007      FY 2008     FY 2009      FY 2010   FY 2011
                                                                                                                    decline, since 2008, tobacco revenues collected by
                                                           Alcohol       Tobacco      Firearms
                                                                                                                    TTB have increased 126 percent.

                                              Industry Members Who Filed and Paid Taxes                             TTB regulates more than 56,000 permittees, but
       9,000                                                                                                        only a small percentage file a return and pay taxes
                                                                                                      7,750
       8,000
                                                                6,546        6,777         7,070                    in a given fiscal year. The largest segment of TTB
       7,000
       6,000
                                                  5,837
                                                                                                                    permit holders—alcohol importers and
       5,000                                                                                                        wholesalers—do not pay taxes to TTB. Following
       4,000
       3,000
                                                                                                                    two years of modest growth, the TTB tax base grew
       2,000                                                                                                        10 percent between FY 2010 and FY 2011. Since FY
       1,000
                                                                                                                    2007, the number of taxpayers has increased 33
                                     -
                                              FY 2007          FY 2008      FY 2009       FY 2010    FY 2011        percent.
                                                                         Taxpayers




 bb122
10
  About 12,190 TTB permittees were subject to file a tax return and pay excise taxes this fiscal year; however, many
 operations do not result in the taxable removal of product from bonded premises. Therefore, in FY 2011, a total of 7,750
 permittees had operations that required them to file a tax return and pay excise tax.



                                                                                                               28
                                                                  TTB 2011 Annual Report


•   In measuring voluntary compliance, TTB reported a compliance rate of 95 percent in filing timely tax
    payments among its taxpayers who pay $50,000 or more annually. TTB’s educational outreach efforts at
    industry seminars and on manufacturer’s premises, as well as enhanced online training tools and guidance,
    proved successful in helping TTB exceed the compliance rate achieved in fiscal years 2009 and 2010. TTB
    continues to leverage its Web site and other technologies to educate industry as to the most frequent
    compliance errors and complex areas of TTB’s jurisdiction so that education efforts have the broadest and
    most lasting reach at the least expense for all involved.

•   TTB processed cover-over payments of $462 million to Puerto Rico and the Virgin Islands. Cover-over
    payments to the Virgin Islands increased 8 percent, while payments to Puerto Rico increased nearly 20
    percent. Federal excise taxes collected on rum produced in Puerto Rico and the Virgin Islands and
    subsequently imported into the United States are “covered over” (or paid into) the treasuries of Puerto
    Rico and the Virgin Islands. Year-to-year, cover-over payments can vary.

•   TTB processed approximately $307 million in drawback claims, an increase of 3 percent in refunded tax
    money compared to FY 2010. Under current law, persons who use nonbeverage alcohol in the
    manufacture of medicines, food products, flavors, extracts, or perfume and other non-potable products
    may be eligible to claim drawback of excise taxes paid on distilled spirits used in their products. To assess
    drawback claims, the TTB Laboratory analyzed approximately 10,000 formulas and samples in FY 2011.
•   TTB also analyzes nonbeverage and beverage alcohol samples to assign or verify a tax classification. For
    this purpose, TTB chemists processed approximately 2,100 nonbeverage product specially denatured
    alcohol formulas and samples to support tax-free alcohol claims. TTB analyzed another 1,200 beverage
    alcohol samples associated with pre-import evaluation, the 5010 tax credit, and enforcement activities, as
    compared to 1,060 samples in FY 2010. Pre-import evaluations also serve to protect consumers, as the
    analytical tests also analyze products for limited or prohibited ingredients.
•   The Tobacco Laboratory analyzed 350 tobacco samples in support of tobacco tax classification, regulatory
    projects, audits, investigations, criminal diversion cases, and in the development of protocols for
    counterfeit tobacco product authentication. Year-to-year, the workload remained relatively constant.
•   During FY 2011, TTB completed approximately 540 audits, examinations, and revenue investigations
    resulting in $35 million in identified tax, penalty, and interest being due, with $15.3 million collected to
    date. An additional $428,000 was collected from audit findings outstanding from the previous fiscal years.


                                      Active TTB Permit Holders                                      The total number of active TTB permit holders
       FY 2011
                                                                                                     in the alcohol, tobacco, and firearms
                                                                                                     industries has increased 27 percent since FY
       FY 2010
                                                                                                     2007. The average annual increase in permit
       FY 2009
                                                                                                     holders is 6 percent. Alcohol and firearms
       FY 2008
                                                                                                     permittees have displayed a steady rising
       FY 2007
                                                                                                     trend, while the number of tobacco
                  0          10,000       20,000   30,000     40,000        50,000          60,000
                                                                                                     permittees dipped in FY 2010. Active tobacco
                      FY 2007           FY 2008     FY 2009       FY 2010            FY 2011
       Firearms         724               784         855          1,012              1,071          permit holders have fallen by 8 percent in 5
       Tobacco         931               883         886           835                857
       Alcohol        42,483            45,018      47,818        50,823             54,289
                                                                                                     years.


                                                                                            29
                     TTB 2011 Annual Report




States with the Largest Percentage Increase in Federal Excise Tax
                  Collections (FY 2007 - FY 2011)
  State             FY 2007             FY 2011         % Increase
Delaware                 $435,027          $2,027,173      366%
 Virginia          $1,605,223,492     $7,122,003,832       344%
 Arizona               $1,748,835          $7,694,146      340%
Alabama               $11,513,760         $46,516,747      304%
Oklahoma              $24,964,698         $96,931,731      288%




                               30
                                          TTB 2011 Annual Report
•   TTB continued to enforce the collection of the tobacco FST from the manufacturers, importers,
    wholesalers, and retailers who held tobacco products for sale at the time of the tax rate increase imposed
    by CHIPRA. In FY 2011, TTB continued its FST examination program by conducting 175 FST examinations.
    These examinations identified approximately $5.6 million of potential tax, penalties, and interest, and
    collections to date are $4.8 million. Since TTB began its FST examination program in FY 2010, the Bureau
    has completed more than 465 examinations. This field work by TTB auditors and investigators resulted in
    the identification of $16.3 million in potential tax, penalties and interest, of which $8.5 million has been
    collected to date. Total FST collections to date are well over $1.2 billion.
•   TTB has criminal enforcement authority over the commodities it taxes and regulates. Tax fraud in these
    industries, whether through unlawful product diversion or other means, poses a high risk to Federal
    revenue collection. Diversion includes tax evasion, theft, distribution of counterfeit products, and
    distribution in the United States of products marked for export or for use outside the U.S. TTB contracted
    out its criminal enforcement function with IRS CI in FY 2011, to operate a law enforcement program to
    counteract illicit trade in the alcohol and tobacco industries. In just eight months, TTB agents opened 21
    cases for investigation, with 19 of those cases accepted by an AUSA for prosecutorial investigation. Two
    cases have reached the prosecution stage, and three others have been closed. As of the close of FY 2011,
    the total estimated tax liability on these cases totaled more than $20 million. The combined value of the
    seizures and forfeitures made by other agencies in partnership with TTB total approximately $1.7 million.
•   TTB collaborated with several Federal agencies, international organizations, and other stakeholders in
    ensuring that the revenue due on imported alcohol and tobacco products is collected. Through its
    partnership with CBP, and by effectively leveraging data available to TTB from CBP’s International Trade
    Data System, TTB identified 47 entities (14 percent of those who imported cigarettes or other tobacco
    products in FY 2011) as having imported tobacco products without a Federal permit. Though the year-to-
    year non-compliance rate has remained relatively constant for the third consecutive year, the total
    number of entities identified as importing without a permit has decreased significantly, from 190 in FY
    2010 and 260 in FY 2009. In this fiscal year, TTB continued to notify each entity to cease their illegal
    operations, and all either stopped importing or obtained a permit to import tobacco products. CBP is the
    Federal agency responsible for collecting the taxes and duties due on imported products, and TTB referred
    these cases to CBP for follow up action. The tax value of these imports as declared to CBP is $375,000.
    This effort is an important aspect of TTB’s overall program to detect unlawful distribution of non-taxpaid
    tobacco products into the domestic marketplace.
•   TTB participated with CBP and Immigration and Customs Enforcement on the Fraud Investigative Strike
    Team (FIST). The FIST initiative addresses smuggling and fraud activity along United States’ borders. The
    purpose is to determine compliance with laws and regulations at Foreign Trade Zones and Customs
    bonded warehouses and, where violations are found, to investigate and prosecute illegal operators. TTB
    field personnel participated in FIST operations in seven U.S. cities with ports or international borders.
    Through these efforts, TTB identified regulated industry members for comprehensive audits in FY 2012.
    Further, participation in these operations helped to identify vulnerabilities in the movement of TTB-
    regulated commodities from bonded premises to Customs bond that are prone to diversion activity. TTB’s
    audit and shipment tracing procedures were modified based on this important intelligence.



                                                       31
                                                 TTB 2011 Annual Report

Protect the Public
TTB met all of its performance measures under the Protect the Public activity. A detailed summary of TTB
performance is discussed in Part II of this report, Program Performance Results.

Investments in the Protect the Public mission resulted in several achievements during FY 2011:

  •    TTB issues original and amended permits to persons who are engaged in the alcohol and tobacco
       industries. TTB processed 5,977 original and 19,702 amended permits, or approximately 4 percent and
       8 percent more than in FY 2010, respectively. In FY 2011, TTB processed original applications in an
       average of 74 days, which resulted in the issuance of 5,063 original permits to qualified applicants.
  •    As illicit activity in the alcohol and tobacco industries has the potential to be highly lucrative, it is crucial
       that TTB prevent criminal operatives from obtaining a permit to engage in the alcohol and tobacco
       trade through its permit investigation process. In support of this objective, TTB initiated approximately
       250 permit investigations to verify that applicants were qualified and not prohibited from engaging in
       business activity in the alcohol and tobacco industries, and that those operating in these industries
       were properly permitted and operating in compliance with Federal regulations. As a result of TTB’s
       application investigations, 8 applications were withdrawn or abandoned by the applicant and 6
       applicants were found by investigators to be unqualified to hold a Federal permit. Of the total permit
       investigations, TTB conducted 48 investigations into businesses suspected of operating without a
       permit, and 65 investigations into recently permitted entities as part of its post-application verification
       program. The post-application investigations involve the random selection of permit applications that
       were approved in the previous year for an in-depth review of the permittees’ activities to determine if
       the information supplied on their application was accurate and if they are conducting compliant
       operations. In total, TTB permit and revenue investigations resulted in the voluntary surrender of 9
       permits and the surrender of 11 permits in-lieu of adverse action.



                   Original Permits Issued by TTB                     In five years, the total number of original
         100%                                                         permits and registrations approved by TTB
          98%                                                         has grown 11 percent. Between fiscal
          96%                                                         years 2010 and 2011, the total number of
          94%                                                         original permits issued increased by 4
          92%                                                         percent. Firearms registrations approved
          90%                                                         by TTB decreased 12 percent compared to
          88%                                                         the prior year, and the number of tobacco
                   FY 2007   FY 2008   FY 2009    FY 2010   FY 2011   permits issued decreased 37 percent.
        Firearms     23        37        33         41        36
        Tobacco     248       185       197         297      188
        Alcohol     4,308     4,381     4,442      4,529     4,839




                                                             32
                                           TTB 2011 Annual Report
•   TTB approved 117,079 (81 percent) of the 145,305 COLA
    applications received; the remaining 28,226(19 percent)          ALCOHOL BEVERAGE LABEL
    were either rejected, returned for correction, withdrawn,        PROCESSING STATS
    expired, or surrendered. The number of COLA applications
                                                                                Certificate of Label Approval Applications
    received increased by 10 percent from 2010. Of those label                          Received by Filing Method

    applications, 88 percent were submitted through COLAs
                                                                     160,000
                                                                     140,000                                                                     17,555
                                                                     120,000                                                          27,246
    Online, the Bureau’s system for the electronic filing of label   100,000
                                                                                      61,315
                                                                                                       50,404         32,963

                                                                      80,000

    applications. TTB was successful in increasing the rate of e-     60,000
                                                                      40,000                           83,024         92,003
                                                                                                                                      105,349
                                                                                                                                                 127,750

                                                                                      63,810
    filing by 9 percent over the previous fiscal year, which          20,000
                                                                            0
                                                                                      FY 2007       FY 2008           FY 2009         FY 2010    FY 2011
    corresponds to a 21 percent increase in the number of e-                                    E-filed COLAs             Paper Filed COLAs


    filed applications. The increase in online applications is due
    in large part to outreach efforts by TTB through                             Rate of Electronic Label Application Filing
                                                                     100%                                                                          88%
    educational workshops, improvements to online                     90%
                                                                      80%                                             74%
                                                                                                                                       79%

                                                                      70%                          62%

    information, and one-on-one demonstrations to those               60%
                                                                      50%
                                                                                  51%
                                                                                  49%


    industry members who are the highest volume paper filers.
                                                                      40%
                                                                                                   38%                26%
                                                                      30%                                                               21%
                                                                      20%                                                                          12%
                                                                      10%
                                                                       0%

•   TTB deployed Formulas Online on January 10, 2011.                            FY 2007          FY 2008           FY 2009           FY 2010    FY 2011

                                                                                                  E-filed COLAs             Paper Filed COLAs

    Formulas Online is a Web-based system that allows
    external users to draft, submit, and track formula                            COLA Approval Rate by Filing Method
    applications for domestic and imported alcohol beverages.
                                                                     90%
                                                                                81%              81%               82%               80%         82%
                                                                     80%
                                                                                      77%
    In FY 2011, TTB received nearly 7,200 paper and electronic
                                                                     70%                               74%                72%                          72%
                                                                     60%                                                                   66%

                                                                     50%
    formulas for domestic and imported alcohol beverages.            40%
                                                                     30%

    TTB received more than 2,300 of those applications               20%
                                                                     10%

    electronically. In just eight full months of operation, TTB       0%
                                                                                 FY 07            FY 08              FY 09             FY 10      FY 11


    achieved an electronic filing rate of 32 percent for formula                                             Electronic      Paper




    applications. The success of the system is due, in part, to
                                                                     Between fiscal years 2007 and 2011, the
    outreach efforts. TTB held three Formulas Online Webinars        number of alcohol beverage label
    to offer new users training in topics such as system             applications submitted to TTB increased
    registration; the basics of drafting, submitting, and tracking   16 percent. After a decline in total COLA
    formula applications for domestic and imported alcohol           applications in FY 2009, the number of
    beverages; and common pitfalls to avoid when submitting          Certificate of Label Approval (COLA)
    electronic formula applications.                                 applications submitted by the alcohol
                                                                     beverage industry and processed by TTB
•   In FY 2011, TTB investigators closed more than 350 field         has steadily increased.
    investigations into the integrity of alcohol beverage
                                                                     Through targeted education efforts, the
    products. Total product integrity investigations closed by
                                                                     Bureau was successful in increasing
    TTB increased 18 percent compared to FY 2010, as a result
                                                                     usage rates for the electronic label filing
    of revisions TTB made to its enforcement approach as             system by 10 percent in just one year.
    reflected in its investigation operating plan in FY 2011. The    The promotion and education strategy
    plan includes a combination of targeted and random               employed over the last five years has
    investigations, and supports the expansion of the Bureau’s       resulted in the COLAs Online usage rate
    Alcohol Beverage Sampling Program.                               increasing from 51 percent in FY 2007 to
                                                                     88 percent in FY 2011.


                                                        33
                                          TTB 2011 Annual Report
•   In assuring the integrity of alcohol beverage products offered for sale to U.S. consumers, TTB analyzed and
    reviewed for compliance 650 alcohol beverage products as part of the Alcohol Beverage Sampling Program
    (ABSP). The ABSP uses statistically valid sampling of products in the marketplace to validate that they are
    properly labeled to protect consumers. This program enables TTB to be proactive rather than reactive to
    potential labeling issues or threats to the food supply. In FY 2011, the ABSP was expanded to include all
    three beverage alcohol commodities in order to produce more timely compliance information. The
    program was also augmented with a field investigation component in order to verify alcohol beverage
    label claims, such as grape varietal and vintage focused on wine, which cannot be established through
    laboratory testing. Preliminary data indicates that overall compliance for distilled spirits increased due to
    an increase in content compliance; the compliance rate for malt beverages remained constant; and the
    compliance rate for wine decreased due to a decrease in label compliance. As in prior years, there was no
    statistically significant difference between the estimated overall compliance rates for domestic versus
    imported alcohol beverage products in FY 2011. Significant findings that required TTB intervention
    included high lead content in a distilled spirit product, an unauthorized pesticide in wine, and wines that
    were misclassified for tax purposes. The ABSP results add important data to the TTB risk model, which is
    used to most effectively direct enforcement resources and address non-compliance issues. For a full
    report on the ABSP, please visit TTB.gov.
•   In FY 2011, the TTB laboratories analyzed nearly 2,000 product samples for product integrity, tax
    compliance, and the Alcohol Beverage Sampling Program. Of these products, 408 (approximately 20
    percent) were non-compliant with Federal standards. Further, of the 17 complaints submitted to TTB by
    consumers regarding alcohol beverages they had purchased, TTB found that none posed serious health
    risks to consumers after collecting samples and testing the suspect products.

•   As part of its active program to ensure the safety of alcohol beverages, TTB evaluates alcohol beverages
    for a number of potentially harmful adulterants or contaminants, including heavy metals and pesticide
    residues. In FY 2011, TTB continued its pesticide residue program that involves sampling wine in the
    marketplace for analytical testing to determine the presence of unauthorized pesticides and to ensure that
    authorized pesticides that are present are within the limits prescribed by the Food and Drug
    Administration and Environmental Protection Agency. In FY 2011, in support of these efforts, the TTB
    Laboratory successfully completed a multi-laboratory validation to test for the pesticide oxadixyl. Twelve
    laboratories in the U.S., Italy, China, and New Zealand representing academia, government, and
    commercial organizations agreed to participate in the collaborative effort. Multi-laboratory validation and
    method harmonization collaborations promote additional mutual acceptance of the methods of analysis,
    protect consumer health, and facilitate fair practices in the food and alcohol beverage trade.
•   TTB’s Trade Facilitation program helps to strengthen the U.S. economy by facilitating import and export
    trade in alcohol and tobacco products, while administering the consumer protection standards under its
    jurisdiction. TTB has made progress on international agreements with multiple counterpart agencies in
    Canada, Italy, France, the People’s Republic of China, Australia, and the Republic of Georgia. These
    agreements are designed to facilitate trade by increasing mutual understanding of each country's alcohol
    and tobacco production requirements and labeling and licensing standards, and provide a process for the
    exchange of regulatory information that has the potential to enhance protection of the revenue or impact
    product trade, compliance, and safety. TTB also provides technical support to Federal agencies, including
    the Office of the United States Trade Representative (USTR), in their development of international
                                                       34
                                         TTB 2011 Annual Report
    agreements that promote U.S. exports. TTB partnered with the USTR in a project to establish an Asia-
    Pacific Economic Cooperation (APEC) Wine Regulatory Forum (WRF). APEC is the premier forum for
    facilitating economic growth, cooperation, trade, and investment in the Asia-Pacific region, and member
    countries are emerging export markets for the U.S. wine industry. The purpose of the WRF is to provide a
    venue for open dialogue to support open and free trade and eliminate technical barriers to trade. TTB
    coordinated a September seminar in San Francisco, California, with representatives from 18 of the 21 APEC
    nations.

•   The TTB Trade Facilitation program also assures fair competition within the domestic marketplace. In FY
    2011, to support this TTB objective, TTB concluded a nationwide trade practice investigation of some of
    the largest alcohol beverage suppliers in the United States that were found to have violated the FAA Act by
    paying a major casino chain for preferential shelf space for their products. The negotiated settlements
    with six companies totaled approximately $2 million and, most importantly, broadcast TTB’s active
    enforcement efforts in this area. TTB is following up on this case by issuing specific guidance to industry
    on the restrictions placed on the alcohol trade.




                                                      35
                                            TTB 2011 Annual Report

 Financial Summary
 Federal Excise Tax Collections
 TTB collects excise taxes from the alcohol,
 tobacco, firearms, and ammunition industries. In
 addition, the Bureau collects Special
 Occupational Tax (SOT) from certain tobacco
 businesses. During FY 2011, TTB collected $23.5
 billion in taxes, interest, and other revenues.

 Substantially all of the taxes collected by TTB are
                                                                                               Firearms and Ammunition Excise Tax Collections
 remitted to the Department of the Treasury                                             $500
 General Fund. The firearms and ammunition                                              $450




                                                            Collections (in Millions)
                                                                                        $400
 excise taxes (FAET) are an exception. This                                             $350

 revenue is remitted to the Fish and Wildlife                                           $300
                                                                                        $250
 Restoration Fund under provisions of the                                               $200
                                                                                        $150
 Pittman-Robertson Act of 1937. The U.S. Fish                                           $100
 and Wildlife Service, which oversees the fund,                                          $50
                                                                                                 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
 apportions the money to State governments for                                                                         FAET
 wildlife restoration and research, and hunter
 education programs.                                            TTB’s tax collections for domestic alcohol
                                                                beverages have shown a relatively stable rising
                                                                trend for several years. The tax for imported
                                                                alcohol beverages is collected by U.S. Customs
                                                                and Border Protection.
      FY 2011 Excise Tax Collections:
                                                                Tobacco tax revenues in FY 2011 decreased by 3
Alcohol……………………………… $  7,594,330,000                            percent from the prior year. This trend tracks
Tobacco……………………………… $ 15,515,073,000                            with Congressional Budget Office projections
FAET……………………………………. $    344,262,000                            for tobacco tax revenue following the passage
SOT……………………………………… $         268,000                            of the CHIPRA legislation.
FST……………………………………… $       5,220,000
                                                                Since TTB assumed the responsibility for
Other………………………………….. $     2,257,000
                                                                administering the FAET in 2003, collections
                                                                have increased 78 percent. After reaching a
Total……………………………….          $ 23,461,410,000
                                                                high in FY 2009, revenue collections trended
                                                                down in fiscal years 2010 and 2011.




                                                       36
                                          TTB 2011 Annual Report



Refunds and Other Payments
During FY 2011, TTB issued $802,048,000 in tax refunds and cover-over payments, and drawback payments on
taxes paid by Manufacturers of Nonbeverage Products (MNBPs).

Cover-over Payments
Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on certain articles
produced in Puerto Rico and the Virgin Islands, and brought in or imported into the United States. In
accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the U.S. are “covered over,” or paid
into the treasuries of Puerto Rico and the Virgin Islands, less the collection expenses incurred by TTB. During
FY 2011, cover-over payments totaled $462 million.

Drawback Payments
Under current law, 26 U.S.C. 5134, MNBPs may be eligible to claim a refund of tax paid on distilled spirits used
in their products.

During FY 2011, drawback payments totaled $307 million. In the case of distilled spirits on which the tax has
been paid or determined, a drawback is allowed on each proof gallon at the rate of $1 less than the rate at
which the distilled spirits tax had been paid or determined. The refund is due upon the claimant providing
evidence that the distilled spirits on which the tax has been paid or determined is unfit for beverage purposes,
or was used in the manufacture of medicines, medicinal preparations, food products, flavors, flavoring
extracts, or perfume. The claimant must submit a product formula to the TTB laboratory for analysis and
approval of the nonbeverage claim.




                                   FY 2011 Excise Tax Refunds:
            Alcohol and Tobacco Excise Tax Refunds………… $                           33,414,000
            Cover-over Payments, Puerto Rico…….…..………… $                          452,040,000
            Cover-over Payments, Virgin Islands………………. $                            9,592,000
            Drawbacks on MNBP Claims…………………………… $                                 306,584,000
            Interest and Other Payments………………………….… $                                 418,000

            Total……………………………………………………………………$                                      802,048,000




                                                       37
                                           TTB 2011 Annual Report

FY 2011 Bureau Budget
Direct Appropriations (Salaries & Expense Account)
The FY 2011 TTB budget for salaries and expenses was $100,798,000. The authorized full-time equivalent (FTE)
staffing level for direct positions was 535, which included 10 FTE for special agents provided under two-year
funding made available in FY 2010 for the hiring, training and equipping of special agents. However, TTB
elected not to hire the agents directly, but to enter into an interagency agreement with the Internal Revenue
Service Criminal Investigation office to conduct criminal investigations into violations of the tax laws TTB
enforces.

Offsetting Collections and Reimbursable Accounts
During FY 2011, the Bureau realized offsetting collections in the amount of $3.8 million. Those funds
originated from multiple sources including recoveries from the operation of the cover-over program and other
enforcement activities in Puerto Rico, and funding from the Department of the Treasury’s Executive Office of
Asset Forfeiture to cover investigative expenses; and funding from the Community Development Financial
Institutions Fund (CDFI) for reimbursement of information technology support services.




Obligations and Expenditures by TTB Program




  The Bureau’s expenditures by its major programs remained constant between FY 2010 and FY 2011.


                                                        38
                                           TTB 2011 Annual Report

Audit of TTB’s FY 2011 Financial Statements
The Department of the Treasury is one of 23 Federal agencies that are required by law to produce annual
audited financial statements. TTB’s financial activities are an integral part of the information reported on by
the Treasury Department.

TTB’s Annual Report includes audited FY 2011 and FY 2010 financial statements, as well as reports on the
Bureau’s internal control over financial reporting and compliance with laws and regulations.

Management Assurances
An independent, full-scope financial statement audit was conducted for FY 2011 and TTB received an
unqualified audit opinion. However, the audit identified a material weakness in internal control over financial
reporting related to the computation of allowances for uncollectible tax receivables.

For FY 2011, except for the noted weakness related to the allowance for doubtful accounts computation, TTB
provides reasonable assurance that the objectives of the Federal Managers’ Financial Integrity Act have been
achieved, and the bureau’s financial management systems are in substantial compliance with the Federal
Financial Management Improvement Act. This overall determination is based on past and current practices, an
improved controls environment, scrutiny by external audit sources, internal evaluations, and administrative
and fiscal accounting system enhancements.

During the year TTB implemented corrective actions to improve internal controls that were designed to ensure
the accurate recording of financial transactions into the capital accounts of the general ledger and accurate
reporting of capital assets in the financial statements. These changes were made to address prior year audit
findings.

Also during FY 2011, TTB applied its custom risk management tools to its Revenue Accounting Section to
identify risks in the accounting and tracking of TTB’s annual Federal excise tax collections, and to the National
Revenue Center, with a focus on its key business processes. Those tools disclosed that TTB has adequate
internal controls in place to mitigate risk to operations, and that the overall risk of fraud, waste, and abuse is
characterized as “LOW.”

Bureau Challenges
TTB is planning improvements designed to address the deficiency identified in the audit regarding the
computation of allowances for uncollectible tax receivables. The corrective actions should be completed
during the second quarter of FY 2012. Further, TTB plans to revisit the vulnerability and risk management tools
that are used each year to monitor the internal controls over tax collections to ensure these documents reflect
the key business processes in operation at the National Revenue Center and fully support our internal control
program at the Bureau. As systems and businesses processes change it is important that TTB update the tools
that are being used to monitor its tax processing activities.




                                                        39
                                            TTB 2011 Annual Report


Part II
Program Performance Results
Performance Overview

TTB reports its performance in terms of six metrics that represent its ability to supply satisfactory service to its
customers in the industry, foster compliance from taxpayers, employ technology to meet its public protection
mission, and return value to the Nation for its investment in TTB programs.

TTB exceeded the performance targets for five of the measures reported to its stakeholders in FY 2011. Based
on external factors and the results achieved this fiscal year, TTB reviewed its FY 2012 performance targets and
updated those in which TTB significantly exceeded its intended performance. To meet its performance goals in
FY 2012, TTB will implement an aggressive strategic agenda that integrates new technology, human capital
management techniques, and targeted efforts in both outreach and enforcement. All performance results are
subject to management review and periodic audit by the Department of the Treasury.


                               FY 2011 Performance Measure Status
       Performance Targets Met                                                             5
       Performance Targets Not Met                                                         1
       Baseline                                                                            0
       Total Performance Measures                                                          6


                                         Performance Measure Trends
                                               FY 2007 - FY 2011
                                         100%        100%         100%
                             89%                                               83%



                                   11%                                               17%


                               2007        2008           2009         2010      2011

                                                    Met      Not Met




                                                          40
                                           TTB 2011 Annual Report

Summary of Collect the Revenue Performance
Table 1.1

                               FY 07    FY 08     FY 09        FY 10        FY 11         FY 12    FY 11     % of
Performance Measure                                                                                Target    Target
                               Actual   Actual   Actual        Actual   Target   Actual   Target   Met?     Reached


Amount of revenue
collected per program            –      $313      $427         $478     $400     $468     $410       Y      117%
dollar

Percentage of voluntary
compliance from large
taxpayers in filing timely       –       94%      94%           94%     92%      95%       94%       Y      103%
tax payments (in terms of
revenue)


Performance Discussion
In FY 2011, TTB met all of its targets for the performance measures under the Collect the Revenue budget
activity, demonstrating the effectiveness and efficiency with which TTB operates its revenue collection
mission.

Efficiency of Tax Collection

The amount of revenue collected per program dollar measure uses annual collections figures and the actual
expenditures and obligations for collection activities to quantify the efficiency of the TTB tax collection
program. In FY 2011, TTB reported a return on investment of $468 for every dollar spent on collection
activities. Due to ongoing and successful compliance audit and investigation efforts, TTB exceeded the
performance target for FY 2011 by 14 percent.

Each year, TTB collects approximately $23.5 billion in excise taxes, interest, and other revenues from alcohol,
tobacco, firearms, and ammunition industries. In determining its performance targets for this measure, TTB
examines historical collections trends across each of its regulated commodities, as well as other predictors that
influence consumer behaviors.

In just three years, the return on investment for the Collect the Revenue program increased by 50 percent,
principally because of the higher Federal excise tax rate imposed on tobacco products under the February
2009 CHIPRA legislation. This legislation nearly tripled the Federal tax rate on certain tobacco products and, as
a result, TTB’s return on investment reached an historic high in FY 2010 of 478:1. However, shifts in
consumption patterns, product manufacturing, and trade will impact federal revenues in the years ahead. In
accounting for these types of marketplace shifts, TTB used Congressional Budget Office revenue projections for
tobacco excise tax collections to determine its targeted performance levels for fiscal years 2011 – 2013.

The performance target of $400 for FY 2013 reflects TTB’s analysis of collections data, and will be met through
continued efficiencies gained in TTB’s costs to operate its Collect the Revenue activities, specifically, savings

                                                          41
                                           TTB 2011 Annual Report
achieved in the processing of operational reports filed by distillers. In FY 2011, TTB drafted rulemaking that
proposes to streamline the reporting requirement for distilled spirits plants (DSP). The proposal calls for
replacing the four current report forms that DSPs use to report to TTB on their production and operations each
month with two new report forms. Further, plants with small excise tax liabilities will be able to submit
quarterly reports instead of monthly reports. Additionally, the reporting forms have been updated to
eliminate unnecessary information and improve TTB’s ability to identify transfers of spirits that do not comply
with the regulations. This initiative will significantly reduce the filing burden for industry members, and reduce
processing costs for TTB. TTB estimates that this project will result in additional savings of $300,000 annually
based on the more efficient and effective processing of reports and the use of report data to reconcile industry
member tax accounts.

Increase Voluntary Tax Compliance

Fostering voluntary compliance among excise taxpayers is another primary tax administration strategy for TTB
and supports the priority goal of the Department of the Treasury. A key performance metric shows that 95
percent of large taxpayers (i.e., those that pay more than $50,000 in annual taxes) voluntarily file their tax
payments on or before the scheduled due date. During an economic downturn, this compliance rate from
business is especially notable, and is a function of the service and outreach TTB provides to its industry
members and its effective enforcement presence.

Improved Access to TTB Services

Through targeted investments in technology, TTB aims to improve voluntary compliance by working toward
allowing TTB permittees and taxpayers to file all payments, returns, and applications online with the National
Revenue Center. In FY 2011, TTB expanded the e-filing program to allow all excise taxpayers to file and pay
taxes and file monthly operational reports electronically through the Pay.gov system. The total number of
Pay.gov registrants increased over the prior year by 12 percent in FY 2011, bringing the total to nearly 7,200.

Tax Enforcement Audits and Investigations

An identifiable enforcement presence is a well-established driver of compliance rates. In FY 2011, to meet its
performance target of 92 percent for the voluntary compliance measure, TTB used increasingly sophisticated
risk models and audit targeting techniques to complete field work for approximately 175 targeted audits and
190 revenue investigations. These audits and investigations resulted in the identification of approximately
$29.4 million in additional tax, penalties, and interest from industry members, and $10.6 million in additional
collections. Further, in a continuation of efforts to enforce the CHIPRA legislation enacted in 2009, TTB
continued its Floor Stocks Tax (FST) examination program by conducting 175 FST examinations of tobacco
manufacturers, importers, wholesalers, and retailers, which this year identified $5.6 million of potential tax,
penalties, and interest, and resulted in $4.8 million in additional collections. In just over two years, TTB
auditors have completed approximately 465 FST examinations, identifying $16.3 million and collecting $8.5
million of potential tax, penalties and interest.

Additionally, in FY 2011, TTB developed an automated system to identify FST non-filers at a national level,
using minimal TTB resources. This involves a special operating procedure for targeting, referring, assessing, and
collecting FST revenue from non-filers. In using this database solution, to date, TTB has identified the potential

                                                       42
                                           TTB 2011 Annual Report
for an additional $25 million of estimated FST due, to be verified through FST examinations in FY 2012. The
actual revenue risk is likely higher, as TTB continues to collect tobacco data from a variety of sources and to
complete its database of all FST non-filers. Since enacted in 2009, total FST collections are well over $1.2
billion.

In FY 2011, TTB made significant adjustments to its operating plans by targeting tobacco importers and
tobacco processors, two points in the distribution chain that present a revenue risk.

Using a tobacco importer risk model developed in FY 2010 to isolate the highest risk tobacco importers in TTB’s
portfolio, TTB completed more than 20 tobacco importer audits, which led to the identification of more than
$10 million in additional excise tax liability. These matters were referred to CBP for collection, as the authority
for collecting excise tax on imports resides with Customs.

Also during FY 2011, TTB piloted an initiative that involved joint teams of auditors and investigators employing
forensic audit techniques to investigate the activities of tobacco processors. CHIPRA imposed new permit
requirements on these businesses, which source processed tobacco to manufacturers for the production of
cigarettes and other taxable tobacco products. These joint investigations resulted in approximately $2 million
in additional Federal excise tax. The forensic audits, which involve forward tracing processed tobacco through
various points in the distribution chain, uncovered a number of suspicious removals of processed tobacco
outside of the permitted system, and several illegal manufacturers. One cased involved the shipment of
processed tobacco to two warehouses that didn’t exist or never received the product. The potential tax
liability of these shipments (if the processed tobacco was made into cigarettes) exceeds $5 million. These TTB
investigations also resulted in criminal case referrals.

Criminal Enforcement

Further, in its efforts to maintain tax compliance within the industries it regulates and the collection of all
revenue due on alcohol and tobacco products, the Bureau worked to address the illicit activity in the
marketplace. TTB has criminal enforcement authority under the IRC, which includes penalties for illicit tobacco
product manufacturing and evasion of excise tax. Until this past fiscal year, however, TTB did not have the
resources to effectuate this authority. Instead, TTB had to rely on the availability and interest of other Federal
and state law enforcement agencies, agencies with separate and distinct missions, to either initiate joint
investigations that would include violations of IRC provisions enforced by TTB or accept a criminal investigation
referral.

TTB entered into an interagency agreement in FY 2011 to reimburse the IRS for agent services to enforce the
criminal provisions of TTB’s jurisdiction. In FY 2011, a Special Agent in Charge and five special agents were
assigned full-time to TTB. In its 10 months of operations, this program has resulted in the initiation of 21 cases
with a total estimated potential Federal excise tax liability of over $20 million, and combined seizures and
forfeitures by partnering agencies totaling approximately $1.7 million. Of the 21 cases, 11 related to illicit
tobacco trade (52 percent) and 10 relate to the illegal alcohol trade (48 percent), demonstrating that criminal
activity is present across the industries TTB regulates. Of the 21 open criminal cases, 18 (86 percent) are
currently under investigation and have been accepted by an Assistant U.S. Attorney for prosecution. TTB has
closed three cases, one of which involved the misclassification of imported distilled spirits to evade Federal


                                                        43
                                           TTB 2011 Annual Report
excise tax and resulted in a plea agreement of nearly $102,000. TTB is working with IRS CI to close the cases
opened under this contract agreement.

Moving Forward
Looking ahead, TTB will continue its enforcement strategies to achieve the target of 94 percent established for
the voluntary compliance performance measure. Strategies that TTB will employ to meet this target focus on
developing a balanced field approach of audits and investigations that targets non-compliant industry
members, establishing an identifiable presence within the industry that encourages voluntary compliance, and
identifying any gaps in tax payment from illegal entities and individuals operating outside of the lawful
distribution system for alcohol and tobacco products.
TTB’s revenue collection activities will focus both on legitimate industry members, and those operating outside
of legal distribution chains. TTB will continue to include in its audit plan a mix of comprehensive audits, limited
scope audits, and examinations in order to maximize TTB’s audit resources and provide broad industry
coverage. TTB also plans to address revenue risk areas in FY 2012 through enhanced risk modeling and audit
programs developed for specific industry member types determined to be at high risk for non-payment or
underpayment of taxes. The fraud units comprised of TTB auditors and investigators will also be deployed to
work on complex fraud and diversion cases and cases with national scope.
To assure compliance in the importer community that TTB regulates, TTB will continue to participate in joint
Federal agency initiatives designed to trace alcohol and tobacco product through the Customs bonded
warehouse system to ensure alcohol and tobacco products moving into domestic commerce are properly
taxpaid and meet packaging and marking requirements. TTB also is involved in multiple ongoing criminal
investigations of illegal activity in the industries TTB regulates. Using an integrated enforcement approach,
auditors will follow up on referrals provided by the TTB Intelligence Division to address suspected illegal
activity. TTB auditors and investigators will use partnerships cultivated AUSA’s and other law enforcement
agencies, including IRS CI, to effectuate TTB's criminal enforcement operations.
In FY 2012, TTB will complement its enforcement efforts with education strategies to obtain tax compliance
from TTB permit tees. Sustaining or increasing the rate of compliance achieved will depend, in part, on
continued efforts to promote industry member use of the online tax return and payment filing system,
Pay.gov. Efforts to maintain voluntary industry compliance also will focus on educating industry of Federal
requirements related to operating in the alcohol, tobacco, and firearms industries, both on premises through
guidance provided by TTB auditors and investigators and through Web-based industry seminars. Going
forward, online seminars will enable TTB staff to reach broad groups of users and provide advanced instruction
on the reporting and payment of excise taxes and other regulatory requirements.
TTB also will further enhance its tax verification program by building on the Error Tracking Database (ETD) to
identify discrepancies in operational reports and tax returns. In development since FY 2010, the ETD now
identifies more than 70 different types of errors on certain industry operational reports, and generates
compliance letters to notify industry of the compliance issues. In FY 2012, the ETD will be expanded to include
operational reports for additional TTB-regulated commodity types. TTB also will expand the module in the ETD
that identifies missing and late excise tax returns.




                                                        44
                                           TTB 2011 Annual Report


Summary of Protect the Public Performance
Table 1.2

                                  FY 07     FY 08    FY 09     FY 10          FY 11        FY 12    FY 11      % of
Performance Measure                                                                                 Target    Target
                                  Actual   Actual    Actual   Actual   Target    Actual    Target   Met?     Reached

Percent of electronically filed
Certificate of Label Approval      51%      62%       74%      79%      81%       88%       88%       Y       109%
(COLA) applications

National Revenue Center (NRC)
                                    –       90%       89%      89%      85%       90%       85%       Y       105%
customer service survey results

Average number of days to
process an original permit          –        64        64       65       72           74    75        N       97%
application at the NRC

Percentage of importers
identified by TTB as illegally
                                    –       22%       15%      15%      19%       14%       14%       Y       126%
operating without a Federal
permit



Performance Discussion
In FY 2011, TTB met three of its targets for the performance measures under the Protect the Public budget
activity. TTB tracks its success in meeting its trade and consumer protection goals through four principal
performance measures that indicate how timely the Bureau is in issuing permits to qualified alcohol and
tobacco businesses, how satisfied businesses are with TTB’s permitting process, how effective TTB is in
deterring illicit importation of tobacco products by non-permitted entities, and the efficiency of the Bureau’s
alcohol beverage label application processing activity. Taken together, these measures reflect the priorities of
a service-oriented organization, which applies technology to the greatest extent in order to perform its
consumer protection role and in order to assure that commerce is fair, lawful, and open.

Increase Efficiency in Permitting Qualified Businesses

TTB protects consumers by screening permit applicants to ensure only qualified persons engage in operations
in the alcohol, tobacco, firearms, and ammunition industries. For this purpose, in FY 2011, TTB processed 6,000
original and 19,700 amended permits, and performed 200 investigations into high-risk applicants to meet
TTB’s business integrity objective. TTB also monitors its timeliness in processing permit applications through its
measure of average processing times for original permit applications. Undue delays in providing businesses a
permit to commence operations impacts small business growth and federal revenues, as taxable commodities
cannot be lawfully produced without a TTB permit. TTB targeted a 72-day turnaround time for original permit
applications in FY 2011; however, the Bureau averaged 74 days to process these applications.


                                                       45
                                           TTB 2011 Annual Report
TTB launched Permits Online in FY 2011 to expedite permit processing times and increase the number of
paperless transactions with the community TTB services. Permits Online provides a secure, Web-based
solution that allows members of the alcohol and tobacco industries to electronically submit applications for
permits to operate. Applicants who plan to produce finished distilled spirits, wines, malt beverages, and
tobacco products, and persons wishing to operate businesses such as alcohol wholesalers, alcohol importers,
tobacco importers, specially denatured spirits users and dealers, tax-free alcohol users, alcohol fuel plants,
tobacco processors, and tobacco export warehouses, must submit original and amended permit applications.
TTB’s National Revenue Center currently processes original application packets for 23 types of permits/
registrations.

Over the past several years, however, the volume of paper applications has increased making it difficult to
maintain current service levels. On average, TTB has experienced a 6 percent annual increase in original
permits applications. Recognizing this trend, and the loss of processing resources, TTB purchased a commercial
off-the-shelf software package to serve as the core of the electronic system to automate the submission
process for all permit applications. TTB is deploying the system in stages, with the initial release implemented
in FY 2011, and subsequent releases scheduled through FY 2012. The initial release, which came online in
February 2011, included the highest volume permit application filers—alcohol importers, alcohol wholesalers,
and wineries. A second release of the system in May 2011 enabled electronic filing by specially denatured
alcohol users and dealers and tax-free alcohol users. Processing times in the second and third quarters of the
year suffered as staff was redirected for these initial system releases, but showed improvement in the fourth
quarter as applicants and employees gained experience using the system. Also, with these initial releases, TTB
focused its resources on processing e-filed permit applications in an effort to incentivize businesses to file their
application in Permits Online. During this period, the backlog of paper applications grew, and increased the
average processing time.

With full system functionality for Permits Online slated for deployment in FY 2012, and considering the
requisite transition and training period for industry members, TTB does not anticipate achieving reductions to
turnaround time until the latter quarters of FY 2013. The FY 2012 President’s Budgets include staff reductions
as a result of the efficiencies gained by the introduction of this technology. These reductions in staffing will
produce budget savings, but will impede improvements in processing times, which TTB projects to average 75
days at the close of FY 2013. Sustained performance during a period of declining staff and increasing workloads
will demonstrate TTB’s effectiveness, and the success of the new e-filing system, without which processing
times would exceed 90 days.

Improved Customer Satisfaction Results

TTB also measures its performance in its permit processing function through surveying the businesses that
apply for a TTB permit. The NRC customer survey solicits feedback on the level of service provided to
applicants for an original or amended permit, and those industry members who file a claim to recover taxes
paid on nonbeverage alcohol or overpayments of tax. TTB exceeded its target of a sustained score of 85
percent on customer satisfaction for permit application and claims processing, and achieved a composite score
of 90 percent in FY 2011. Planned service enhancements, including the scheduled enhancements to the online
filing solution for original and amended permit applications in FY 2012, will contribute to the Bureau
continuing to meet its targeted performance level. The FY 2012 target for performance of 85 percent will be

                                                        46
                                          TTB 2011 Annual Report
met through efforts to increase applicant adoption rates for the Permits Online system, as well as other
improvements to business processes and TTB call centers that directly impact the business community that
TTB services.

Sustained Permit Compliance by Regulated Importers

Maintaining lawful operations in the trade of alcohol and tobacco commodities is a principal TTB objective. TTB
continues its enforcement of Federal permit requirements, targeting entities identified as importing cigarettes
and other tobacco products without a TTB permit. By monitoring the CBP’s International Trade Data System,
and comparing import data against the permit tees on file with TTB, the Bureau is able to identify and take
action against those entities engaging in unlawful operations. In FY 2011, through this data comparison, TTB
determined that 14 percent of entities reporting importations of tobacco products had done so without a
permit. TTB improved upon its prior year result of 15 percent for this measure and, through its vigilant
oversight, produced a result 5 percent below its target for performance. In all, TTB identified only 13 entities
importing commercial quantities of tobacco products (10,000 KG or more). TTB’s issuance of cease and desist
letters, and appropriate follow up activities, ensured that the responsible parties ended operations or obtained
a permit.

Efficiency in Alcohol Beverage Label Processing

TTB protects U.S. consumers by assuring that the alcohol beverage products offered at retail outlets are
properly labeled and comply with federal production standards. In FY 2011, TTB met this objective and
facilitated U.S. commerce through the approval of 117,100 of the 145,300 COLA applications received; the
remaining 28,200 (19 percent) were rejected, returned for correction, withdrawn, or expired. In furtherance of
the Department-wide priority goal of increasing paperless transactions, the Bureau reported increases in the
percent of electronically filed COLA applications, which in FY 2011 reached 88 percent of all applications. The
ongoing rise in electronic filing is due to system improvements that track with customer feedback and which
simplify the filing process for industry members. TTB has set a target of 88 percent for FY 2013 and, to meet
this performance goal, will use targeted outreach to reach the segments of the industry that have not migrated
to the online filing environment.

Moving Forward

TTB will continue working to improve processing times for all services provided to its regulated businesses
through the automation of its paper-based application processes and to encourage use of online filing systems
already in place. Usage rates for its electronic filing system for alcohol beverage label applications have
continuously increased due to outreach efforts and in response to faster turnaround times for e-applications
versus paper applications. In FY 2011, TTB will continue to inform industry members of the benefits of
electronic filing, and will continue to provide system demonstrations and publish online guidance, including a
revamped e-newsletter, to the businesses that comprise the user community. Further, with the introduction of
Formulas Online, the new e-filing system that enables the online submission of alcohol beverage formulas, TTB
also expects increased user rates for COLAs Online. The integration of Formulas Online with the existing COLAs




                                                      47
                                          TTB 2011 Annual Report
Online system will streamline the process of obtaining both formula and label approval for those in the alcohol
beverage trade. The integrated systems use a single user ID and password to allow access to both systems.
Currently, 794 active users are registered for both COLAs Online and Formulas Online.

Even during the economic contraction, applications to open new businesses in the alcohol industries continued
a steady rising trend. As resources contract, TTB intends to meet the growing demands of its customers, by
continuing to promote use of the Permits Online system by all permit applicants, and by updating the risk
model and processes used by the NRC to conduct permit applicant interviews. These business process
improvements will help TTB meet its 75 day performance target, despite projected growth in workload.
Additionally, with the phased rollout of Permits Online scheduled through FY 2012, TTB anticipates increased
customer satisfaction, as applicants experience faster response times and the ease of using the electronic filing
system. Additionally, customers should benefit from other efforts to streamline the permit application
process, such as planned improvements to TTB bond forms and instructions, a prerequisite for operations for
many permit tees.
Finally, in its monitoring of Customs data to assure that tobacco importers are properly permitted, TTB intends
to meet its FY 2013 performance target of 14 percent for this measure by placing special emphasis on
enforcing the Prevent All Cigarette Trafficking (PACT) Act, a law enacted in 2010 to prevent tobacco smuggling
and to ensure the collection of all tobacco taxes. Under the PACT Act, shipments of tobacco products via the
U.S. Postal Service (USPS) are prohibited. The vast majority of the illegal imports are individuals purchasing
tobacco products in small quantities for personal consumption through online tobacco outlets via the USPS
and FedEx. TTB continues to coordinate with the USPS and other ground carriers to provide enforcement
assistance. TTB also will focus on monitoring the importation of processed tobacco, which is subject to new
regulation and oversight under CHIPRA, to ensure the fidelity of the importers. Processed tobacco is the
subject of intense TTB enforcement scrutiny, as it is a non-taxpaid tobacco product that may be diverted for
illegal manufacturing of cigarettes.


Summary of Management and Organizational Excellence Performance

In order to effectuate the Bureau’s revenue collection and public protection mission, TTB must create the
conditions necessary for programs to reach and sustain excellence. In all aspects of performing its mission,
TTB aims to ensure that its programs operate efficiently and effectively, and with full accountability. TTB
accomplishes this by ensuring that program offices receive the high-quality management and administrative
support needed to achieve the Bureau’s goals.

The Bureau’s objectives in the area of Management and Organizational Excellence align with the
Administration’s emphasis on automating processes to improve services and enhancing internal operations to
be more efficient and effective. In FY 2011, the Bureau demonstrated its ability to enhance efficiency and
reduce costs through its strategic management of human capital, IT enhancements to improve operations, and
rigorous financial management practices.




                                                       48
                                          TTB 2011 Annual Report

Human Capital Management

TTB continues to implement the strategic goals, strategies, and measures of results outlined in the current
Human Capital Strategic Plan. As the majority of TTB’s human resource functions are operated through the
Bureau of Public Debt Administrative Resource Center (BPD ARC), TTB establishes and updates, as appropriate,
performance benchmarks and measures to monitor these outsourced functions. In FY 2012, TTB will continue
its efforts to revise its Human Capital Strategic Plan to align with the strategic direction of the Bureau. The
new plan will take into account the overall business and cultural vision for TTB, to include:

    •   addressing retirement trends by identifying and closing competency gaps and creating a succession
        plan, enhancing our recruitment and retention plan, and identifying targeted skills sets;

    •   providing an employee friendly culture that strikes a work/life balance through employee recognition,
        performance management, flexible schedules, and teleworking;
    •   incorporating organizational needs based on the 2011 OPM Employee Viewpoint Survey results; and

    •   streamlining human resources functions through various human resources information systems,
        including a new electronic employee official personnel file, performance management system, and
        enhanced self-service personnel actions available online.

In FY 2011, TTB held Labor/Management Partnership Council meetings with the National Treasury Employees
Union (NTEU) under the provisions of the Collective Bargaining Agreement. These meetings have been
instrumental in fostering the Bureau’s labor management relations. In furtherance of improved labor
management relations, TTB and the NTEU collaborated on several pre-decisional projects, including the
reorganization of several field offices to best support the mission and the expansion of the Bureau’s telework
policy.

TTB also conducted impact and implementation bargaining with the NTEU, and revised orders prior to
publication, for a number of significant human resources policies during FY 2011. These included the TTB
orders related to Performance Rating Calculations; Recruitment, Relocation, and Retention Incentive Plans;
Merit Promotion; and Mission, Organization, and Responsibilities.

Employee satisfaction is critical to a productive workplace. Each year, the Office of Personnel Management
administers the Employee Viewpoint Survey (EVS) to measure the satisfaction of the Federal workforce. The
TTB EVS average score for FY 2011 trended up to a 73.4 percent positive response rate from employees. In
response to the scores TTB received on this Government-wide survey, TTB developed an FY 2012 Employee
Viewpoint Survey (EVS) Action Plan to address areas that showed a decline from the prior year.




                                                      49
                                           TTB 2011 Annual Report

Based on this survey data, the Partnership for Public Service determines rankings for Federal agencies. TTB
ranked 34th out of 240 sub-component agencies on the FY 2011 Best Places to Work in the Federal
Government rankings, an increase from its 2010 ranking of 83 out of 224.




In its efforts to improve upon the 2010 ranking, throughout FY 2011, TTB worked to implement the actions
identified in its FY 2011 EVS Action Plan. This involved, in part, conducting a series of focus group meetings at
the Bureau’s two primary locations—the National Revenue Center and TTB Headquarters—in an effort to
solicit feedback from both employees and managers. The purpose of these sessions was to offer a forum
where employees could freely share information, express concerns, and to offer suggestions on how to
improve the work environment for all TTB employees. The focus group sessions were supported and
facilitated by EEO and human resources personnel.




                                                       50
                                           TTB 2011 Annual Report

During FY 2012, under the revised EVS Action Plan, TTB has targeted the areas of effective hiring practices, an
inclusive workplace, and workforce engagement to build upon the improvements in employee satisfaction
realized in FY 2011. Specifically, TTB will:

    •   Provide recruitment lifecycle and interviewing training to hiring managers;
    •   Establish an on-boarding and mentoring program customized for veterans and individuals with
        disabilities;
    •   Implement recommendations and act on the results of the Recognition Survey, an internally
        administered survey of TTB employees, to transform the awards and recognition program;
    •   Develop an action plan to support Job Satisfaction, Talent Management, Results-Oriented Performance
        Management, Leadership and Knowledge Management, and Employee Retention;
    •   Develop an action plan for building an inclusive workplace (i.e., veterans, disabled and non-disabled,
        and individuals with disabilities); and
    •   Develop an action plan to effectively promote and support the Department-wide objectives to hire the
        best talent by decreasing time to hire.

Implementing these and other initiatives on the FY 2012 EVS Action Plan will increase communication to
employees, ensure a highly talented and well-developed staff, and enhance employee engagement.
As a knowledge-intensive organization, TTB requires a highly trained workforce to fulfill its responsibility to
protect the public and collect the revenue within a dynamic and global environment. During FY 2011, TTB used
a variety of human capital policies and programs for recruiting and attracting talent to ensure qualified people
with the necessary skills are in the right positions, and to continue to retain those professionals in the future.
Successful strategies included partnerships with a diverse range of universities across the country, use of the
Treasury Veterans Program, and the Presidential Management Fellows (PMF) Program.
In FY 2011, TTB expanded its use of the PMF Program, with several TTB offices participating in the annual PMF
recruitment and job fair hosted by OPM. As a result, several PMF were hired to support the regulatory area.
Succession planning is also a strategic priority for the Bureau, especially as it relates to TTB’s mission-critical
positions. One in five TTB employees is eligible to retire in FY 2012. To mitigate the loss of expertise and close
skill gaps in mission-critical occupations, TTB continues to use the personnel interventions identified in the Pay
Demonstration Program—a successful pay-for-performance pilot project established in 1999—to enable the
Bureau to improve its capacity to recruit, develop, and retain high-caliber employees. TTB uses tailored
approaches designed and implemented specifically for the Bureau’s continuing and evolving needs in order to
meet mission requirements and remain competitive for highly skilled talent.
Finally, in FY 2011, TTB continued its Emerging Leader’s Program (ELP), established in FY 2009, and selected its
fourth class of the ELP. This leadership development initiative offers three unique certificate programs for
non-supervisors, first-level supervisors, and second-level managers at TTB. The three-year program series
supports TTB’s succession planning strategies, and prepares participants with the competencies critical for
higher levels of leadership responsibility. With the FY 2011 participants, 45 employees are enrolled in the ELP
(8 percent of the TTB workforce), all of whom are up to date on certificate requirements. Based on participant
feedback, TTB is working on expanding the programs offerings to include mentoring opportunities and detail
assignments to tax or regulatory counterpart agencies to broaden the exposure of program participants.

                                                        51
                                          TTB 2011 Annual Report

Financial Management

TTB established and monitored key performance standards to ensure that its business activities covering
financial accounting and reporting operate in a highly effective and efficient manner. In FY 2011, TTB, in
collaboration with its shared service provider at BPD ARC, achieved all of its financial management
performance metrics.
This joint effort in providing financial management services has allowed the Bureau to meet its financial goals
and deliver quality accounting and budget services to program staff, including:

    •   Paying vendor invoices on time (Prompt Payment Rate) greater than 98 percent;
    •   Incurring interest on late payments less than 0.02 percent;
    •   Achieving an Electronic Fund Transfer Compliance Rate of greater than 96 percent;
    •   Completing timely and accurate Cash/Fund Balance reconciliations within 15 days after the end of the
        accounting period;

    •   Reconciling Cash/Fund Balance to 100 percent of the proper balance;
    •   Clearing suspense accounts within 60 days;
    •   Ensuring prompt deposits and recording of tax collections;
    •   Providing timely and useful financial management data;
    •   Providing excellent customer service; and
    •   Maintaining an account code structure that captures and measures costs of TTB programs.
The Bureau also met established due dates to ensure timely submission of required Financial Management
Service (FMS) reports. Monthly closing of financial data was completed within three business days, and
payroll information was downloaded into the Oracle core accounting system within three working days of
receipt of payroll tapes from the National Finance Center.
Joint reviews of payroll activity were conducted to obtain reliable projections of payroll costs relative to
continuously changing on-board staffing levels. The payroll projection system has proven to be a valuable tool
and its use has led to better financial information for decision making on the budget and has helped the
Bureau avoid Anti-Deficiency Act violations. The ability to extract information from both the core accounting
system, and make sound payroll projections, continues to provide reliable and accurate financial information
for management use in executing the budget.
In FY 2011, the Bureau was able to conduct timely reviews of financial information so that program offices
were afforded the data necessary to make efficient use of the Bureau’s annual appropriation, and fulfill TTB’s
tax collection and regulatory responsibilities as outlined under the budget plan. By closely monitoring the
Bureau’s financial status, TTB was successful in making a number of key investments in support of its mission.
These financial reviews were not limited to the current year’s appropriation. TTB also conducted a review of
prior year obligations. This endeavor led to the close out of accounts that no longer legally obligated TTB. As a
result of this comprehensive effort, the Bureau was able to increase its FY 2010 unobligated balance, of which
50 percent, or $236,000, was reapportioned for use in FY 2011 for a one-time investment in information
                                                       52
                                           TTB 2011 Annual Report

technology (IT) infrastructure equipment to replace obsolete network equipment and its IT network intrusion
detection system (IDS).
In support of Treasury’s OMB Circular A-123 requirements over financial reporting controls, the TTB Office of
Finance and Performance Budgeting tested internal controls related to the financial reporting of tax
collections. The review identified no control weaknesses over TTB’s collection activity and the reporting of
those collections.

Expansion of Technology Solutions

TTB made significant progress in achieving its strategic vision of using technology to streamline the delivery of
its core business services. In FY 2011, TTB continued with business application development to improve
internal operational efficiency and to reduce the regulatory burden on industry members. Two major business
applications went into production that added essential automation to paper-intensive processes.
The Permits Online initiative, a major software development project that began in earnest in FY 2010, came
online in FY 2011, enabling industry members to electronically submit new and amended permit applications
to TTB for approval. The secure, Web-based system supports the online submission, routing, and processing of
original and amended permit applications.
TTB currently processes application packets for 23 types of permits or registrations for the alcohol, tobacco,
firearms, and ammunition industries. New or existing alcohol and tobacco industry members file these
applications to request permission to commence a new regulated industry operation, or to update critical
industry member information such as trade names on an existing business. Over the past several years, the
volume of paper applications has increased, making it difficult to maintain current service levels. Without
Permits Online, TTB projected processing times to increase to nearly 90 days by the end of FY 2011. This IT
initiative helped TTB achieve its performance goal of expeditiously processing permit applications, which
allows qualified persons to commence operations sooner, and contributes to the overall growth and health of
the U.S. and global economy.




This e-Gov system will be released in phases. The first phase, which went online in February 2011, included the
three highest volume permit types—wineries, alcohol importers, and alcohol wholesalers. A second system
release in April 2011 enabled electronic filing of applications for specially denatured spirits (SDS) users and
dealers, tax-free alcohol users and dealers, and Government users. The third release in September 2011
enabled the electronic filing of applications for breweries, distilled spirits plants, and alcohol fuel plants. The
                                                        53
                                           TTB 2011 Annual Report

final major release planned in FY 2012 will expand the permit types that can be filed electronically, including
firearms and tobacco permit and registrations.
The response from industry has far exceeded TTB’s targeted adoption rate of 20 percent for those permit
types available in the system. For the approximate eight months of operating, TTB received 57 percent of
these permit applications electronically. Further, in demonstrating the processing efficiencies of the system
since the system came online, TTB was able to process the electronic applications 15 percent faster than the
same permit types submitted by paper application.




Improving service options to customers is a priority of the Administration, and one supported by the
Department of the Treasury through its various initiatives in support of the priority performance goal of
increasing paperless transactions. The Permits Online project was selected by the Department as one of three
initiatives for the Treasury Customer Service Plan, developed in response to Executive Order 12862,
”Streamlining Service Delivery and Improving Customer Service.”
The second core business service brought online in FY 2011 was Formulas Online. This system, released in
January 2011, allows industry members to submit beverage and nonbeverage alcohol formula forms and
documentation via the Web. Some alcohol beverages require formula approval prior to the issuance of a
Certificate of Label Approval and, to simplify this process, TTB integrated Formulas Online with the label filing
system, COLAs Online. COLA applications and approved labels are linked to formulas and related data stored
in Formulas Online. This development effort also enables industry members to register for both Formulas
Online and COLAs Online via the Web, and use a single user ID to access both systems. Industry also gets the
benefit of step-by-step guidance to filing an application, with validation checks built in to the system to ensure
that the application submitted is accurate and complete. Another self-service feature is the ability to receive
current information on the status of a formula application via e-mail.

The system also benefits TTB by providing an electronic system that tracks formula applications and
streamlines their workflow. Whether TTB receives paper or electronic formula applications, all submissions
are captured in Formulas Online, providing internal users with the ability to view, evaluate, request additional
information or corrections, and approve or reject applications. Between January 10, 2011, when TTB launched


                                                        54
                                          TTB 2011 Annual Report

Formulas Online, and the end of the fiscal year, TTB received 7,189 paper and electronic formulas for domestic
and imported alcohol beverages. TTB received 2,316, or 32 percent, of those applications electronically.

Development of the next major system release concluded in September 2011 and will include nonbeverage
formula submissions. It is scheduled for production deployment in the first half of FY 2012. TTB plans to
continue this software development effort into the Spring of 2012, when the final major system release will
implement the functionality required by the Alcohol Beverage Sampling Program and the Consumer
Complaints activity.

In FY 2012, TTB will also complete the conversion of historically filed nonbeverage formulas from a legacy
system into the new system. With this project phase, and the capture of all formula submissions in the system
regardless of filing method, TTB anticipates that once Formulas Online is fully functional, the formulas within
the system will become the official record, eliminating the need for additional file space for paper application
storage. Future enhancements to Formulas Online also include increased system compatibility with additional
Internet browsers, advanced search functionality, and reporting options.

TTB also examined and deployed IT solutions for several manual processes that were creating internal
inefficiencies. One such project involved the elimination of manually imaging tax returns filed through the
commercial lockbox provider. In March 2011, TTB deployed the Lockbox Imaging System at the National
Revenue Center. This system replaced a manual process for scanning paper Federal Excise Tax (FET) and Floor
Stocks Tax (FST) returns filed by industry taxpayers. Prior to implementing this solution, the U.S. Bank mailed
the paper returns to TTB. Now, images of paper filed FET and FST returns are transmitted electronically on a
nightly basis. The electronically processed paper returns are available to TTB Tax Specialists much sooner and
the contractors who previously scanned and indexed the paper returns have been redeployed to work on
other critical scanning efforts.

As part of TTB's effort to modernize its laboratory environment, TTB initiated a project to replace the existing
Laboratory Information Management System (LIMS), a platform for consolidating sample analysis data for the
four laboratories that comprise the Bureau’s Scientific Services Division. In FY 2011, TTB began the
development and testing of a new system based on a commercial software package that allows for integration
with applicable laboratory instruments. The LIMS 2.0 project will provide a secure and robust electronic
submission process that facilitates the online collection and processing of sample analyses. The system is also
crucial to maintaining the laboratory’s international accreditation status, as LIMS 2.0 will streamline the
process, review, and disposition of sample analyses to ensure compliance with ISO 17025 accreditation. Other
benefits include chemical inventory management for the disposal or destruction of reagents and chemicals,
and robust reporting capabilities to support the effective management of laboratory process workflows. The
system is expected to go into production in the Spring of 2012.

TTB also worked toward improving program results and reducing overall operating costs in FY 2011 through a
series of “cloud computing” initiatives. Cloud computing is a model for enabling convenient, on-demand
network access to a shared pool of configurable computing resources (e.g., networks, servers, storage,
applications, and services) that can be rapidly provisioned and released with minimal management effort or
service provider interaction. TTB is developing both TTB’s private cloud by building its virtualized
infrastructure and cloud software service and a community cloud by hosting and providing cloud infrastructure
as a service to the Community Development Financial Institutions (CDFI) Fund.
                                                       55
                                           TTB 2011 Annual Report

In enhancing its private cloud infrastructure, TTB continued its use of a commercial product to virtualize its
server environment. This process involves applying a software application to maximize use of server capability
by dividing a single physical server into multiple isolated virtual environments. To date, TTB has virtualized
nearly 70 percent of its Windows server environment and about 40 percent if it’s other server environment.

TTB also piloted a “virtual desktop” with about 120 TTB users. The virtual desktop allows the TTB user
community to securely conduct their business over the Internet from anywhere, and teleworkers no longer
need dedicated office space, workstations, phones, or fax lines. Virtual desktop also enhances IT security by
eliminating the need to have information stored locally on the user’s machine and helps TTB to reduce data
loss, and increase centralization of information. TTB will see a large return on investment from this cloud
initiative as low-cost thin client devices are deployed to access virtual desktop, rather than costly personal
computers. The refresh of laptops and desktops cost TTB about $1.2 million in the past; the deployment of
virtual desktop with thin clients will save TTB about $800,000 in hardware costs.

In FY 2011, in support of the Government-wide move toward cloud computing, TTB became a provider of IT
infrastructure services for another Treasury entity, CDFI. TTB began this project in FY 2010 by providing CDFI
with wide area network services, remote access services, and disaster recovery capabilities. In April 2011,
CDFI’s legacy hardware was completely transitioned to the TTB environment, giving CDFI a virtualized server
environment to host all of its mission-critical services. In May 2011, TTB started the third phase of the CDFI
transition, which involves the migration of CDFI users to TTB’s infrastructure, providing them with office
automation services such as account logon, e-mail, and network file storage.

These cloud computing initiatives have resulted in significant savings. For TTB, the server virtualization and
virtual desktop projects has resulted in a $2.7 million decrease of IT infrastructure requirements for FY 2013
compared to the FY 2009 requirements. Further, the CDFI “cloud” initiative has resulted in $3.5 million of cost
avoidance for infrastructure refresh requirements over fiscal years 2010 - 2012, as CDFI did not have IT refresh
costs funded in its base budget. Although these savings are not represented in the TTB budget, it represents a
savings to the Treasury Department and to the American taxpayers.

TTB also acted in FY 2011 in support of the Government-wide data center consolidation program, prompted in
part by the growth in the number of such facilities over the past decade. The number of Federal data centers
has grown from 432 in 1998 to more than 2,000 today. In February 2010, OMB launched the Federal Data
Center Consolidation Initiative, which required that agencies review their data center requirements and energy
consumption at these facilities, with the goal of closing 800 centers by 2015. The intent of this initiative is to
reduce the energy and real estate footprint of Government data centers and cut the cost of data center
hardware, software, and operations. In its efforts to increase efficiencies and reduce IT operating costs, TTB
migrated its custom applications production environment from a commercial data center to TTB’s existing data
center in Washington, D.C. The migration of this data center saves nearly $30,000 a month in data hosting
services. The second phase of this effort involves moving the custom application test and development
environments from a commercial data center to TTB’s existing data center in Cincinnati, Ohio. This migration
will save nearly $60,000 in monthly hosting fees. Upon the completion of both data center migrations, TTB will
realize over $1 million in annual cost savings and avoidance.




                                                       56
                                           TTB 2011 Annual Report


Message from the Chief Financial Officer
                               With today’s technology, the pace of business is faster and expectations for
                               service are higher. At the same time, the economic downturn has ushered in
                               mandates to cut costs and find areas of savings in government programs. To
                               meet the needs of the businesses we regulate in such a resource constrained
                               environment, and to instill public confidence in TTB, we must continually ask
                               ourselves, “Are we making the best use of every dollar entrusted to us?”

                               We know that to advance the mission, we must make strategic investments in
                               the foundational elements that support a healthy organization: new
                               technologies, human capital management, and sound fiscal and strategic
                               planning.

Implementing new technology is central to TTB’s plan to create efficiencies and realize savings. TTB has made
strategic IT investments in order to provide long-term solutions to current operational challenges. First,
because the industries we regulate are expanding, TTB must enable improved access to the services we
provide in order to avoid lengthy processing delays. To meet this challenge, TTB released two new online
business applications in FY 2011 that will improve our permitting and formula approval services. These
applications have transformed the way industry conducts its business with our Bureau, and will result in
material cost savings for both sides.

Technology improvements are also helping TTB meet the changing expectations and attitudes about where
and how we accomplish our work. TTB has served as the model for telework within the Department of the
Treasury, with more than 80 percent of our workforce participating in telework. In FY 2011, TTB deployed a
leading edge IT infrastructure that allows employees to access the TTB network via a “virtual desktop”
connection. With this improvement, employees are seamlessly connected to TTB resources, giving maximum
access and flexibility in performing their job duties. These enhancements to our telework offerings have also
resulted in real savings, as we have been able to reduce the Bureau’s physical footprint by closing office space
as employees opt to transition to full-time telework.

In addition to outfitting our employees with the tools they need to succeed, TTB must also meet its financial
management, acquisition, and human capital goals to produce agency performance results that are relevant
and valuable to American taxpayers. From the financial perspective, in FY 2011, TTB again received an
unqualified audit opinion on its financial statements from an independent public accounting firm. Our support
of this annual audit affirms our commitment to a vigorous internal control environment and financial reporting
excellence. Further evidence of this commitment lies in our management practices, which include routine
evaluations of our tax collection and revenue accounting operations at the National Revenue Center to
validate that sound internal and administrative controls are in place for our key business processes that
support the collection and tracking of nearly $24 billion in annual Federal excise tax collections from alcohol
and tobacco industry members.

Reforming Federal acquisitions is a priority of this Administration, and TTB excels in managing its contract costs
and achieving the goals established by the Office of Management and Budget (OMB) in the area of acquisitions

                                                       57
                                         TTB 2011 Annual Report

and procurement. TTB met all goals established for the OMB acquisition improvement mandate, and was one
of three Treasury bureaus to meet or exceed their FY 2011 small business goals. Due to our performance, TTB
was the recipient of numerous small business accolades, including the Secretary’s “Shining Star” Award, the
HUB Zone Small Business Advocacy Award, and the Service Disabled Veteran-Owned “Eternal Flame” Award.

The accomplishments of this Bureau would not be possible without the dedicated staff we employ. We
encourage active participation and open dialogue from employees, and take steps to solicit earnest feedback
through a multitude of venues. We rely on the annual Employee Viewpoint Survey (EVS), distributed to the
Federal workforce by the Office of Personnel Management, to gauge the satisfaction of our employees. Our
scores indicated that we are making strides in creating a productive and engaging work environment. TTB’s
Best Places to Work ranking, which use the EVS scores to rank Federal agencies, also showed dramatic
improvement, with TTB ranking 34 of 240 comparative agencies.

Even as resources shrink, we will continue to aim high and put improved processes and tools in place to meet
our mission. In the years ahead, strategic fiscal planning and targeted investments in technology and the TTB
workforce will support the Bureau in improving the management and performance of this organization.




                                             Cheri D. Mitchell
                                 Assistant Administrator, Management/CFO




                                                      58
                                            TTB 2011 Annual Report


PART III
Financial Results, Position, Condition, and Auditors’
Reports

Budget Highlights by Fund Account

                                     FY 2011 Salaries and Expenses
          Fund Source:
            Salaries & Expenses FY 2011
            (P.L. 112-10, Department of Defense and Full-Year                            $ 100,798,000
            Continuing Appropriations Act, 2011)
                Amount Spent in FY 2011                                $   100,333,704

            Salaries & Expenses FY 2010/11
            (Funds restricted for the hiring, training and equipping                     $   3,000,000
            of special agents
                Amount Spent in FY 2010                                $        10,000
                Amount Spent in FY 2011                                $     1,674,089

            Salaries & Expenses FY 2010/11
                                                                                         $     236,000
            (50% Prior Year Recovery) 1/
                Amount Spent in FY 2011                                $      236,000

          1/ General Provisions of the appropriations bill provide that 50 percent of the unobligated
          balances remaining available at the end of Fiscal Year 2010 shall remain available through
          September 30, 2011.

The FY 2011 TTB budget of $100,798,000 consists of direct appropriations. The budget authorized the full-time
equivalent (FTE) staffing level of 535 direct FTE, of which 10 FTE were to be special agents. TTB did not directly
hire agents, but instead entered into a reimbursable agreement with the Internal Revenue Service Criminal
Investigation unit (IRS CI) to provide agent services to TTB.

The budgeted amount maintains a program level consistent with the current level of effort necessary to
support TTB’s responsibility for revenue collection and the enforcement of laws and regulations governing
alcohol and tobacco commodities.

The Bureau obligated or expended 99.5 percent of the $100,798,000 in FY 2011 direct funding from its one-
year Salaries and Expenses appropriation.

In FY 2010, TTB received two-year appropriations in the amount of $3 million that remained available until
September 30, 2011. These funds were restricted to expenses associated with the criminal enforcement
activity. In FY 2011, the Bureau entered into an interagency agreement with the IRS CI to conduct criminal
investigations into tax fraud in the TTB regulated industries.

                                                         59
                                          TTB 2011 Annual Report

Also during FY 2011, Congress authorized an additional $236,000 from the prior year account of unobligated
available balances (often referred to as the 50 percent account) to cover a one-time investment in IT
infrastructure to replace obsolete network equipment and its IT network intrusion detection system (IDS).

Offsetting Collections and Reimbursable Accounts from Puerto Rico
Cover Over/ Enforcement Activities
The Bureau collected $3.9 million in offsetting collections during FY 2011. The primary source of reimbursable
funding was collections from the cover over program and enforcement activity in Puerto Rico, which
amounted to $3 million (79 percent) of the offsetting collections.

Puerto Rico Cover Over and Enforcement Activities

All costs associated with the functioning and support of the Puerto Rico office are paid from the cover over
program, which is offset from cover-over taxes collected in the United States on products originating in Puerto
Rico ($452 million) and the Virgin Islands ($10 million).

In Puerto Rico, TTB conducts annual audits and investigations of industry members regarding the collection of
revenue, application processing, and product integrity. Revenue inspections are used to conduct tax
examinations on major producers of alcohol and tobacco. This is critical due to the requirements of verifying
tax payments under the Internal Revenue Code (IRC), as well as TTB’s subsequent accountability for all cover-
over amounts due to the government of Puerto Rico.

All distilled spirits producers and processors, wineries, wholesalers, importers, Manufacturer of Nonbeverage
Products claimants, and specially denatured alcohol permit applicants are subject to a qualification inspection
under the IRC.

Additionally, major producers of distilled spirits, wine, and malt beverages are subject to inspection and audits
in Puerto Rico.


Linking Budget and Program Spending

TTB has two primary budget activities: collecting all the Federal tax revenue due on alcohol, tobacco, firearms,
and ammunition products and protecting consumers of alcohol beverages. Assisting industry members to
understand and comply with the Federal laws and regulations regarding the commodities TTB regulates is an
integral part of both activities.

In FY 2011, TTB used an account code structure which provides a direct link from the Bureau budget to specific
programs and project activities. An analysis of the data stemming from the account code structure shows that,
in FY 2011, TTB spent $100,334,000 of its annual appropriation equally under these two budget activities.




                                                       60
                                                                    TTB 2011 Annual Report




                                                                     Collect         Protect
                                      $50,102,000                     the              the                $50,232,000
                                         50%                        Revenue          Public                  50%




                                                                   FY 2011 Total Spending
                                                                        $100,334,000

                      The Total Spending amount includes obligations and expenditures from the FY 2011 TTB appropriation.



            In order to ascertain the full costs of each of these budget activities, the overhead costs were allocated and
            combined with the direct program costs. TTB arrived at the overhead allocation by applying the pro rata share
            of the number of direct program dollars to each overhead cost category. The overhead is comprised of three
            major cost components: 1) general and administrative costs; 2) legal costs; and 3) information technology
            costs. The general and administrative category consists of costs related to operating the human resources,
            finance, procurement, training, facilities management, and other support-type functions.



Spending by Major Object Class                                       In this report, TTB presents its spending by budget activity and program to
                                                                     explain the cost of delivering the services that support the mission. The
                                       GSA Rent
                                        $4.5M
                                                                     Bureau also presents specific data regarding the purchase of goods and
                     Advisory &
                                             Equipment               services by major object class that support its program activities. The
                     Assistance
                                               $5.1M
                      Services                                       majority of TTB’s spending (84 percent) falls into two principal major object
                      $26.9M
                                                  Communications     classes: Salaries and Benefits and Advisory and Assistance Services
                                                    & Utilities
                                                     $2.6M           (Contracts). Salaries and Benefits comprise 57 percent of total spending by
                                                         Travel
                                                         $2.3M
                                                                     object class, and cover the cost of the Bureau’s roughly 500 FTE positions in
                       Salaries &                  Miscellaneous     FY 2011. The Advisory and Assistance Services object class constitutes 27
                        Benefits
                        $57.7M
                                                      $1.2M
                                                                     percent of FY 2011 spending, and covers the cost of both commercial and
                                                                     intragovernmental services.

                                                                     The commercial contracts category is predominantly IT contracts in support
      FY 2011 Total Spending by Major Object Class                   of engineering, infrastructure, and support services. Also, it includes other
                        $100.3M                                      commercial contracts for services such as the scanning and imaging of label
                                                                     applications and tax forms, lab maintenance, and Web site development.

Intragovernmental services include spending related to administrative support services provided by our shared service provider for human
resources, accounting, travel, and procurement. Other intragovernmental contract services include the costs for background investigations,
publications in the Federal Register, administrative support services, and Federal protective services. In FY 2011, the Bureau’s travel costs were
primarily related to its audits and investigations, and special agent travel. The remaining object classes that cover the FY 2011 spending activity
                                                                           61
include those cost categories for rent, communications, equipment, and other miscellaneous categories.
                                           TTB 2011 Annual Report

Spending by Budget Activity to Achieve TTB Mission Goals

Collect the Revenue….. $50,102,000

The Collect the Revenue budget activity encompasses TTB’s revenue strategy and goal to provide the most
effective and efficient system for the collection of all revenue that is rightfully due. It is also designed to
prevent or eliminate tax evasion and other criminal conduct and provide high-quality service while imposing
the least regulatory burden.

Under the Collect the Revenue activity, TTB administers three programs: 1) Alcohol and Tobacco Tax; 2)
Firearms and Ammunitions Excise Tax (FAET); and 3) Outreach and Voluntary Compliance.




In FY 2011, TTB expended 90 percent of its Collect the Revenue resources in collecting Federal excise taxes
from the alcohol and tobacco industries and 4 percent in collecting FAET. The specific projects that comprise
these costs include the processing of tax returns and operational reports at the National Revenue Center and
the audits and investigations conducted on industry.

Costs for the Outreach Program reached 6 percent of our Collect the Revenue resources. These resources
went toward efforts to educate and train industry members regarding their obligations in the areas of tax
calculations and remittance.

Protect the Public….. $50,232,000

The Protect the Public budget activity encompasses TTB’s strategy and goal to ensure industry compliance with
laws and regulations designed to protect the consumers of alcohol beverages.

TTB does this by assuring the integrity of the people who operate these businesses, of the products
themselves, and of the marketplace in which they are traded.




                                                       62
                                          TTB 2011 Annual Report

TTB administers four programs under the Protect the Public budget activity: 1) Permits and Business
Assurance; 2) Advertising, Labeling, and Product Safety; 3) Trade Facilitation; and 4) Outreach and Voluntary
Compliance.




An analysis of the financial data from FY 2011 reveals that TTB spent the preponderance of its Protect the
Public resources on two programs: Labeling, Advertising, and Product Safety at 49 percent, and Permits and
Business Assurance at 34 percent.

The Labeling, Advertising, and Product Safety Program includes activities designed to assure that beverage
alcohol labels fully and accurately describe the products upon which they appear and are not misleading. It
also encompasses activities to verify that alcohol advertisements contain all mandatory information and do not
mislead consumers. The Product Safety component involves all investigative and laboratory activities
performed as part of the Alcohol Beverage Safety and Verification Program, including work related to domestic
and imported product analysis.

The Permits and Business Assurance Program is designed to determine the eligibility of persons wishing to
enter any of the businesses TTB regulates and to process applications for changes to the original permit. These
activities may include a field investigation. The permit is necessary in order to conduct operations in the
regulated industries.

The remainder of the Protect the Public resources were divided between the Trade Facilitation Program (7
percent) and the Outreach and Voluntary Compliance Program (10 percent).




                                                      63
                                          TTB 2011 Annual Report


Systems and Controls
Introduction

During FY 2011, TTB contracted with BPD ARC to handle its administrative, human resources, procurement,
travel and, financial functions.

Accounting Systems and Controls

The BPD ARC accounting system, known as Oracle Federal Financials, is certified by the Financial Systems
Integration Office (FSIO) requirements and is in full compliance with Treasury reporting requirements; it also
meets requirements under the Federal Financial Management Improvement Act (FFMIA).

The audit of the FY 2011 financial statements disclosed no instances of noncompliance on FFMIA matters, and
showed that the Bureau’s financial management systems are in compliance with 1) Federal financial
management systems requirements, 2) applicable Federal accounting standards, and 3) the United States
Government Standard General Ledger at the transaction level.

The Bureau successfully met the Department of the Treasury’s reporting requirements and has maintained
accurate and reliable financial information on TTB’s program activities. The various administrative modules
integrated with the TTB financial system have proven to accurately capture Bureau financial data and provide
reliable information to management to inform decision making. Only two TTB databases operate outside the
BPD ARC environment—the TTB property management system and the tax administration database, IRIS.

Federal Managers’ Financial Integrity Act of 1982 (FMFIA)

The FMFIA requires Federal agencies to conduct ongoing evaluations of the systems of internal accounting and
administrative control. Annually, TTB must report to Treasury all material weaknesses found through these
evaluations. Treasury submits a consolidated report on the Department’s controls to the President.

The FMFIA also requires the heads of agencies to provide the President with yearly assurance that obligations
and costs are in compliance with applicable laws; that funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for.

To provide this report and assurance to the President, the Secretary of the Treasury depends upon information
from component heads regarding their management controls. The FMFIA program places reliance on each
office at TTB to maintain a cost-effective system of controls to provide reasonable assurance that Government
resources are protected against fraud, waste, abuse, mismanagement, or misappropriation.

Responsibilities of the Bureau’s executive staff include ensuring that programs and administrative support
activities are managed efficiently and effectively. Managers must conform to specific management
accountability and improvement policies when designing, planning, organizing, and carrying out their
responsibilities in order to ensure the most efficient and effective operation of their programs.


                                                       64
                                          TTB 2011 Annual Report

These policies address:

    •   Delegation of authority and responsibility;
    •   Hierarchical reporting of emerging management problems;
    •   Personal integrity;
    •   Quality data;
    •   Separation of key duties and responsibilities;
    •   Periodic comparisons of actual with recorded accountability of resources;
    •   Routine assessment of programs with a high potential for risk;
    •   Systematic review strategy to assess the effectiveness of program operations; and
    •   Prompt management actions to correct significant problems or improve operations.

Since its inception, TTB has gradually developed its own Bureau-specific policies.

Management accountability systems must assure basic compliance with the objectives of the FMFIA and the
management control standards set by the Government Accountability Office. In addition, any inspection,
audit, evaluation, peer or program review process, self-assessment, or the equivalent, used by TTB
management to keep informed about needs and opportunities for improvement must incorporate these same
standards into its methodology.

Furthermore, the Bureau completed an annual risk assessment for improper payments on all of its programs
and activities. This process disclosed low risk susceptibility for improper payments, and documented that
sound internal management and controls were in place at the Bureau to cover its disbursements.

The Bureau continues to strengthen and improve the execution of its mission through the application of sound
internal controls over financial reporting. In response to OMB Circular A-123, Management’s Responsibility for
Internal Controls, the Bureau, in concert with the Department, developed and implemented an extensive
testing and assessment methodology that identified and documented internal controls over financial reporting
on our revenue accounting activities.

This increased emphasis on management controls has had a positive impact on programs and enabled the
Bureau to achieve the intended results. The process also ensures that the utilization of resources is consistent
with mission priorities and that program and resources are being used without waste, fraud, or
mismanagement. Also, in addition to the A-123 review, TTB conducted a series of office reviews during FY
2011 that included an extensive review of administrative and internal controls. However, the audit of the FY
2011 financial statements identified a deficiency related to the computation of allowances for uncollectible tax
receivables. Corrective actions will be developed during the second quarter of FY 2012.

Financial Statement Highlights

The following overview of the TTB financial statements highlights certain aspects of the financial statements
for the fiscal year ended September 30, 2011.


                                                         65
                                       TTB 2011 Annual Report

•   The Balance Sheet shows the assets, liabilities, and net position as of a point in time, in this case, as of
    September 30, 2011.
        o The total assets were reported as $72.5 million at the close of the fiscal year. Of this amount,
             $37.9 million is classified as the fund balance with Treasury. That fund balance account is the
             undisbursed account balance with the Treasury, primarily resulting from undisbursed
             appropriations.
        o The total liabilities amount reported is $40.1 million, of which total intragovernmental
             liabilities amounts to $11.7 million. The other liabilities are classified by type, such as accrued
             tax refunds, payables, and other liabilities.
•   The Statement of Net Cost shows the total net cost of operations at $104.7 million for the Bureau to
    administer its two budget activities.
        o The total net cost reported as program costs under the Collect the Revenue program was
             $52.0 million.
        o The total net cost reported as program costs under the Protect the Public program was $52.7
             million.
•   The Statement of Change in Net Position shows a total net position balance of $32.4 million, and that
    amount represents the unexpended appropriations from both prior periods and from the current
    operating cycle in addition to Net Position from Operations.
•   The Statement of Budgetary Resources shows the budgetary resources received and the status of
    those resources. For TTB, the resources are primarily annual appropriations received from the
    Omnibus Appropriations Act in the amount of $101.0 million (less a recission of $202,000), in addition
    to spending authority from collections. The offsetting collections amount was $3.9 million. Of that
    amount, $3.0 million is from the recovery of costs for maintaining enforcement operations in Puerto
    Rico.
•   The Statement of Custodial Activity shows the amount of revenue received during FY 2011 compared
    with FY 2010, along with tax refunds, drawback on Manufacturer of Nonbeverage Products claims, and
    cover-over payments. The amount displayed shows that the total Federal excise tax revenues
    collected from alcohol, tobacco, firearms, and ammunition amounted to $23.5 billion. Within this
    total, the Bureau processed tax refunds, drawback claims, and cover-over payments in the amount of
    $802.0 million.
        o Drawback claims of $306.6 million were processed based on claims filed from MNBPs. Under
             current law, a drawback claim is allowed when distilled spirits on which the tax has been paid
             were unfit for beverage purposes and used in the production of medicines, medicinal
             preparations, food products, flavors, flavoring extracts, or perfumes.
        o Tax refunds and other adjustments (e.g., interest) were processed in the amount of $33.4
             million.
        o Cover-over payments were returned to Puerto Rico and the Virgin Islands in the amount of
             $461.6 million. Such taxes collected on rum imported in the United States are “covered over,”
             or paid into, the treasuries of Puerto Rico and the Virgin Islands.
        o The disposition of the custodial revenue, after refunds, claims, and cover-over payments, nets
             to $23.1 billion, and that amount was deposited to the U.S. Treasury to fund the Federal
             Government, with the exception of the Federal firearms and ammunition Federal excise taxes.


                                                    66
                                           TTB 2011 Annual Report

                Those revenues, in the amount of $344.3 million, were remitted to the Fish and Wildlife
                Restoration Fund under provisions of the Pittman Robertson Act of 1937.

Notes to the Basic Financial Statements

The notes to the basic financial statements provide additional information that is essential to a full
understanding of the financial information provided in the statements.

Supplementary Information

In addition to the basic financial statements and accompanying notes, this report presents other
supplementary information. For instance, TTB includes a table that outlines the tax collections for the past 10
years for each of the key revenue sources. Also, a table has been included to show the refunds, cover-over
payments, and drawback payments for the past 10 years.




                                                        67
                                          TTB 2011 Annual Report


Financial Statements, Accompanying Notes, and Supplemental Information
Limitations of Financial Statements

The principal statements have been prepared to report the financial position and results of operations of the
entity, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from the
books and records of the entity in accordance with GAAP for federal entities and the formats prescribed by the
Office of Management and Budget (OMB), the statements are in addition to the financial reports used to
monitor and control budgetary resources, which are prepared from the same books and records. For fiscal
years 2011 and 2010, all financial statements and notes have been audited.

Management Responsibilities

Bureau management is responsible for the fair presentation of information contained in the principal financial
statements, in conformity with generally accepted accounting principles (GAAP), and the form and content for
entity financial statements specified by OMB in Circular A-136.

Management is also responsible for the fair representation of TTB’s performance measures in accordance with
OMB requirements. The quality of the Bureau’s internal control structure rests with management, as does the
responsibility for identification of and compliance with pertinent laws and regulations.

TTB in Relation to Treasury’s Annual Financial Statements

The Department of the Treasury received an unqualified audit opinion on its FY 2011 financial statements. The
financial activities of the Bureau are an integral part of the information reported by the Department of the
Treasury.

This unqualified audit opinion means that the financial information presented by the Treasury, which includes
TTB’s financial activities, was presented fairly and in conformity with generally accepted accounting principles
(GAAP) of the United States.




                                                       68
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the accompanying balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of
September 30, 2011 and 2010, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity (hereinafter referred to as “financial statements”) for the years then ended.
These financial statements are the responsibility of the Alcohol and Tobacco Tax and Trade Bureau’s
management. Our responsibility is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Alcohol and
Tobacco Tax and Trade Bureau’s internal control over financial reporting. Accordingly, we express no
such opinion. An audit also includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements, assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Alcohol and Tobacco Tax and Trade Bureau as of September 30, 2011 and 2010,
and its net costs, changes in net position, budgetary resources, and custodial activity for the years then
ended in conformity with U.S. generally accepted accounting principles.

The information in Part 1: Management’s Discussion and Analysis and the Required Supplementary
Information section of Part III: Financial Results, Position, Condition and Auditors’ Reports is not a
required part of the financial statements, but is supplementary information required by U.S. generally
accepted accounting principles. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this information.
However, we did not audit this information and, accordingly, we express no opinion on it.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The Other Accompanying Information included in (1) pages i through vii, (2) Part II: Program
Performance Results, (3) pages 59 through 68 and pages 104 through 107 of Part III: Financial Results,
Position, Condition and Auditors’ Reports, and (4) Part IV: Appendices is presented for purposes of
additional analysis and is not required as part of the basic financial statements. This information has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 20,
2011, on our consideration of the Alcohol and Tobacco Tax and Trade Bureau’s internal control over
financial reporting and our tests of its compliance with certain provisions of laws, regulations, contracts,
and other matters. The purpose of those reports is to describe the scope of our testing of internal control
over financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.




December 20, 2011
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury:

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of September 30,
2011 and 2010 and the related statements of net cost, changes in net position, budgetary resources, and
custodial activity (hereinafter referred to as “financial statements”) for the years then ended, and have
issued our report thereon dated December 20, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Alcohol and Tobacco Tax and Trade Bureau is responsible for establishing and
maintaining effective internal control. In planning and performing our fiscal year 2011 audit, we
considered the Alcohol and Tobacco Tax and Trade Bureau’s internal control over financial reporting by
obtaining an understanding of the design effectiveness of the Alcohol and Tobacco Tax and Trade
Bureau’s internal control, determining whether internal controls had been placed in operation, assessing
control risk, and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the Alcohol and Tobacco Tax and Trade Bureau’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of the Alcohol and
Tobacco Tax and Trade Bureau’s internal control over financial reporting. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be significant deficiencies, or material weaknesses and therefore, there can
be no assurance that all deficiencies, significant deficiencies, or material weaknesses have been identified.
However, in our fiscal year 2011 audit, we identified a deficiency in internal control over financial
reporting that we consider to be a material weakness.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. We
consider the deficiency described in Exhibit I to be a material weakness.

The Alcohol and Tobacco Tax and Trade Bureau’s response to the finding identified in our audit is
presented in Exhibit I. We did not audit the Alcohol and Tobacco Tax and Trade Bureau’s response and,
accordingly, we express no opinion on it.

Exhibit II presents the status of the prior year material weakness.

This report is intended solely for the information and use of the Alcohol and Tobacco Tax and Trade
Bureau’s management, the Department of the Treasury Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




December 20, 2011
                                                                                              EXHIBIT I

                                        MATERIAL WEAKNESS


IMPROVEMENTS ARE NEEDED IN THE REVIEW OF THE ALLOWANCE FOR DOUBTFUL
              ACCOUNTS ON TAX AND TRADE RECEIVABLES


During the 2011 audit we tested journal entry support for the allowance for doubtful accounts on tax and
trade receivables. We identified errors in the calculations used to arrive at the allowance for doubtful
accounts for tax and trade receivables at year-end. At year-end TTB recorded entries to the allowance
account based upon the application of historical data to the year-end receivable balances, however, the
calculations used resulted in an understatement to the allowance account by $6.189 million.

Inputs to the computation for partially collectible receivables identified by National Revenue Center (NRC)
tax specialists were not properly entered into the Allowance Calculation Worksheet prepared by the
Administrative Resource Center (ARC). The amount collectible, determined by NRC specialists, was
recorded in the “Partially Collectible & OIC (Offers in Compromise) Allowance” cells, where the amount
that should have been recorded was the accounts receivable balance less the amount collectible.

Additionally, an error in the formulas used to calculate the historical average collection rates was
committed in the preparation of the spreadsheets for the 2011 allowance computations.

Statement of Federal Financial Accounting Standard (SFFAS) No. 1 states that “An allowance for
estimated uncollectible amounts should be recognized to reduce the gross amount of receivables to its net
realizable value.”

Per OMB Circular No. A-123, Management’s Responsibility for Internal Control, (revised December 31,
2004): Section II, Subsection E, Paragraph 1: Monitoring the effectiveness of internal control should
occur in the normal course of business. Periodic reviews, reconciliations or comparisons of data should be
included as part of the regular assigned duties of personnel.

As a result of this weakness, the allowance for doubtful accounts on tax and trade receivables was
understated by $6.189 million, due to the general fund was overstated by $5.360 million, and due to the
fish and wildlife fund was overstated by $829 thousand.

Recommendation:

We recommend that management of the Alcohol and Tobacco Tax and Trade Bureau conduct a detailed
supervisory review of the Allowance Calculation Worksheet prepared by ARC that will ensure the
mathematical accuracy of the formulas used to calculate the historical average collection rates and ensure
the inputs to the computation for partially collectible receivables are properly entered.

Management’s Response:

TTB management recognizes the issue and agrees that corrective actions need to be taken. However, we
believe that a more detailed supervisory review may not fully resolve this issue, knowing the very short
timeframe we have to compute and record the allowance, and given the complexity of the current
procedure. Therefore, we plan to look at the entire methodology and determine what potential changes
could be made to simplify the procedure and make it more amenable to a higher quality review. We
believe this approach will improve our current business practice and reduce the risk of potential errors.
                                                                           EXHIBIT II

                  ALCOHOL AND TOBACCO TAX AND TRADE BUREAU

                                Status of Prior Year Finding

                                    September 30, 2011


     Fiscal Year 2010 Finding             Deficiency Type      Fiscal Year 2011 Status

1) Improvements Are Needed In            Material Weakness             Closed
   The Review Of Purchase
   Requisitions
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Administrator
Alcohol and Tobacco Tax and Trade Bureau:

We have audited the balance sheets of the Alcohol and Tobacco Tax and Trade Bureau as of
September 30, 2011 and 2010, and the related statements of net cost, changes in net position, budgetary
resources, and custodial activity (hereinafter referred to as “financial statements”) for the years then ended,
and have issued our report thereon dated December 20, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Alcohol and Tobacco Tax and Trade Bureau is responsible for complying with
laws, regulations, and contracts applicable to the Alcohol and Tobacco Tax and Trade Bureau. As part of
obtaining reasonable assurance about whether the Alcohol and Tobacco Tax and Trade Bureau’s financial
statements are free of material misstatement, we performed tests of the Alcohol and Tobacco Tax and
Trade Bureau’s compliance with certain provisions of laws, regulations, and contracts, noncompliance with
which could have a direct and material effect on the determination of the financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the Alcohol and Tobacco
Tax and Trade Bureau. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the Alcohol and Tobacco Tax and Trade
Bureau’s financial management systems did not substantially comply with the (1) Federal financial
management systems requirements, (2) applicable Federal accounting standards, and (3) the United States
Government Standard General Ledger at the transaction level.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
This report is intended solely for the information and use of the Alcohol and Tobacco Tax and Trade
Bureau’s management, the Department of the Treasury Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.




December 20, 2011
                                          TTB 2011 Annual Report


                               DEPARTMENT OF THE TREASURY
                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                       BALANCE SHEETS
                              As of September 30, 2011 and 2010
                                        (In Thousands)

                                                                       2011         2010

             ASSETS
               Intragovernmental Assets:
                   Fund Balance with Treasury (Note 2)             $ 37,866     $ 36,748
                   Accounts Receivable (Note 3)                         352          567
                   Due from the General Fund (Notes 5 and 8)          2,022       12,802
                   Advances (Note 7)                                    829          852
               Total Intragovernmental Assets                        41,069       50,969

                Accounts Receivable (Note 3)                              484          343
                Tax and Trade Receivables, Net (Notes 4 and 8)          4,310        7,970
                Property, Plant and Equipment, Net (Note 6)            20,451       19,257

             TOTAL ASSETS (Note 8)                                 $ 66,314     $ 78,539

             LIABILITIES
                Intragovernmental Liabilities:
                    Accounts Payable                               $      500   $      700
                    Payroll Benefits                                      641          581
                    FECA Liabilities                                       36           48
                    Due to the General Fund (Notes 4 and 5)             4,246        7,550
                    Other Liabilities (Note 9)                             61          420
                Total Intragovernmental Liabilities                     5,484        9,299

               Accounts Payable                                       5,843        6,041
               Payroll Benefits                                       2,792        2,599
               FECA Actuarial Liability                                 308          132
               Refunds                                                2,025       12,802
               Unfunded Leave                                         4,346        4,377
               Cash Bond Liabilities (Note 2)                        12,447       10,811
               Other Liabilities (Note 9)                               693          358
             TOTAL LIABILITIES                                     $ 33,938     $ 46,419

             NET POSITION
               Unexpended Appropriations                           $ 16,559     $ 17,416
               Cumulative Results of Operations                      15,817       14,704
             TOTAL NET POSITION                                    $ 32,376     $ 32,120

             TOTAL LIABILITIES AND NET POSITION                    $ 66,314     $ 78,539

The accompanying notes are an integral part of these statements.


                                                       77
                                          TTB 2011 Annual Report


                                 DEPARTMENT OF THE TREASURY
                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                                   STATEMENTS OF NET COST
                        For the Years Ended September 30, 2011 and 2010
                                         (In Thousands)


                                                                     2011        2010

   PROTECT THE PUBLIC
     Program Costs
        Intragovernmental Gross Costs                              $ 14,495    $ 15,366
        Less: Intragovernmental Earned Revenue                          (27)          -
        Intragovernmental Net Costs                                  14,468      15,366

           Gross Costs with the Public                               38,339      39,537
           Less: Earned Revenues from the Public                       (156)         (8)
           Net Costs with the Public                                 38,183      39,529

             Total Net Program Cost                                $ 52,651    $ 54,895

   COLLECT THE REVENUE
     Program Costs
        Intragovernmental Gross Costs                              $ 15,214    $ 14,950
        Less: Intragovernmental Earned Revenue                         (512)        (97)
        Intragovernmental Net Costs                                  14,702      14,853

           Gross Costs with the Public                               40,240      38,470
           Less: Earned Revenues from the Public                     (2,941)     (2,606)
           Net Costs with the Public                                 37,299      35,864

             Total Net Program Cost                                $ 52,001    $ 50,717

   NET COST OF OPERATIONS (Note 13)                                $ 104,652   $ 105,612




The accompanying notes are an integral part of these statements.


                                                       78
                                          TTB 2011 Annual Report


                                 DEPARTMENT OF THE TREASURY
                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                           STATEMENTS OF CHANGES IN NET POSITION
                        For the Years Ended September 30, 2011 and 2010
                                         (In Thousands)

                                                                    2011        2010

  Cumulative Results of Operations

      Beginning Balances                                           $ 14,704    $ 11,031

      Budgetary Financing Sources
       Appropriations Used                                          100,938     102,659

      Other Financing Sources
       Transfers-in without reimbursement                               231       1,528
       Imputed Financing from Costs Absorbed by Others (Note 12)      4,596       5,098

      Total Financing Sources                                       105,765     109,285

      Net Cost of Operations (Note 13)                             (104,652)   (105,612)

      Net Change                                                      1,113       3,673

      Cumulative Results of Operations                             $ 15,817    $ 14,704

  UNEXPENDED APPROPRIATIONS

      Beginning Balances                                           $ 17,416    $ 17,734

      Budgetary Financing Sources
       Appropriations Received                                      101,000     103,000
       Other Adjustments                                               (919)       (659)
       Appropriations Used                                         (100,938)   (102,659)

      Total Budgetary Financing Sources                                (857)       (318)

      Net Position of Unexpended Appropriations                    $ 16,559    $ 17,416

  TOTAL NET POSITION                                               $ 32,376    $ 32,120


The accompanying notes are an integral part of these statements.


                                                       79
                                              TTB 2011 Annual Report


                                   DEPARTMENT OF THE TREASURY
                          ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                              STATEMENTS OF BUDGETARY RESOURCES
                          For the Years Ended September 30, 2011 and 2010
                                           (In Thousands)
                                                                                 2011           2010

           BUDGETARY RESOURCES (Note 14)
             Unobligated Balance - Beginning of Period                       $     4,845    $     3,157
             Recoveries of Prior Year Obligations                                  1,501          1,408
             Budget Authority:
                Appropriations Received                                          101,000        103,000
                Spending Authority from Offsetting Collections, Earned:
                   Collected                                                       3,939          4,196
                   Change in Receivable from Federal Sources                         (72)            44
                Change in Unfilled Customer Orders:
                   Without Advance from Federal Sources                              218           (200)
                Subtotal                                                         105,085        107,040
             Permanently Not Available                                              (920)          (659)
           TOTAL BUDGETARY RESOURCES                                             110,511        110,946

           STATUS OF BUDGETARY RESOURCES
             Obligations Incurred: (Note 15)
                Direct                                                       $ 103,038      $ 102,117
                Reimbursable                                                     3,955          3,984
                Subtotal                                                       106,993        106,101
             Unobligated Balance Apportioned                                     1,758          3,247
             Unobligated Balance not Available                                   1,760          1,598
           TOTAL STATUS OF BUDGETARY RESOURCES                               $ 110,511      $ 110,946

           RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

              Unpaid Obligations Brought Forward, Oct 1                      $    22,141    $    20,509
              Uncollected Customer Payments from Federal Sources
               Brought Forward Oct 1                                              (1,407)        (1,563)
              Total Unpaid Obligated Balance Brought Forward, Net                 20,734         18,946

              Obligations Incurred, Net                                          106,993        106,101
              Gross Outlays                                                      104,872        103,060
              Recoveries of Prior Year Unpaid Obligations, Actual                 (1,501)        (1,408)
              Change in Uncollected Customer Payments from Federal Sources          (146)           156

              Obligated Balances, Net End of Period:
                 Unpaid Obligations                                               22,762         22,141
                 Uncollected Customer Payments from Federal Sources               (1,554)        (1,407)
                 Total Unpaid Obligated Balance, Net, End of Period               21,208         20,734

             Net Outlays
                Gross Outlays                                                  104,872          103,060
                Offsetting Collections                                          (3,939)          (4,196)
                Distributed Offsetting Receipts                                    (10)              (9)
           NET OUTLAYS                                                       $ 100,923      $    98,855


The accompanying notes are an integral part of these statements.

                                                             80
                                          TTB 2011 Annual Report


                                 DEPARTMENT OF THE TREASURY
                        ALCOHOL AND TOBACCO TAX AND TRADE BUREAU
                              STATEMENTS OF CUSTODIAL ACTIVITY
                        For the Years Ended September 30, 2011 and 2010
                                         (In Thousands)

                                                                       2011              2010

SOURCES OF CUSTODIAL REVENUE

    Revenue Received
       Excise Taxes (Note 16)                                      $   23,457,049    $   23,756,513
       Interest, Fines and Penalties                                        4,351             3,597
       Other Custodial Revenue                                                 10                 9
    Total Revenue Received (Note 17)                                   23,461,410        23,760,119

    Refunds and Drawbacks (Note 16)                                      (340,416)         (326,143)
    Net Revenue Received                                               23,120,994        23,433,976

   Accrual Adjustment                                                       7,117            (5,370)
Total Sources of Custodial Revenue                                 $   23,128,111    $   23,428,606

DISPOSITION OF CUSTODIAL REVENUE
   Amounts Provided to Non-Federal Entities (Note 16)                    461,632           387,057
   Amounts Provided to Fund the
    Federal Government (Note 17)                                       22,659,362        23,046,919
   Accrual Adjustment                                                       7,117            (5,370)
Total Disposition of Custodial Revenue                             $   23,128,111    $   23,428,606

NET CUSTODIAL REVENUE ACTIVITY                                     $            -    $            -




The accompanying notes are an integral part of these statements.


                                                       81
                                    TTB 2011 Annual Report


Notes to the Financial Statements


Note 1. Summary of Significant Accounting Policies



A. Reporting Entity

The Alcohol and Tobacco Tax and Trade Bureau (TTB) was established on January 24, 2003, as a
result of the Homeland Security Act of 2002. The Act transferred firearms, explosives, and arson
functions of the Bureau of Alcohol, Tobacco and Firearms (ATF) to the Department of Justice and
retained the tax collection and consumer protection provisions of the Internal Revenue Code (IRC)
and Federal Alcohol Administration Act in TTB within the Department of the Treasury. While the
agency has a new name, the history of TTB’s regulatory responsibility dates back to the creation
of the Department of the Treasury and the first Federal taxes levied on distilled spirits in 1791.
TTB has two primary programs: Collect the Revenue and Protect the Public. Under the Collect the
Revenue program, TTB collects alcohol, tobacco, firearms, and ammunition excise taxes, and
under its Protect the Public program, TTB protects the consumer by ensuring that alcohol
beverages are labeled, advertised, and marketed in accordance with the law, and facilitates trade
in beverage and industrial alcohols.

B. Basis of Presentation

The financial statements were prepared to report the significant assets, liabilities, and net cost of
operations, changes in net position, budgetary resources, and custodial activities of TTB. The
financial statements have been prepared from the books and records of TTB in conformity with
generally accepted accounting principles (GAAP) in the United States, and form and content
guidance for entity financial statements issued by the Office of Management and Budget (OMB) in
OMB Circular A-136. TTB’s accounting policies are summarized in this note. GAAP for Federal
entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB), which has
been designated the official accounting standards-setting body for the Federal Government by
the American Institute of Certified Public Accountants.

C. Basis of Accounting

Transactions are recorded on a proprietary accrual and a budgetary basis of accounting. Under
the accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
regardless of when cash is exchanged. However, under the budgetary basis, funds availability is
recorded based upon legal considerations and constraints. As a result, certain line items on the
proprietary statements may not equal similar lines on the budgetary financial statements.




                                                 82
                                    TTB 2011 Annual Report


D. Revenue and Financing Sources

    (1) Exchange Revenue

        Exchange Revenues are inflows of resources to a Government entity that the entity has
        earned by providing something of value to the public or another Government entity at a
        price. The majority of the Exchange Revenues earned by the Bureau result from providing
        services to the Government of Puerto Rico, as well as other Treasury entities.

    (2) Financing Sources
        Financing sources provide inflows of resources during the reporting period and include
        appropriations used and imputed financing. Unexpended appropriations are recognized
        separately in determining net position, but are not financing sources until used. Imputed
        financing sources are the result of other Federal entities financing costs on behalf of TTB.

        TTB receives the majority of the funding needed to support the Bureau through
        congressional appropriations. The appropriations received are annual and multi-year
        funding that may be used, within statutory limits, for operating and capital expenditures.

    (3) Imputed Financing Sources

        Imputed financing sources are the result of Federal entities financing costs on behalf of
        TTB. Those entities pay future benefits for health insurance, life insurance, and pension
        benefits for TTB employees.

E. Custodial Revenue

For TTB, most custodial revenues result from collecting taxes on alcohol and tobacco products,
which are transferred to the General Fund, and recognized as a non-exchange revenue on the
Federal government’s consolidated financial statements. The excise taxes collected by TTB come
from businesses, and the taxes are imposed and collected at the producer and importer levels of
operations. Members of the regulated industries paying excise taxes are distilleries, breweries,
bonded wineries, bonded wine cellars, manufacturers of cigarette tubes, manufacturers of
tobacco products, and manufacturers and importers of firearms and ammunition. These taxes are
recorded on the records on a cash basis of accounting. The Statement of Custodial Activity is
presented on a modified accrual basis.

F. Fund Balance with Treasury

The Fund Balance with Treasury is the undisbursed account balance with the Treasury, primarily
resulting from undisbursed appropriations. The balance is available within statutory limits to pay
current liabilities and finance authorized purchase obligations. The Fund Balance also includes a
non-entity balance, primarily the result of custodial activities related to collecting escrow
payments designed to finance Offers-in-Compromise and cash bonds held in lieu of corporate
surety bonds guaranteeing payment of taxes.




                                                 83
                                    TTB 2011 Annual Report


G. Accounts Receivable

Intragovernmental accounts receivable consist of amounts due under reimbursable agreements
with Federal entities for services provided by TTB. Public accounts receivable consist of taxes,
penalties, and interest that have been assessed but unpaid at year end.

Receivables due from Federal agencies are considered to be fully collectible. An allowance for
doubtful accounts is established for public receivables based on specific identification and
individual analysis.

H. Property, Plant, and Equipment

Property, plant, and equipment purchased with a cost greater than or equal to $25,000 per unit
and a useful life of two years or more, is capitalized and depreciated. Normal repairs and
maintenance are charged to expense as incurred.

TTB also capitalizes internal use of software when the unit cost or development costs are greater
than or equal to $25,000. The same threshold also applies to enhancements that add significant
functionality to the software. TTB will amortize this software based on its classification. The
classifications are as follows: 1) Enterprise and other business software (five years), and 2)
Personal productivity and desktop operating software (three years).

Additionally, TTB also capitalizes like assets purchased in bulk when the unit price is greater than
or equal to $5,000 and less than $25,000, with the aggregated purchase amount greater than or
equal to $250,000.

Assets are depreciated on a straight-line basis beginning the month the asset was put in to use.

I. Advances

Advances are payments made to cover certain periodic expenses before those expenses are
incurred. In accordance with Public Law 91-614, TTB participated in the Treasury’s Working
Capital Fund for which it receives services on a reimbursable basis. Payments from TTB to
Treasury are made in advance and are authorized for services that have been deemed as more
advantageous and more economical when provided centrally. The services provided include
those for telecommunications, payroll/personnel systems, printing, and other central services.
The amount reported represents the balance available at the end of the fiscal year after
charges/expenses incurred by the fund are deducted.




                                                 84
                                    TTB 2011 Annual Report


J. Non-entity Assets

Non-entity assets consist primarily of cash and receivables for excise taxes and fees that are to be
distributed to the Treasury, other Federal agencies, and other governments. Non-entity assets
are not considered a financing source (revenue) available to offset the operating expenses of TTB.

K. Liabilities

Liabilities represent the amount of monies, or other resources, that are likely to be paid by TTB as
the result of a transaction or event that has already occurred. However, no liability can be paid by
TTB absent an appropriation. Liabilities for which an appropriation has not been enacted and for
which there is uncertainty an appropriation will be enacted, are classified as a liability not covered
by budgetary resources. Also, the Government, acting in its sovereign capacity, can abrogate
liabilities of TTB that arise from other than contracts.

Intragovernmental liabilities consist of amounts payable to the Treasury for collections of excise
tax, fees receivable, payments to other Federal agencies, and accrued Federal Employees’
Compensation Act (FECA) charges. Liabilities also include amounts due to be refunded to
taxpayers, as well as amounts held in escrow for Offers-in-Compromise and cash bonds held in
guaranteeing payment of taxes.

L. Litigation Contingencies and Settlements

Probable and estimable litigation and claims against TTB are recognized as a liability and expense
for the full amount of the expected loss. Expected litigation and claim losses include settlements
to be paid from the Treasury Judgment Fund (Judgment Fund) on behalf of TTB and settlements
to be paid from Bureau appropriations. The Judgment Fund pays Bivens-type tort claims.
Settlements paid from the Judgment Fund for TTB are recognized as an expense and imputed
financing source.

M. Annual, Sick, and Other Leave

Annual and compensatory leave earned by TTB employees, but not yet used, is reported as an
accrued liability. The accrued balance is adjusted annually to current pay rates. Any portions of
the accrued leave, for which funding is not available, are recorded as an unfunded liability. Sick
and other leave are expensed as taken.

N. Interest on Late Payments

Pursuant to the prompt payment Act, 31 # U.S.C. & 3901-3907, Federal agencies must pay
interest on payments for goods or services made to business concerns after their due date. The
due date is generally 30 days after receipt of a proper invoice or acceptance of the goods or
services.




                                                 85
                                   TTB 2011 Annual Report


O. Retirement Plan

Employees hired after December 31, 1983, are automatically covered by FERS and Social Security.
For most employees hired after December 31, 1983, TTB also contributes the employers’
matching share of Social Security. For the FERS basic benefit, employees contribute 0.8 percent of
basic pay while TTB contributes 11.2 percent, for a total contribution rate of 12.0 percent in FY
2011, as well as FY 2010. The cost of providing a FERS basic benefit, as provided by the Office of
Personnel Management (OPM), is equal to the amounts contributed by TTB and the employees.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and TTB makes a mandatory 1
percent contribution to this account. In addition, TTB makes matching contributions, ranging
from 1 to 4 percent, for FERS-eligible employees who contribute to their TSP accounts. Matching
contributions are not made to the TSP accounts established by CSRS employees.

TTB recognized the full cost of providing future pension and other retirement benefits (ORB) for
current employees as required by Statement of Federal Financial Accounting Standards (SFFAS)
No. 5. Full cost includes pension and ORB contributions paid out of Bureau appropriations and
costs financed by OPM. Costs financed by OPM are reported in the accompanying financial
statements as an imputed financing revenue source. Reporting amounts such as plan assets,
accumulated plan benefits, or unfunded liabilities, if any, is the responsibility of OPM.

P. Federal Employees’ Compensation Act

The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees injured on the job and employees who have incurred a work-
related injury or occupational disease. The future workers’ compensation estimates were
generated from an application of actuarial procedures developed to estimate the liability for FECA
benefits. The actuarial liability estimates for FECA benefits include the expected liability for
death, disability, medical, and miscellaneous costs for approved compensation cases. The liability
is determined using the paid losses extrapolation method, which is calculated over the next 37-
year period. This method utilizes historical benefit patterns related to a specific incurred period
to predict ultimate payments related to that period.

Claims are paid for TTB employees by the Department of Labor (DOL) from the FECA fund, for
which TTB reimburses DOL. The accrued liability represents claims paid by DOL for TTB
employees, for which the fund has not been reimbursed. The actuarial liability is an estimate of
future costs to be paid on claims made by TTB employees. The estimated future cost is not
obligated against budgetary resources until the year in which the cost is billed to TTB.




                                                86
                                   TTB 2011 Annual Report


Q. Use of Estimates

The preparation of financial statements requires management to make estimates and
assumptions that affect the reported amount of assets and liabilities, as well as the disclosure of
contingent liabilities at the date of the financial statements, and the amount of revenues and cost
reported during the period. Actual results could differ from those estimates.

R. Tax Exempt Status

As an agency of the Federal Government, TTB is exempt from all income taxes imposed by any
governing body, whether it is a Federal, state, commonwealth, local, or foreign government.




                                                87
                                    TTB 2011 Annual Report


Note 2. Fund Balance with Treasury

Fund Balance with Treasury as of September 30, 2011 and 2010 consisted of the following (in
thousands):



                                                         2011             2010

Fund Balances:
 General Funds                                          $ 24,726        $ 25,579
 Other Funds                                              13,140          11,169
   Total                                                $ 37,866        $ 36,748

Status of Fund Balances:
 Unobligated Balance - Available                       $ 1,758          $ 3,247
 Unobligated Balance - Unavailable                        1,760            1,598
 Obligated Balance Not Yet Disbursed                     21,208           20,734
   Subtotal                                              24,726           25,579
 Adjustment for Non-Budgetary Funds                      13,140           11,169
   Total Status of Fund Balances                       $ 37,866         $ 36,748



The other funds and non-budgetary fund balance primarily represents cash bonds, which are cash
payments made to the Bureau by taxpayers, in lieu of obtaining corporate surety bonds,
guaranteeing payment of taxes. It also includes Offers-in-Compromise (OIC). OICs are payments
made to the Bureau, being held in escrow, to finance offers from taxpayers to settle their tax debt
at less than the assessed amount.

The unobligated balance that is unavailable is the balance of prior years’ expired appropriations.




                                                88
                                  TTB 2011 Annual Report


Note 3. Accounts Receivable

Accounts Receivable as of September 30, 2011 and 2010 consisted of the following
(in thousands):


                                                                          2011            2010

Intragovernmental Accounts Receivable:
  Due from Treasury Departmental Offices                                 $   -           $  81
  Due from Treasury Executive Office of Asset Forfieture                    82             470
  Due from Community Financial Development Institutions Fund               246              16
  Due from General Services Administration                                  24               -
    Total Intragovernmental Accounts Receivable                          $ 352           $ 567

  Due from the Government of Puerto Rico                                 $ 479           $ 331
  Due from Commercial Vendors                                                -               5
  Due from Employees                                                         5               7
   Total Accounts Receivable Due from the Public                         $ 484           $ 343



No allowance for doubtful accounts has been recognized, nor have any accounts been written off.
All intragovernmental accounts receivable are considered fully collectible. Additionally, other
non-Federal receivables consist of a receivable from the government of Puerto Rico, which is
collected via an offset to cover-over payments the Bureau remits to Puerto Rico, and employee
accounts receivable, which can be collected via salary offsets.


Note 4. Tax and Trade Receivables, Net

Tax and Trade Receivables as of September 30, 2011 and 2010 consisted of the following
(in thousands):



                                                                     2011                2010

Tax and Trade Receivables                                          $ 24,201        $ 97,158
Interest Receivable                                                    4,292          13,240
Penalties, Fines and Administrative Fees Receivable                    6,069          10,125
  Total Tax and Trade Receivables                                     34,562         120,523
Allowance for Doubtful Accounts                                      (30,252)       (112,553)
  Total Tax and Trade Receivables, Net                             $ 4,310         $ 7,970




                                              89
                                    TTB 2011 Annual Report



All tax and trade receivables are non-entity assets. An allowance for uncollectible amounts has
been established based on: 1) an analysis of individual receivable balances and 2) the application
of historical non-collection rates for similar types of receivables. Because current laws governing
the collection period for these tax assessments, 26 U.S.C. 6502, stipulate taxes are collectible for
10 years from the date the taxes were assessed, a large amount of aged receivables that are not
likely to be collected have been offset with an allowance, but not written off. This is an offsetting
liability reported as Due to the General Fund.

The large decrease in gross receivables and related allowance is primarily the result of a
settlement being reached with one taxpayer and more than $83 million in receivables, which had
been previously estimated as uncollectible, were written off.


Note 5. Due from the General Fund and Due to the General Fund

In addition to collecting taxes from the alcohol and tobacco industries, the Bureau also is
responsible for paying refunds, when applicable, to those same industry members. Amounts due
from the General Fund represent a receivable from appropriations to cover the Bureau’s accrued
refund liability to alcohol and tobacco excise taxpayers.



                                               2011                    2010

Due from the General Fund                  $      2,022            $ 12,802
(in thousands)

Amounts due to the General Fund primarily represent the balance of receivables related to
Alcohol and Tobacco excise taxes. Receivables related to Firearms and Ammunition excise taxes
are payable to the Department of Interior’s Fish and Wildlife Restoration Fund, not the General
Fund.



                                               2011                    2010

Due to the General Fund                    $      4,246            $    7,550
(in thousands)




                                                 90
                                   TTB 2011 Annual Report


Note 6. Property, Plant, and Equipment, Net (PP&E)

Property, Plant and Equipment as of September 30, 2011 and 2010 consisted of the following
(in thousands):


                               Estimated Useful      Acquisition Accumulated     Net
2011                             Life (Years)          Value     Depreciation Book Value

Internal Use Software                 3-5            $ 13,625        $  4,770       $  8,855
Equipment                             4-6               9,034           5,596          3,438
Leasehold Improvements                2-5                 796             562            234
Building                              40                9,772           1,848          7,924
Construction in Process                                     -               -              -
  Total PP&E                                         $ 33,227        $ 12,776       $ 20,451

                               Estimated Useful      Acquisition Accumulated     Net
2010                             Life (Years)          Value     Depreciation Book Value

Internal Use Software                 3-5            $ 11,060        $  4,346       $  6,714
Equipment                             4-6               8,357           4,697          3,660
Leasehold Improvements                2-5                 691             462            229
Building                              40                9,772           1,592          8,180
Construction in Process                                   474               -            474
  Total PP&E                                         $ 30,354        $ 11,097       $ 19,257



Depreciation and amortization are calculated using the straight-line method.

The balance in the buildings account represents TTB’s 13.2 percent equity interest in the National
Laboratory Center facility in Beltsville, Maryland, which TTB co-owns with ATF.




                                                91
                                      TTB 2011 Annual Report


Note 7. Advances

Intragovernmental advances consist of the balances paid to Treasury’s Working Capital Fund that
have not yet been earned and billed by the fund.


Note 8. Non-entity Assets

Non-entity Assets as of September 30, 2011 and 2010 consisted of the following (in thousands):



                                                                  2011              2010

Intragovernmental Non-entity Assets:
  Fund Balance with Treasury                                     $ 13,140          $ 11,169
  Due from the General Fund                                         2,022            12,802
    Total Intragovernmental Non-entity Assets                      15,162            23,971
  Tax and Trade Receivables, Net                                    4,310             7,970
  Total Non-Entity Assets                                          19,472            31,941

  Total Entity Assets                                              46,842            46,598

Total Assets                                                     $ 66,314          $ 78,539


Note 9. Other Liabilities

Other Liabilities as of September 30, 2011 and 2010 constisted of the following (in thousands):



                                                                 2011               2010

Due to the Fish and Wildlife Fund                            $        61       $       420
 Other Intragovernmental Liabilities                                  61               420

Offers-in-Compromise not yet Accepted                               693                358
 Total Other Liabilities with the Public                            693                358

Total Other Liabilities                                      $      754        $       778

All Other Liabilities are considered current liabilities.



                                                    92
                                   TTB 2011 Annual Report


Note 10. Liabilities Not Covered by Budgetary Resources

Liabilities not Covered by Budgetary Resources as of September 30, 2011 and 2010 consisted of
the following (in thousands):


                                                                       2011             2010

Accrued FECA Liability                                             $       36       $          48
 Total Intragovernmental Liabilities not Covered by
   Budgetary Resources                                                     36                  48

FECA Actuarial Liability                                                  308              132
Accrued Leave                                                           4,346            4,377
 Total Liabilities with the Public not Covered by
   Budgetary Resources                                                  4,654            4,509

Total Liabilities not Covered By Budgetary Resouces                     4,690            4,557

Total Liabilities Covered by Budgetary Resources                       29,248           41,862

Total Liabilities                                                  $ 33,938         $ 46,419


Note 11. Future Funding Requirements

Total liabilities not covered by budgetary resources generally do not equal the total financing
sources yet to be provided on the Reconciliation of Net Cost of Operations to Budget. The
amounts reported on the Balance Sheet are period ending balances, while the amounts reported
on the Reconciliation of Net Cost of Operations to Budget are activity for the period.

Generally, liabilities not covered by budgetary resources require future funding and can be
liquidated only with the enactment of future appropriations.




                                                93
                                    TTB 2011 Annual Report


Note 12. Imputed Financing

Imputed Financing as of September 30, 2011 and 2010 consisted of the following (in thousands):



                                                         2011               2010

Health Insurance                                     $     2,613        $     2,665
Life Insurance                                                 8                  8
Pension                                                    1,975              2,425
  Total Imputed Financing                            $     4,596        $     5,098

Imputed financing recognizes actual cost of future benefits to be paid by other Federal entities.
These benefits include Federal Employees Health and Benefits Program (FEHB), Federal
Employees Group Life Insurance Program (FEGLI), and pensions. Imputed financing also
recognizes costs paid by the Judgment Fund. The Fund was established and funded by Congress
under 31 U.S.C. 1304 to pay in whole or in part court judgments and settlement agreements
negotiated by Treasury on behalf of agencies, as well as certain types of administrative awards.
The Judgment Fund did not pay out any awards on TTB’s behalf during fiscal years 2011 or 2010.

TTB does not report CSRS assets, FERS assets, accumulated plan benefits, or unfunded liabilities, if
any, applicable to retirement plans because the accounting for and reporting of such amounts is
the responsibility of OPM. Based on cost factors provided by OPM, which vary by retirement
plan, estimated future pension benefits for TTB employees, to be paid by OPM, totaled $2.0
million and $2.4 million for fiscal years 2011 and 2010 respectively. Similarly, OPM rather than
TTB, reports liabilities for future payments to retired employees who participate in the FEHB and
FEGLI programs. The FEHB cost factor applied to a weighted average number of employees
enrolled in the FEHB program increased in FY 2011 to $6,027 from $5,906 in FY 2010, producing
$2.6 million and $2.7 million of imputed cost for employees’ health benefits in each respective
year. The cost factor, as provided by OPM, for employees enrolled in the FEGLI program,
remained unchanged from FY 2010 to FY 2011, at .02 percent of employees’ basic pay. The FEGLI
amounts totaling $8,000 each are also included as an expense and imputed financing source in
TTB financial statements for fiscal years 2011 and 2010, respectively.




                                                94
                                      TTB 2011 Annual Report


    Note 13. Consolidated Gross Cost and Earned Revenue by Budget Functional
    Classification

    Consolidated Gross Cost and Earned Revenue by Budget Function Classification as of September
    30, 2011 and 2010 consisted of the following (in thousands):


Fiscal Year Ended September 30, 2011

                         Budget Function         BFC        Gross         Earned           Net
Activity               Classification (BFC)      Code       Costs         Revenue         Costs

Intragovernmental   Central Fiscal Operations     803     $ 29,709       $   (539)      $ 29,170
With the Public     Central Fiscal Operations     803        78,579        (3,097)         75,482
Consolidated        Central Fiscal Operations     803     $ 108,288      $ (3,636)      $ 104,652

Fiscal Year Ended September 30, 2010

                         Budget Function         BFC        Gross         Earned           Net
Activity               Classification (BFC)      Code       Costs         Revenue         Costs

Intragovernmental   Central Fiscal Operations     803     $ 30,316       $    (97)      $ 30,219
With the Public     Central Fiscal Operations     803        78,007        (2,614)         75,393
Consolidated        Central Fiscal Operations     803     $ 108,323      $ (2,711)      $ 105,612




                                                 95
                                    TTB 2011 Annual Report


Note 14. Statement of Budgetary Resources vs. Budget of the United States
Government

The following charts displays balances from the FY 2010 Statement of Budgetary Resources and
actual fiscal year balances included in the FY 2012 Presidents Budgets. There were no
differences. The FY 2013 budget, which would include FY 2011 actuals, had not been published at
the time of this report.


Fiscal Year Ended September 30, 2010                              Statement of
(In Millions / Unaudited)                                          Budgetary        President's
                                                                   Resourses          Budget

Budgetary Resources Available for Obligation                      $        107      $        107

Status of Budgetary Resources Available for Obligation:
   Obligations Incurred                                           $        106      $        106
   Unobligated Balance Carried Forward, End of Year                          3                 3
Total Status of Budgetary Resources Available for Obligation      $        109      $        109

Net Outlays                                                       $         99      $            99


Additionally, the FY 2012 President’s Budget disclosed budget authority of $378 million for FY
2010, funding cover-over payments to Puerto Rico, which is not reported in the Statement of
Budgetary Resources.

The cover-over payments and associated tax revenues are reported as custodial activity of the
Bureau. The tax revenues are not available for use in the operation of the Bureau and are not
reported on the Statement of Net Cost. Likewise, the resultant cover-over payments are not
recognized as an operating expense of the Bureau. Consequently, to present the refunds as an
expense of the Bureau on the Statement of Net Cost would be inconsistent with the reporting of
the related Federal tax revenue and would materially distort the costs incurred by the Bureau in
meeting its strategic objectives. Further, since this activity is not reported on the Statement of
Net Cost, it would be contradictory to report the budget authority on the Statement of Budgetary
Resources.




                                                 96
                                   TTB 2011 Annual Report


Note 15. Apportionment Categories of Obligations Incurred

Obligations Incurred as of September 30, 2011 and 2010 consisted of the following (in thousands):


                                                                                    Total
       Fiscal          Apportionment          Direct         Reimbursable        Obligations
        Year             Category           Obligations       Obligations         Incurred

2011                     Category B         $ 103,038         $       3,955      $   106,993

2010                     Category B         $ 102,117         $       3,984      $   106,101


The amount of direct and reimbursable obligations against amounts apportioned under Category
B is reported in the table above. Apportionment categories are determined by the
apportionment categories reported on the Standard Form 132 Apportionment and
Reapportionment Schedule. Category B represents annual apportionments.



                                                        2011               2010

Undelivered Orders End of Period                      $ 13,813           $ 13,073

Note 16. Net Custodial Revenue Activity

• Excise Taxes
  As an agent of the Federal Government and as authorized by 26 U.S.C., TTB collects excise
  taxes from alcohol, tobacco, firearms, and ammunition industries. In addition, special
  occupational taxes are collected from certain alcohol and tobacco businesses. During FY 2011
  and FY 2010, TTB collected $23.5 billion and $23.8 billion respectively in taxes, interest, and
  other custodial revenues.

  Substantially all of the taxes collected by TTB net of related refund disbursements are remitted
  to the Department of Treasury General Fund. The Department of Treasury further distributes
  this revenue to Federal agencies in accordance with various laws and regulations. The firearms
  and ammunition excise taxes are an exception. Those revenues are remitted to the Fish and
  Wildlife Restoration Fund under provisions of the Pittman-Robertson Act of 1937.




                                               97
                                    TTB 2011 Annual Report


• Refunds and Other Payments

  During FY 2011 and FY 2010, TTB issued nearly $802 million and $713 million in refunds, cover-
  over payments, and drawback payments in the respective years.

  Tax Refunds

  Tax Refunds result when taxpayers file returns for payments made for a given tax period and
  the result of the return is an overpayment.

  Cover-over Payments

  Federal excise taxes are collected under the Internal Revenue Code of 1986, 26 U.S.C., on
  certain articles produced in Puerto Rico and the Virgin Islands, and imported into the United
  States. In accordance with 26 U.S.C. 7652, such taxes collected on rum imported into the
  United States are custodial revenues and “covered over,” or paid into, the treasuries of Puerto
  Rico and the Virgin Islands.

  TTB maintains operations in Puerto Rico to enforce the provisions of chapter 51 in respect to
  items of Puerto Rican manufacture brought in to the United States. These operations include
  conducting annual revenue, application, and product integrity investigations of large alcohol
  and tobacco industry members. Except for application investigations, TTB investigates medium
  and small alcohol and tobacco producers in response to specific problems and risk indicators.
  Revenue inspections are used to verify that TTB is collecting all of the revenue that is rightfully
  due from the taxpayer. TTB staff in Puerto Rico also conducts qualification inspections of all
  distilled spirits producers/processors, wineries, wholesalers, importers, Manufacturer of
  Nonbeverage Products (MNBP) claimants, and Specially Denatured Alcohol permit applicants.
  All costs associated with the functioning and supporting of the Puerto Rico office, $3.0 million
  and $2.6 million in FY 2011 and FY 2010 respectively, are offset against the cover-over
  payments made by the United States to Puerto Rico.

  Drawbacks

  Under current law, 26 U.S.C. 5134, MNBP permittees may be eligible to claim a refund of tax
  paid on distilled spirits used in their products. In the case of distilled spirits, on which the tax
  has been paid or determined, a drawback shall be allowed on each proof gallon at the rate of
  $1 less than the rate at which the distilled spirits tax had been paid or determined. The refund
  is due upon the claimant providing evidence that the distilled spirits on which the tax has been
  paid or determined were unfit for beverage purposes and were used in the manufacture or
  production of medicines, medicinal preparations, food products, flavors, flavoring extracts, or
  perfume.




                                                 98
                                           TTB 2011 Annual Report


Refunds, Drawbacks and Cover-over Payments as of September 30, 2011 and 2010 consisted of
the following (in thousands):



                                                                                  2011                  2010

 Alcohol and Tobacco Excise Tax Refunds                                         $ 33,414              $ 28,232
 Drawbacks on MNBP Claims                                                        306,584               297,596
 Interest and Other Payments                                                         418                   315
     Refunds and Drawbacks                                                       340,416               326,143

 Cover-over Payments - Puerto Rico                                               452,040                378,186
 Cover-over Payments - Virgin Islands                                              9,592                  8,871
   Amounts Provided to Non-federal Entities                                      461,632                387,057

 Total Refunds, Drawbacks and Coverover Payments                                $ 802,048         $ 713,200


Note 17. Custodial Revenue

Collection and Disposition of Custodial Revenue as of September 30, 2011 and 2010 consisted of
the following (in thousands):

FY 2011 Collections and Refunds by Tax Year

                                                                                     Pre-             FY 2011
Revenue Type                        2011           2010             2009             2009              Total

Excise Taxes                  $ 17,199,511     $ 6,240,989      $     9,052      $     7,497      $ 23,457,049
Fines, Penalties,
   Interest and Other                  3,736              466              64                95            4,361
Total Revenue Received            17,203,247       6,241,455          9,116            7,592          23,461,410
Less: Amounts Collected
   for Non-federal Entities       (461,632)              -                -                -          (461,632)
Total                         $ 16,741,615     $ 6,241,455      $     9,116      $     7,592      $ 22,999,778

Refund Type

Excise Taxes                  $     165,693    $    162,377     $    11,744      $          429   $     340,243
Fines, Penalties,
   Interest and Other                   173               -               -                   -             173
Total Refunds & Drawbacks     $     165,866    $    162,377     $    11,744      $          429   $     340,416

Amounts Provided to Fund
  the Federal Government      $ 16,575,749     $ 6,079,078      $     (2,628)    $     7,163      $ 22,659,362




                                                          99
                                           TTB 2011 Annual Report


FY 2010 Collections and Refunds by Tax Year

                                                                                     Pre-           FY 2010
Revenue Type                        2010           2009              2008            2008            Total

Excise Taxes                  $ 17,379,680     $ 6,365,498       $     2,249    $      9,086    $ 23,756,513
Fines, Penalties,
   Interest and Other                  2,491             629              91             395             3,606
Total Revenue Received            17,382,171       6,366,127           2,340           9,481        23,760,119
Less: Amounts Collected
   for Non-federal Entities       (387,057)              -                 -               -        (387,057)
Total                         $ 16,995,114     $ 6,366,127       $     2,340    $      9,481    $ 23,373,062

Refund Type

Excise Taxes                  $     171,499    $    150,309      $     2,659    $      1,543    $     326,010
Fines, Penalties,
   Interest and Other                   133               -                -               -              133
Total Refunds & Drawbacks     $     171,632    $    150,309      $     2,659    $      1,543    $     326,143

Amounts Provided to Fund
  the Federal Government      $ 16,823,482     $ 6,215,818       $      (319)   $      7,938    $ 23,046,919



Note 18. Reconciliation of Net Cost of Operations to Budget

The Reconciliation of Net Cost of Operations to Budget explains the difference between the
budgetary net obligations and the proprietary net cost of operations.

Reconciliation of Net Cost of Operations to Budget, as of September 30, 2011 and 2010 consisted
of the following (in thousands):


                                                                                      2011             2010

Resources Used to Finance Activities
   Budgetary Resources Obligated
      Obligations Incurred                                                          $ 106,993       $ 106,101
      Less: Spending Authority from Offsetting Collections
          and Recoveries                                                              (5,586)          (5,448)
      Obligations Net of Offsetting Collections and Recoveries                       101,407          100,653
      Less: Offsetting Receipts                                                          (10)              (9)
      Net Obligations                                                                101,397          100,644
   Other Resources
      Transfers-in without Reimbursement                                                  231           1,528
      Imputed Financing from Costs Absorbed by Others                                   4,596           5,098
      Net Other Resources Used to Finance Activities                                    4,827           6,626
   Total Resources Used to Finance Activities                                       $ 106,224       $ 107,270




                                                       100
                                     TTB 2011 Annual Report



Resources Used to Finance Items not Part of the
 Net Cost Of Operations
      Change in Budgetary Resources Obligated for Goods, Services
          and Benefits Ordered but not Yet Provided (+/-)                 $     523      $   (2,006)
      Resources that Fund Expenses Recognized in Prior Periods                   42             124
      Other Budgetary Offsetting Collections and Receipts that
          do not Affect Net Cost of Operations                                  221          1,519
      Resources that Finance the Acquisition of Assets                        3,311          5,402
      Other Resources or Adjustments to Net Obligated Resources
          that do not Affect Net Cost of Operations (+/-)                      (241)         (1,528)
   Total Resources Used to Finance Items not Part of the Net
    Cost of Operations                                                    $   3,856      $   3,511

Total Resources Used to Finance the Net Cost of Operations                $ 102,368      $ 103,759

Components of the Net Cost of Operations Requiring
 or Generating Resources in Future Periods
   Components Requiring or Generating Resources in Future Periods:
      Increase in Annual Leave Liability                                  $       -      $      58
      Other (+/-)                                                               176              -
   Total Components of Net Cost of Operations that will Require
      or Generate Resources in Future Periods                             $     176      $      58

Components of the Net Cost of Operations not Requiring
 or Generating Resources
      Depreciation and Amortization                                       $   2,108      $   1,795
   Total Components of Net Cost of Operations that will not Require
      or Generate Resources                                               $   2,108      $   1,795

   Total Components of Net Cost of Operations that will not Require
      or Generate Resources in the Current Period                         $   2,284      $   1,853

NET COST OF OPERATIONS                                                    $ 104,652      $ 105,612


Note 19: Contingent Liabilities

As of September 30, 2011, TTB is party to four legal actions, regarding personnel matters, where
legal counsel believes an unfavorable outcome is probable or reasonably possible. TTB estimates
the maximum amount plaintiffs can recover for these four cases is $382,000. It is estimated that
TTB’s potential liability on two of the four cases will approximate $5,200. The potential liability on
the other two cases cannot be estimated.

TTB is also party to two additional actions, regarding personnel matters, where the likelihood of
an unfavorable outcome cannot be determined. The maximum potential liability on the two
cases would be $600,000. Further, a case arose after September 30, 2011 pertaining to actions
that took place prior September 30, 2011. TTB has already reached a tentative settlement on the
matter and estimates the liability to be $51,000.




                                                  101
                                        TTB 2011 Annual Report


Required Supplementary Information (Unaudited)

Budgetary Information

Budgetary information aggregated for the purposes of the Statement of Budgetary Resources
should be disaggregated for each of an entity’s major budget accounts (i.e., Approriated Funds,
Trust Funds, Revolving Funds, or other funds) and presented as Supplementary Information.
However, for proprietary reporting, TTB only has appropriated funds. Consequently, a Combining
Statement of Budgetary Resources disaggregated by fund type has not been presented.

Excise Tax and Other Collections

                                Required Supplementary Information
                           Excise Tax and Other Collections by Fiscal Year
                                     Unaudited (In Thousands)

    Fiscal
     Year      Alcohol      Tobacco        FAET            SOT        FST           Other        Total

    2002      $6,889,401   $7,763,652    $ 205,027     $ 101,893   $ 115,609    $       159   $ 15,075,741
    2003       6,910,631    7,380,807      193,414       103,781        1,628             -     14,590,261
    2004       6,995,366    7,433,852      216,006       100,562            -           359     14,746,145
    2005       7,074,076    7,409,608      225,818        10,190            9           141     14,719,842
    2006       7,182,940    7,350,058      249,578         2,895          638           146     14,786,255
    2007       7,232,138    7,194,081      287,835         2,808            -            32     14,716,894
    2008       7,420,576    6,851,705      312,622           448            -           634     14,585,985
    2009       7,424,292   11,548,504      452,693           272    1,192,375           970     20,619,106
    2010       7,476,789   15,913,479      360,813           300        8,558           180     23,760,119
    2011       7,594,330   15,515,073      344,262           268        5,220         2,257     23,461,410
   Average    $7,220,054   $9,436,082    $ 284,807     $ 32,342    $ 132,404    $       488   $ 17,106,176



FAET – Firearms and Ammunition Excise Tax
SOT – Special Occupational Tax
FST – Floor Stock Tax

The sharp decrease in SOT tax collections was the result of a new law that became effective
during fiscal year 2005 that suspended the collection of most of the taxes. The law became
permanent in 2008.

TTB collects FAET taxes on behalf of the Department of Interior, U.S. Fish and Wildlife Service, and
deposits the collections directly into the Fish and Wildlife Restoration Fund. During fiscal years
2011 and 2010, TTB incurred $1.5 million and $2.3 million respectively of direct and indirect costs
associated with collecting the FAET taxes. The law currently does not provide for TTB to recover
these costs. The cost of the program was communicated to the U.S. Fish and Wildlife Service so
the agency could properly record an imputed cost in its financial records.




                                                     102
                                     TTB 2011 Annual Report


Refunds, Cover-over Payments, and Drawback Payments

                              Required Supplementary Information
               Refunds, Cover-over Payments and Drawback Payments by Fiscal Year
                                    Unaudited (In Thousands)

  Fiscal   Cover Over      Cover Over        A&T         Drawbacks       Interest
   Year    Puerto Rico    Virgin Islands   Excise Tax   MNBP Claims     and Other         Total

  2002     $    340,362    $     5,145     $   10,523    $   361,854   $     1,855    $   719,739
  2003          356,144          6,405         15,168        296,168         2,011        675,896
  2004          335,293          6,244         15,409        355,605         1,216        713,767
  2005          419,602          6,010         18,504        317,132         2,100        763,348
  2006          358,664          6,491         17,524        337,632           699        721,010
  2007          459,278          8,054         13,208        335,706           972        817,218
  2008          373,418          7,615         14,125        283,462         2,938        681,558
  2009          472,695          8,624         17,791        268,612           252        767,974
  2010          378,186          8,871         28,232        297,596           315        713,200
  2011          452,040          9,592         33,414        306,584           418        802,048
 Average   $    394,568    $     7,305     $   18,390    $   316,035   $     1,278    $   737,576



A&T – Alcohol and Tobacco
MNBP – Manufacturer of Nonbeverage Products
Note: During December 2010, the Puerto Rico cover-over rate was increased from $10.50 per
proof gallon to $13.25 per proof gallon, with retroactive provisions, resulting in a substantial
increase in the Puerto Rico cover-over payments in FY 2011. The increased rate expires
December 31, 2011.




                                                103
                                TTB 2011 Annual Report


Other Accompanying Information (Unaudited)
Intragovernmental Assets

                             Other Accompanying Information
                                Intragovernmental Assets
                                As of September 30, 2011
                                Unaudited (In Thousands)

                             Agency    Fund Balance        Accounts
Trading Partner               Code      W/ Treasury        Receivable       Advances

Department of the Treasury      20      $         37,866   $      352   $         829
General Fund                    99                     -        2,022               -
          Total                         $         37,866   $    2,374   $         829


                             Other Accompanying Information
                                Intragovernmental Assets
                                As of September 30, 2010
                                Unaudited (In Thousands)

                             Agency    Fund Balance        Accounts
Trading Partner               Code      W/ Treasury        Receivable       Advances

Department of the Treasury      20      $         36,748   $      567   $         852
General Fund                    99                     -       12,802               -
          Total                         $         36,748   $   13,369   $         852




                                            104
                                     TTB 2011 Annual Report


Intragovernmental Liabilities

                                  Other Accompanying Information
                                    Intragovernmental Liabilities
                                      As of September 30, 2011
                                      Unaudited (In Thousands)

                                          Agency       Accounts         Accrued    Custodial and
Trading Partner                            Code         Payable          FECA      Other Liabilities

Government Printing Office                  04         $    154     $          -   $              -
Department of the Interior                  14                -                -                 61
Department of Justice                       15              150                -                  -
Department of Labor                         16                -               36                  -
Department of the Treasury                  20               36                -                  -
Office of Personnel Management              24                -                -                476
General Services Administration             47              158                -                  -
Treasury General Fund                       99                2                -              4,246
                    Total                              $    500     $         36   $          4,783



                                  Other Accompanying Information
                                    Intragovernmental Liabilities
                                      As of September 30, 2010
                                      Unaudited (In Thousands)

                                          Agency       Accounts         Accrued    Custodial and
Trading Partner                            Code         Payable          FECA      Other Liabilities

Government Printing Office                  04         $     19     $          -   $              -
Department of the Interior                  14                -                -                420
Department of Justice                       15              273                -                  -
Department of Labor                         16                -               48                  -
Department of the Treasury                  20                2                -                  -
Office of Personnel Management              24                -                -                422
General Services Administration             47              404                -                  -
Treasury General Fund                       99                2                -              7,709
                    Total                              $    700     $         48   $          8,551




                                                 105
                               TTB 2011 Annual Report


Intragovernmental Earned Revenue

                             Other Accompanying Information
                            Intragovernmental Earned Revenue
                 For the Fiscal Years Ended September 30, 2011 and 2010
                                 Unaudited (In Thousands)



                                   Agency
 Trading Partner                    Code                  2011                2010

 Department of Treasury                20            $         514        $          97
 GSA                                   47                       25                    -
  Total                                              $         539        $          97


 Budget Function                     BFC
 Classification (BFC)                Code                 2011                2010

 Central Fiscal Operations            803            $         539        $          97
  Total                                              $         539        $          97




                                            106
                                     TTB 2011 Annual Report


Intragovernmental Gross Cost

                                  Other Accompanying Information
                                    Intragovernmental Gross Cost
                      For the Fiscal Years Ended September 30, 2011 and 2010
                                      Unaudited (In Thousands)


                                                    Agency
    Trading Partner                                  Code            2011             2010

    Library of Congress                                03        $        69      $        53
    Government Printing Office                         04                257              176
    Department of Interior                             14                  -               60
    Department of Justice                              15                651              694
    Department of Labor                                16                 16               11
    United States Postal Services                      18                 44                -
    Department of State                                19                  1               18
    Department of the Treasury                         20              6,172            6,453
    Office of Personnel Management                     24             12,914           13,171
    General Services Administration                    47              6,213            6,375
    Environmental Protection Agency                    68                  8               20
    Department of Homeland Security                    70                362              290
    Department of Health and Human Services            75                  2               29
    National Archives Records Administration           88                 30               36
    Department of Defense                              97                 95               38
    General Fund                                       99              2,875            2,892
                        Total                                    $    29,709      $    30,316


During fiscal years 2011 and 2010, TTB incurred costs with other Federal agencies totaling
approximately $30 million in each of the respective years. The majority of those costs were
associated with the five entities detailed below.

• Department of Justice: TTB paid ATF $651,000 and $694,000 in fiscal years 2011 and 2010
  respectively for shared lab space and shared building services.
• Department of the Treasury: The Bureau received services from Treasury’s Working Capital
  Fund, as well as administrative services from the Bureau of Public Debt’s Administrative
  Resource Center, in fiscal years 2011 and 2010 in the amounts of $6.2 million and $6.5 million
  respectively.
• Office of Personnel Management: TTB incurred $12.9 million and $13.2 million in costs for
  employee benefits for fiscal years 2011 and 2010 respectively.
• General Services Administration: TTB paid $6.2 million and $6.4 million to GSA for rent and
  information technology services in fiscal years 2011 and 2010 respectively.
•    General Fund: The Bureau paid $2.9 million in each of the respective years for employee
     benefits and lockbox fees.


                                                107
                                                 TTB 2011 Annual Report




Part IV
Appendices

Principal Officers of TTB

Administrator ............................................................................................................ John Manfreda

Deputy Administrator ...................................................................................................... Mary Ryan

Equal Employment Opportunity and Diversity Advancement ................................. Altivia Jackson

Assistant Administrator, Field Operations ......................................................................Tom Crone

Assistant Administrator, Headquarters Operations ................................................. William Foster

Assistant Administrator, Management/CFO.............................................................. Cheri Mitchell

Assistant Administrator, Information Resources/CIO ............................................. Robert Hughes

Director, Office of Inspection .............................................................................. Theresa Glasscock

Executive Liaison for Industry and State Matters ......................................................... Susan Evans

Chief Counsel ......................................................................................................... Robert Tobiassen



                                           For additional information, contact:



                                      Alcohol and Tobacco Tax and Trade Bureau

                                                  1310 G Street, NW, Box 12

                                                    Washington, DC 20005



                                                          (202) 453-2000



                                                      http://www.ttb.gov


                                                                  108
            TTB 2011 Annual Report




TTB Organization Chart




                     109
                                    TTB 2011 Annual Report


Connecting the Treasury and TTB Strategic Plans
   TREASURY STRATEGIC GOALS
                                      TTB STRATEGIC GOALS                 TTB OBJECTIVES
        AND OBJECTIVES

        Economy: U.S. and World Economies Perform at Full Economic Potential


  TREASURY ECONOMIC                PROTECT THE PUBLIC (PTP):          TTB PTP OBJECTIVES
  STRATEGIC OBJECTIVE:
  Improved economic                Alcohol and tobacco industry   PTP 1. BUSINESS INTEGRITY:
  opportunity, mobility and        operators meet permit          Assure that only qualified
  security with robust, real,      qualifications, and alcohol    persons and business entities
  sustainable economic growth      beverage products comply       operate within the industries TTB
  at home and abroad               with federal production,       regulates
                                   labeling, and marketing
  Outcome:                         requirements                   PTP 2. PRODUCT INTEGRITY:
                                                                  Assure that alcohol beverage
  Strong U.S. economic                                            products comply with Federal
  competitiveness                                                 production, labeling, and
                                                                  advertising requirements

                                                                  PTP 3. MARKET INTEGRITY:
                                                                  Assure fair trade practices
                                                                  throughout the alcohol beverage
                                                                  marketplace




Note: TTB revised its goals and objectives in FY 2010, and will reflect these changes in its next
iteration of its strategic plan. The current TTB strategic plan covers the period of FY 2007 – 2012.




                                                110
                                  TTB 2011 Annual Report

TREASURY STRATEGIC GOALS
                                        TTB STRATEGIC GOALS                   TTB OBJECTIVES
     AND OBJECTIVES

                Finance: Effectively Managed U.S. Government Finances


TREASURY FINANCIAL                   COLLECT THE REVENUE (CTR):             TTB CTR OBJECTIVES
STRATEGIC OBJECTIVE:
Available cash resources to          Enforce the tax code to ensure   CTR 1. TAX VERIFICATION AND
                                     proper Federal tax payment       VALIDATION: Assure voluntary
operate the government
                                     on alcohol, tobacco, firearms,   compliance in the timely and
                                     and ammunition products
Outcome: Revenue collected                                            accurate remittance of tax
when due through a fair and                                           payments
uniform application of the law
at the lowest possible cost                                           CTR 2. CIVIL AND CRIMINAL
                                                                      ENFORCEMENT: Detect and
                                                                      address noncompliance, excise
                                                                      tax evasion, and other criminal
                                                                      violations of the Internal
                                                                      Revenue Code in the industries
                                                                      TTB regulates




TREASURY STRATEGIC GOALS
                                        TTB STRATEGIC GOALS                  TTB OBJECTIVES
     AND OBJECTIVES
         Security: Strengthened International Financial System Security and
                           Enhanced U.S. National Security
TREASURY SECURITY
STRATEGIC OBJECTIVE:                  PROTECT THE PUBLIC:             TTB PTP OBJECTIVES (Security):
Prevented terrorism and
promoted the Nation’s security        Alcohol and tobacco             PTP 1. BUSINESS INTEGRITY:
through strengthened                  industry operators meet         Assure that only qualified
international financial systems                                       persons and business entities
                                      permit qualifications, and
                                      alcohol beverage products       operate within the industries
Outcome: Removed or reduced                                           TTB regulates
                                      comply with federal
threats to national security from
                                      production, labeling, and
terrorism, proliferation of
weapons of mass destruction,
                                      marketing requirements
narcotics trafficking and other
criminal activity on the part of
rogue regimes, individuals, and
their support networks


                                            111
                             TTB 2011 Annual Report

  TREASURY STRATEGIC
                                  TTB STRATEGIC GOALS                 TTB OBJECTIVES
 GOALS AND OBJECTIVES

              Management: Management and Organizational Excellence


TREASURY MANAGEMENT          MANAGEMENT AND                      TTB MGT OBJECTIVES:
STRATEGIC OBJECTIVE:         ORGANIZATIONAL EXCELLENCE:
Enabled and effective                                          MGT 1. HUMAN CAPITAL
Treasury Department          Maximize performance,             MANAGEMENT: Maintain a
                             efficiency, and program results   qualified, engaged, and satisfied
Outcome: A citizen-          through effective resource and    workforce
centered, results-oriented   human capital management
and strategically aligned                                      MGT 2. TECHNOLOGY
organization                                                   SOLUTIONS: Deliver effective,
                                                               streamlined, and flexible IT
Outcome: Exceptional
                                                               solutions that add value and
accountability and
                                                               support program performance
transparency
                                                               MGT 3. FINANCE AND
                                                               PERFORMANCE RESULTS:
                                                               Facilitate strategic
                                                               management and financial
                                                               accountability through the
                                                               delivery of timely and reliable
                                                               financial and performance
                                                               information




                                         112
